<html>
<title> - DEMOCRATIC DEVELOPMENTS IN SUB-SAHARAN AFRICA: MOVING FORWARDS OR BACKWARDS?</title>
<body><pre>[Senate Hearing 110-190]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-190
 
   DEMOCRATIC DEVELOPMENTS IN SUB-SAHARAN AFRICA: MOVING FORWARDS OR 
                               BACKWARDS?

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     U.S. GOVERNMENT PRINTING OFFICE

38-959 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                RUSSELL D. FEINGOLD, Wisconsin, Chairman

BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
BENJAMIN L. CARDIN, Maryland         DAVID VITTER, Louisiana
JIM WEBB, Virginia                   CHUCK HAGEL, Nebraska

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Albin-Lackey, Christopher, Nigeria researcher, Human Rights 
  Watch, Washington, DC..........................................    41
    Prepared statement...........................................    43
Amosu, Akwe, senior policy analyst for Africa, Open Society 
  Institute, Washington, DC......................................    48
    Prepared statement...........................................    50
Feingold, Hon. Russell D., U.S. Senator from Wisconsin...........     1
Hess, Hon. Michael E., Administrator of the Bureau for Democracy, 
  Conflict and Humanitarian Assistance, U.S. Agency for 
  International Development, Washington, DC......................    15
    Prepared statement...........................................    18
Lowenkron, Hon. Barry F., Assistant Secretary of State, Bureau of 
  Democracy, Human Rights and Labor, Department of State, 
  Washington, DC.................................................     4
    Prepared statement...........................................     8
Lugar, Hon. Richard G., U.S. Senator from Indiana................     3
Lyman, Hon. Princeton N., adjunct senior fellow for Africa Policy 
  Studies, Council on Foreign Relations, Washington, DC..........    36
    Prepared statement...........................................    38
Peterson, Dave, senior director, Africa Program, National 
  Endowment for Democracy, Washington, DC........................    61
    Prepared statement...........................................    63
Sununu, Hon. John E., U.S. Senator from New Hampshire............    15

         Additional Prepared Statement Submitted for the Record

Rothberg, Robert I., adjunct professor and director, Program on 
  Intrastate Conflict, Kennedy School of Government, Harvard 
  University and president, World Peace Foundation...............    68

                                 (iii)




   DEMOCRATIC DEVELOPMENTS IN SUB-SAHARAN AFRICA: MOVING FORWARDS OR 
                               BACKWARDS?

                              ----------                              


                         TUESDAY, JULY 17, 2007

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 419, Dirksen Senate Office Building, Hon. Russell Feingold 
(chairman of the subcommittee) presiding.
    Present: Senators Feingold, Nelson, Lugar, and Sununu.

  OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR 
                         FROM WISCONSIN

    Senator Feingold. Good morning. This hearing will come to 
order and on behalf of the Senate Foreign Relations 
Subcommittee on African Affairs, I welcome all of you to this 
hearing on the progress of, obstacles to, and prognosis for 
democracy on the African Continent.
    I look forward to being joined by my colleague and ranking 
member of the subcommittee, Senator Sununu, and of course I'm 
delighted to see the ranking member of the full committee, 
Senator Lugar, and just after my remarks, I'll certainly look 
to Senator Sununu and Senator Lugar for any remarks they have 
at the outset of the hearing.
    Today marks the third day of ``Captive Nations Week 2007.'' 
In designating it as such last Tuesday, President George W. 
Bush declared--and I quote--``expanding freedom is a moral 
imperative,'' and issue a call ``to reaffirm our commitment to 
all those seeking liberty, justice and self-determination.'' 
This is a common theme of the current administration. In his 
inauguration speech, President Bush spoke about ``the force of 
human freedom'' and stated that it is a policy of the United 
States ``to seek and support the growth of democratic movements 
and institutions in every nation and culture.''
    I agree that democracy and good governance are essential to 
achieving stability, prosperity, and legitimacy--particularly 
in countries emerging from a legacy of colonization and 
conflict, like many of the countries in Africa. Unfortunately, 
I'm concerned that despite this administration's strong 
rhetorical commitment to freedom, systematic, and often violent 
suppression of democratic principles and practices by foreign 
governments have been only weakly admonished and are often 
overlooked.
    This disparity between principle and policy is perhaps most 
evident in Africa, where in theory the promotion of democracy 
and human rights remains a top United States objective, but in 
practice, it receives limited attention and resources and is 
frequently subordinated to other strategic necessities.
    Although many African countries have little or no 
experience with true democracy, people across the continent 
have shown unshakable determination to make sure that they have 
a voice in their government. Last fall, more than 16 million 
citizens in the Democratic Republic of Congo, traveled miles, 
waited in long lines and braved torrential rain to participate 
in that country's first free Presidential and parliamentary 
multiparty elections in almost four decades. Right now, 
opposition politicians who were denied fair pulls in Nigeria in 
April have renounced violent protests in favor of fighting for 
their political rights in court. These are important benchmarks 
but as most of you already know, elections are only the 
beginning of democratic development and it is what comes after 
that is so critical and yet so often overlooked and 
underresourced.
    The most recent edition of Freedom House's annual survey of 
freedom in the world notes that the number of sub-Saharan 
African countries categorized as free has grown from just 3, 30 
years ago, to 11 today. However, with 48 countries in the 
region, 11 is still insufficient. The same report noted that 
after several years of steady advances for democracy, sub-
Saharan Africa suffered more setbacks than gains during the 
year 2006. This trend of backsliding is worrisome and demands a 
reconsideration of United States efforts to promote good 
governments and democracy in the region.
    The purpose of this hearing is to consider how the United 
States can maximize the impact of its resources in advancing 
governance, democracy, and the rule of law in African countries 
to help achieve a wide range of objectives.
    Our first panel of government representatives will help 
shed light on where, why, and how United States democracy 
promotion resources are distributed and how this assistance is 
tailored to address unique challenges in various African 
countries.
    We are fortunate to have with us Mr. Barry F. Lowenkron, 
the Assistant Secretary of State in the Bureau of Democracy, 
Human Rights and Labor as well as Mr. Michael Hess, the 
Assistant Administrator for the Bureau for Democracy, Conflict 
and Humanitarian Assistance at the U.S. Agency for 
International Development. Both have long histories of service 
to the United States in policymaking capacities so I look 
forward to hearing their insights and opinions about what the 
United States is doing right in terms of our democracy and 
government activities in Africa, as well as their ideas about 
how we can be even more effective.
    We will have a second full panel of distinguished 
individuals who will review and seek to derive lessons from 
recent elections, including the general success of polls in 
Liberia, the Democratic Republic of Congo, and Mauritania, as 
well as from Nigeria's disappointing elections and the 
persistent obstacles to free and fair polls in countries like 
Angola and Zimbabwe.
    The Honorable Princeton Lyman is currently an adjunct 
senior fellow for Africa Policy Studies at the Counsel on 
Foreign Relations but his distinguished career includes 
extensive Africa-related experience including service as the 
United States Ambassador to South Africa during that country's 
historic transition to democracy. Mr. Christopher Albin-Lackey 
is the senior Nigeria researcher at Human Rights Watch and his 
most recent work has documented the human rights impact of 
local government corruption and mismanagement in the Niger 
Delta and pervasive human rights abuse connected to Nigeria's 
rigged 2007 elections. As the Open Society Institute's Senior 
Policy Analyst for Africa, Ms. Akwe Amosu facilitates links 
between Africa-based foundations, initiatives, and grantees and 
the international policy community in Washington, DC, after 
spending more than two decades as a journalist and radio 
producer in leading Africa and Africa-targeted media.
    Finally, we will hear from Mr. David Peterson, the senior 
director of the National Endowment for Democracy's Africa 
Program. Since 1988, Mr. Peterson has been responsible for 
NED's program to identify and assist hundreds of African 
nongovernmental organizations and activists working for 
democracy, human rights, free press, justice, and peace.
    Unfortunately, Dr. Robert Rotberg, director of the Kennedy 
School of Government's Program in Intrastate Conflict and 
Conflict Resolution was unable to join us this morning but he 
has written some compelling testimony on lessons from Africa's 
most successful countries, which I'd like to submit for the 
record now without objection.
    We're very glad that you're all here today and we 
appreciate your willingness to testify. Thank you and welcome. 
The timing of this hearing was designed to promote ongoing 
discussion about how best to help Africa nations build 
sustainable institutions and create governments that are 
elected by and accountable to their citizens. I know that each 
of you have valuable insight to contribute to this 
conversation. I would argue that the promotion of governance 
and democracy in Africa is more than a moral imperative; it is 
in our national interest to help burgeoning governments 
beginning legitimate dialog with their citizens enhance public 
service delivery, strengthen the rule of law, implement and 
defend human rights, and improve their reputation at home and 
abroad.
    Now it's my pleasure to turn to the ranking member of the 
full committee who not only is our former distinguished 
chairman, but also had a great deal to do with the freedom that 
the people of South Africa enjoy today.
    Mr. Lugar.

 STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman and I 
thank you once again for your leadership and your dogmatic 
persistence in pursuing the themes in Africa that are so 
important. The democratic theme, which is today's hearing, is 
one that has intrigued this committee and Senators for many, 
many years. The beginnings of the National Endowment for 
Democracy were not the beginnings of an interest in democracy 
in other countries, but this organized effort, back in the 
Reagan administration, brought together the two political 
parties, the Chamber of Commerce, and the labor organizations 
of this country, in a unique way. During that particular decade 
and shortly thereafter, many Senators participated as observers 
in the elections efforts, particularly in Central and South 
America.
    One theme of that period was that all countries, in one 
form or another, embraced democracy, held elections, with the 
possible exception of Cuba. That theme carried over then with 
the breakup of the former Soviet Union and elections that had 
been somewhat more difficult have ensured progress in that part 
of the world.
    But it's also brought a reaction from Russia recently and 
those of you who are testifying today are all aware of the 
difficulties of the NGOs in Moscow as to their activities as to 
whether they are going to be allowed to continue at all. In 
other words, there is a pushback now against what seemed to be 
almost a given in terms of thoughtfulness around the world for 
human rights and expansion of democratic ideals that are a part 
of this session today.
    I will be curious as the witnesses testify as to how Africa 
is the same or different from the Latin American experience or 
the breakup of the former Soviet Union and it could very well 
be that some of the testimony will simply point out that with 
over 40 countries involved, there may be 40 different 
backgrounds of experience, that there is not a template for 
Africa that necessarily works.
    But it's important that we all try to understand this in a 
much more sophisticated way and, therefore, I applaud the 
hearing. I thank the witnesses for giving us their time and 
testimony again. I look forward to hearing from them.
    Thank you very much, Mr. Chairman.
    Senator Feingold. Thanks so much, Senator Lugar and now we 
will begin with the first panel.
    Secretary Lowenkron.

 STATEMENT OF HON. BARRY F. LOWENKRON, ASSISTANT SECRETARY OF 
STATE, BUREAU OF DEMOCRACY, HUMAN RIGHTS AND LABOR, DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Mr. Lowenkron. Thank you, Mr. Chairman, Senator Lugar. 
Thank you for holding this hearing on democracy in sub-Saharan 
Africa. If I may, I'd like to ask that my full testimony be 
entered into the record.
    Senator Feingold. Without objection.
    Mr. Lowenkron. Thank you. I appreciate the subcommittee's 
strong interest in this vast, varied, and vibrant region. The 
advancement of human rights and democratic principles is 
crucial to stability and development in Africa and I would add, 
as you put it, Mr. Chairman, this is not just simply a moral 
imperative but also a strategic imperative for the United 
States and for our allies and friends.
    The United States has committed to forging partnerships 
with democracies across Africa that seek to build a continent 
of peace and prosperity where the rights of all men and women 
are protected. As Secretary Rice noted, in recent years in 
Africa we have seen a democratic transformation sweep the 
continent.
    Indeed, Africa today is home to several strong multiparty 
democracies. South Africa, Botswana, Ghana, and Mali. Indeed, 
Mali will host a November ministerial meeting with the 
worldwide Community of Democracies.
    Despite these positive trends, Africa also bears witness to 
serious human rights abuses. In Sudan, Zimbabwe, Eritrea, and 
Chad, governments trample basic civil and political freedoms. 
Now the role models and the reprobates stand out. The rest--and 
they constitute the majority of African countries--struggle 
somewhere in between. In Africa as in other regions of the 
world, gains for human rights and democracy are hard won and 
challenging to sustain.
    None of us underestimates the challenges that reformers 
face in building democratic governance amidst poverty, ethnic 
tension, and weak government institutions. But even as we 
acknowledge these challenges, we cannot let those who feel 
threatened by change use those challenges as an excuse for 
authoritarian rule.
    Mr. Chairman, democracy is not chemistry. You cannot 
concoct democracy using a formula. There are three elements 
that are, however, essential to any democracy. One, free and 
fair elections. As you put it, Mr. Chairman, that is often the 
first step. It's not enough. Two, good governance including the 
rule of law. And three, a robust civil society.
    If I may, let me illustrate each of democracy's three 
essential elements in the context of Africa. First, elections. 
Elections in Liberia, the Democratic Republic of Congo and 
Mauritania give rise to cautious optimism. Several of our key 
partners, however, have held disappointing elections. In April, 
Nigeria squandered an important opportunity to improve upon its 
flawed 2003 elections and that Nigeria missed this opportunity 
is even more disappointing, considering the vibrancy of its 
civil society, the influence of its active media, and the 
strength of its legal system.
    There were a few bright spots. The Supreme Court reinstated 
an opposition candidate to the ballot and the former National 
Assembly refused to go along with now former President 
Obasanjo's attempt to secure a third term. We have stressed to 
Nigerian leaders the need for political and judicial reform. We 
have also encouraged Nigeria to expedite election tribunals and 
to strengthen the independence and the capacity of the 
Independent National Election Commission.
    The runup to Ethiopia's May 2005 elections was a time of 
unprecedented democratic openness. However, the expulsion of 
NDI, IRI, and IFES 6 weeks before the Election Day created an 
atmosphere heavy with suspicion. As rumors of malfeasance grew 
after the elections, the Ethiopian Government responded to 
street protests with lethal force and illegally detained 
opposition leaders and tens of thousands of their supporters.
    In Addis Ababa earlier this year, I raised the issue with 
Prime Minister Meles and met with the families of imprisoned 
leaders and journalists. To this day, the crackdown cast a 
shadow over the Ethiopian Government, though the Prime Minister 
announced yesterday that he plans to recommend clemency for the 
opposition leaders found guilty on June 11 and sentenced to 
life imprisonment.
    Let me now turn to the second essential element of 
democracy: Good governance. The rule of law must prevail over 
politics and personalities and replace cultures of corruption, 
which have undermined so many reform efforts in Africa. An 
important way we encourage and support good governance is 
through the Millennium Challenge Account Initiative enacted by 
the Congress in 2004. Only countries that have adopted good 
governance principles are eligible for MCA development funding. 
Of the MCA compacts signed to date, six are with governments in 
Africa for a total of $2 billion in assistance.
    Good governance also requires the active participation of 
the business sector and civil society. The Extractive 
Industries Transparency Initiative is a good example of a 
private/public anticorruption effort. A number of African 
countries have put the initiative's practices into effect, most 
notably, Botswana, South Africa, and Namibia.
    I will now turn to the third essential element of 
democracy, a vibrant civil society. The worldwide push for 
democracy is being felt in Africa. As this trend grows 
stronger, it is encountering increasing resistance from those 
who feel threatened by change. I recall, Senator Lugar, you 
chaired a very, very significant committee meeting on the 
worldwide pressure against NGOs just last year and Africa is 
not exempt from this pressure.
    A number of African countries apply restrictive laws and 
regulations against NGOs and the media. They subject human 
rights and democracy defenders to extrajudicial measures. In 
Zimbabwe, as we all know, civil society remains under heavy 
siege. Eritrea and Equatorial Guinea enacted burdensome 
registration requirements and apply heavy-handed oversight to 
make it all but impossible for NGOs to exist. In some cases, 
most dramatically in Sudan, when governments persecute NGOs, 
what is at stake is not just the preservation of liberties but 
the protection of lives.
    Mr. Chairman, that brings me to the countries that pose 
some of the greatest challenges in the region: Sudan and 
Zimbabwe. In March, I traveled to Sudan to assess firsthand the 
appalling situation in Darfur. Fear and anxiety permeated the 
region. Yet in the hell of the Kalma IDP camp, I also saw 
determination. A group of IDPs had organized themselves into a 
legal aid society. In the sweltering heat, my team and I talked 
with these amazing people and the other IDPs that they were 
assisting. One man said, ``I am 37 years old and never knew 
what human rights were until I actually came to this camp.'' 
Before he learned about his rights from this legal aid society, 
he said he thought it was normal for police to arbitrarily 
harass, arrest, and beat people.
    The African Union U.N. hybrid force must be deployed to 
Sudan, to Darfur, without delay. And yet again, a new Security 
Council resolution authorizing the force is being discussed. As 
Secretary Rice noted just last week, we must not let the 
Government of Sudan continue this game of cat-and-mouse 
diplomacy, making promises and then going back on them.
    Yet even as the world's attention focuses on Darfur, it is 
imperative that we continue to support the 2005 North-South 
Comprehensive Agreement or CPA. That agreement stopped the war 
that resulted in the deaths of an estimated 2 million people. 
But stopping the war is not the same as securing the peace. 
Sudan's election is planned for February 2009. These are 
critical elements to the peace process.
    In Zimbabwe, it is clear that President Mugabe intends to 
do whatever it takes to get reelected. On June 6, the 
Government of Zimbabwe violently suppressed a peaceful 
demonstration by the NGO Women of Zimbabwe Arise.
    This latest aggression against civil society comes on the 
heels of violent attacks this spring. In late June, the 
government and the opposition agreed on an agenda for 
negotiations that includes constitutional and electoral 
reforms, security legislation, and rules of political 
engagement. It's a good step. But given the behavior of 
President Mugabe, none of us dares think that the road ahead 
will lead easily to stability, prosperity, and liberty for the 
people of Zimbabwe.
    Dealing with such challenges requires not only American 
support but the energetic engagement of Africa's regional 
institutions and the support of other countries and 
institutions around the world in helping Africa. We have made 
it a priority to intensify our relationships with those 
institutions and with the African Union in particular.
    The AU architecture is still evolving but it is promising. 
It includes the adoption this January of the African Charter on 
Democracy, Elections and Governance, and the creation of an 
African Court on Human and Peoples' rights. It is very much in 
our interest and in the interest of other democracies to help 
strengthen the capacity of these AU bodies.
    To that end, Mr. Chairman, in March, I met with AU 
commissioners in Addis Ababa. I planted the seeds for formal 
human rights and democracy consultations with the AU and in the 
fall, my Bureau will host the first such consultations.
    Mr. Chairman, before I conclude, let me briefly respond to 
your request to hear about the human rights and democracy 
assistance programs that my Bureau is funding. DRL has 
significantly raised its level of programming assistance for 
Africa as a result of the congressionally mandated funding for 
the Human Rights and Democracy Fund or as we call it, HRDF.
    When I arrived in DRL in the fall of 2005, DRL had a little 
more than $3 million for all of Africa. With congressional 
support, we tripled the level to nearly $10 million and have 
expanded our programmatic reach to critical countries like 
Zimbabwe, Ethiopia, and Burundi. With 2007 funds, we will 
program approximately $10 million for Africa and we have 
ongoing FY06 programs that are supporting post-election dialog 
in Ethiopia and building the capacity of the judiciary in the 
Democratic Republic of Congo, combating gender-based violence 
in Ethiopia and Sudan, fighting corruption in Cote d'Ivoire and 
Burundi and strengthening civil society efforts in Zimbabwe.
    In closing, Mr. Chairman, let me say that no matter who 
suceedes me as Assistant Secretary and no matter what 
administration follows the current one, the United States must 
continue to respond to the pressing demands of Africans for 
dignity and liberty.
    Thank you.
    [The prepared statement of Mr. Lowenkron follows:]

 Prepared Statement Barry F. Lowenkron, Assistant Secretary of State, 
   Bureau of Democracy, Human Rights and Labor, Department of State, 
                             Washington, DC

    Chairman Feingold and members of the committee, thank you for 
holding this hearing on democracy in sub-Saharan Africa. I deeply 
appreciate the subcommittee's strong interest in this vast, varied, and 
vibrant region.
    The Bush administration has put in place dynamic policies and 
programs that demonstrate the American people's generous commitment to 
Africa. And I have worked with my counterpart and with the officers of 
the Africa Bureau at the State Department to implement that commitment.
    Mr. Chairman, as President Bush has said, ``At a time when freedom 
is on the march around the world, it is vital that the continent of 
Africa be a place of democracy, prosperity, and hope.''
    I am sure that my USAID colleague, Michael Hess, will agree that 
the advancement of human rights and democratic principles is integral--
indeed crucial--to stability and development in the region. The United 
States is committed to forging partnerships with democracies across 
Africa that seek to build a continent where there is peace, where there 
is prosperity, and where the rights of all men and women are protected.
    Mr. Chairman, this will be my last testimony to Congress before I 
retire from the Federal Government after 31 years of public service. I 
began my government career at the same time the Bureau I now head was 
created on the initiative of Congress. During the three decades of the 
Bureau's existence, every administration and each of my predecessors 
has been able to count on the bipartisan backing of the Congress. Your 
support has immeasurably strengthened our capacity to defend courageous 
men and women around the globe who work, against great odds and at 
great risk, to advance the cause of freedom.
    Promoting democracy and human rights in Africa has been one of my 
top priorities during the 2 years I have served as Assistant Secretary. 
I have no doubt that my Bureau's engagement on these issues will be a 
priority for my successor as well, for it remains a priority for 
President Bush and Secretary Rice.
    As I prepare to depart the Bureau, I take satisfaction in knowing 
that I will leave behind a talented, dedicated, and strong Africa team 
to carry on this important work. I am proud to say that we have 
quadrupled the number of personnel working on Africa issues and we also 
now have a separate position devoted to enhancing our cooperation with 
the African Union.
    Mr. Chairman, in every region of the world--not least in Africa--
increasing numbers of men and women are pressing for their rights to be 
respected and their governments to be responsive, for their voices to 
be heard and their votes to count, for just laws and equal justice for 
all. Indeed, as Secretary Rice has noted: ``in recent years in Africa, 
we have seen a democratic transformation sweep the continent.''
    Africa today is home to several strong, multiparty democracies. 
South Africa, Botswana, Ghana, and Mali serve as models for the 
continent by virtue of their free and fair elections, their robust 
civil societies, and their respect for the rule of law. Indeed, Mali 
will host the next ministerial meeting of the worldwide Community of 
Democracies in November. It is apt that Mali has chosen as a major 
focus of the meeting the close interrelationship between democracy and 
development, underscoring that democracy and development must go hand 
in hand, if both efforts are to succeed.
    Despite these positive trends, Africa also bears witness to serious 
human rights abuses that demand our active attention. In Sudan, 
Zimbabwe, Eritrea, and Chad, governments trample basic civil and 
political freedoms, violating the International Covenant on Civil and 
Political Rights and the African Union's own Charter on Democracy.
    The role models and the reprobates stand out. The rest, and they 
constitute the majority of African countries, struggle somewhere in 
between. That should come as no surprise. In Africa, as in other 
regions of the world, gains for human rights and democracy are hard won 
and challenging to sustain. Even when democratic systems of government 
have been established, they take time to deliver on the promise they 
hold of a better life for ordinary citizens. Democratic systems with 
shallow institutional roots or scarce resources can fall far short of 
meeting their commitments to citizens. Steps forward can be marred with 
irregularities. Countries where rulers are insufficiently committed to 
reform can revert to authoritarian habits. Democratic transitions can 
be tumultuous and wrenching. Unbridled corruption can retard democratic 
development, distort judicial processes, and destroy public trust. 
Insecurity due to internal or cross-border conflict can threaten 
advances made for human rights and democratic government.
    Progress is seldom linear. That is why, when I meet with Secretary 
Rice, the question that comes up the most is: ``What is the 
trajectory?'' Is the country more responsive to its citizens? Is a 
culture of just laws taking root? Some countries may remain fragile for 
quite some time. Others may backslide.
    We do not underestimate the challenges that reformers face in 
building democratic governance amidst the conditions of poverty, ethnic 
tension, and weak government institutions prevalent still in much of 
Africa. Africans are engaged today in trying to simultaneously build 
their democracies and also their economies, infrastructure, and 
national identities. But even as we acknowledge and account for these 
challenges, we and the millions of Africans who support democratic 
reform cannot let those who feel threatened by change use those 
challenges as an excuse for continued authoritarian rule. Democracy 
supported by visionary leaders must be a central part of the solution 
to the continent's other challenges.
    A sustained commitment on our part and that of other democracies in 
the region and across the international community also is required. We 
fully recognize, however, that democracy promotion is not chemistry. 
You cannot concoct democracy using a formula. Three interrelated 
elements are, however, essential to any democracy. One element, of 
course, is elections. Democratic elections are one of the important 
milestones on the long journey of democratization. But a free election 
is not a fair election if in the runup to Election Day the playing 
field is not level because the political process is manipulated and 
basic rights are undermined. A second element must be present for 
democracy to work: Good governance, including the rule of law. And the 
third essential element in a democracy is a robust civil society that 
can keep government honest, keep citizens engaged and keep democracy-
building on track. In a fully functioning democracy anywhere in the 
world, all three elements must be present--electoral, institutional, 
and societal.
    Let me now illustrate each of democracy's three essential elements 
in the context of sub-Saharan Africa.
    First, elections: Democratic elections can help put a country on 
the path to reform and lay the groundwork for institutionalizing human 
rights protections and good governance. Africa's record on free and 
fair elections is mixed. The good news is that the vast majority of 
Africans have embraced the concept of elections as a mechanism for 
determining the course that their countries will take.
    A number of elections have taken place recently that give rise to 
cautious optimism.
    After years of civil war that destroyed the country's 
infrastructure, Liberia conducted an historic election in November 2005 
that led to the selection of Africa's first elected female head of 
state. Many Members of this body heard President Sirleaf's 
inspirational message on March of last year when she spoke before a 
joint session of Congress and declared: ``Our dream has the size of 
freedom.''
    In 2006, the citizens of the Democratic Republic of Congo went to 
the polls for the first time in over 40 years, casting ballots in the 
hope of finally putting behind them a legacy of brutal dictatorship and 
violent conflict. The elections, judged free and fair by international 
observers, were a remarkable feat for a country half the size of the 
United States, yet virtually without paved roads. While there have been 
setbacks since the elections, and significant work remains to be done 
to help Congo through its post-conflict democratic transition, the 
elections demonstrated the strong desire of the Congolese people to 
live in freedom.
    Mauritania, too, held its first fully democratic election in over 
40 years in March of this year. The newly elected government has stated 
its commitment to enact democratic reforms and we are working to 
support Mauritania as it makes its democratic transition.
    Several of our key partners in the region, however, have held 
disappointing elections.
    In April, Nigeria--Africa's most populous nation, an economic 
powerhouse, the seat of ECOWAS, and a critical player in matters of 
peace and security on the continent--squandered an important 
opportunity to improve upon its flawed 2003 elections and live up to 
its potential as a democratic leader for the region. That Nigeria 
missed this opportunity is even more disappointing considering the 
vibrancy of its civil society, the influence of its active media, and 
the strength of its legal system.
    The elections took place under an ill-prepared and partial 
electoral commission, and were marred by reports of voter malfeasance 
and vote-rigging. In certain areas of the country, polls opened either 
after significant delay or did not open at all. There were, however, 
several bright spots: The Supreme Court reinstated an opposition 
candidate to the ballot only 5 days before the elections, and the 
former National Assembly refused to go along with now-former President 
Obasanjo's attempt to secure a third term.
    The United States has stressed to Nigerian leaders the need for 
political reform and judicial transparency. We also have encouraged 
Nigeria to expedite election tribunals and to strengthen the 
independence and capacity of the Independent National Electoral 
Commission.
    The runup to Ethiopia's May 2005 elections was a time of 
unprecedented democratic openness, with the ruling party agreeing to a 
series of key electoral reforms, and robust civil society engagement on 
matters of voter education and mobilization. However, the expulsion of 
the National Democratic Institute, the International Republican 
Institute, and the International Foundation for Electoral Systems 6 
weeks before Election Day created an atmosphere heavy with suspicion. 
The expulsions put a halt to valuable training programs for members of 
civil society, electoral commission staff, and political party leaders 
aimed at increasing confidence in the electoral process.
    Election Day was, for the most part, orderly and peaceful. Yet, in 
the days and months following the elections as rumors of malfeasance 
grew regarding the election results, the Ethiopian Government responded 
to street protests with lethal force and illegally detained opposition 
leaders and tens of thousands of their supporters. Among those detained 
was journalist Serkalem Fasil, the recipient of a Courage in Journalism 
Award, who was arrested along with 13 other reporters after publishing 
articles critical of the Ethiopian Government. Fasil gave birth in jail 
to a son, who was premature and underweight due to inhumane conditions 
and lack of proper medical attention. She was released from prison in 
April, but is now threatened with re-arrest. If she is found guilty on 
charges of treason, outrages against the constitution, and incitement 
to armed conspiracy, she could face the death penalty.
    Shortly after I arrived in DRL, I began receiving letters from 
concerned Members of Congress and the former colleagues of the jailed 
Ethiopian democracy advocates and journalists, many of whom have had 
distinguished careers here in the United States and relatives who are 
United States citizens. Later, when I traveled to Addis Ababa, I raised 
the issue with Prime Minister Meles and met with the families of the 
imprisoned.
    The government has embraced some new reforms, including revising 
parliamentary rules of procedure to allow for an increased voice for 
the opposition. But to this day, the crackdown casts a shadow over the 
Ethiopian Government, though Prime Minister Meles announced yesterday 
that he plans to recommend clemency for the opposition leaders found 
guilty on June 11 and sentenced to life imprisonment.
    Let me now turn to the second essential element of democracy: Good 
governance and the rule of law.
    Beyond a free and fair elections process, democracies must have 
representative, accountable, transparent institutions of government, 
including an independent legislative body that can act to ensure that 
leaders who win elections govern democratically once they are in 
office. The rule of just law must prevail over politics and 
personalities, and replace cultures of corruption, which have 
undermined so many reform efforts in Africa.
    An important way we encourage and support good governance in Africa 
is through the Millennium Challenge Account initiative enacted by 
Congress in 2004. The initiative is designed to embark on a new 
approach to delivering foreign assistance. MCA is a bold progrowth 
strategy that aims to lift the most people out of poverty as fast as 
possible. The MCA reflects the new international consensus that a 
growth-based approach to development assistance works best and that 
countries which adopt good governance policies and invest in their 
people are the most likely to use their development assistance wisely 
and reach their development goals.
    Only countries that have adopted good governance principles are 
eligible for MCA funding. Of the 12 MCA compacts signed to date, 6 are 
with governments in sub-Saharan Africa, for a total of $2 billion in 
assistance. We have signed compacts with Benin, Cape Verde, Ghana, 
Mali, Madagascar, and this past Friday, Mozambique. Lesotho will sign 
its compact next week. Tanzania, Morocco, Namibia, and Burkina Faso 
will sign compacts in the coming months, bringing another $2.6 billion 
to the continent to fight poverty. Adequate funding from Congress for 
the Millennium Challenge effort is critical so that we do not have to 
turn away these countries after they have worked so hard to make the 
reforms to qualify for Millennium Challenge assistance and to put 
together great programs for the fund to support.
    Burkina Faso, Kenya, Malawi, Tanzania, Uganda, and Zambia currently 
have threshold agreements. All of these governments have made 
democratic advances, but they continue to be held back, due, in part, 
to endemic corruption, which they are taking steps to combat. For 
example, the Tanzanian Parliament passed sweeping anticorruption 
legislation in April and Zambia is prosecuting former President Chiluba 
on corruption charges.
    The Bush administration also is supporting innovative efforts to 
strengthen the rule of law across Africa. For example, in 2004, 
President Bush allocated $55 million for the Women's Justice and 
Empowerment in Africa Program. The program, which will operate in 
Benin, Kenya, Zambia, and South Africa, will train police, judges, 
prosecutors, health officials, and others on women's rights with the 
goal of protecting women from and punishing perpetrators of gender-
based violence. This program also will assist African governments in 
developing laws that empower and protect women.
    Meeting the enormous challenge of ensuring accountable government, 
establishing the rule of law and combating corruption requires an 
unprecedented political commitment from African leaders. It also 
requires the active participation of the business sector and civil 
society.
    Multisector initiatives continue to show promise. The Extractive 
Industries Transparency Initiative, launched in 2002 by the United 
Kingdom and formally established in 2003 with more than 20 
participating governments and the endorsement of the World Bank, is a 
good example of a private-public anticorruption effort. The initiative 
aims to increase public information about revenues from extractive 
industries such as petroleum to ensure that these public resources are 
well spent on the most serious needs of the populations. A number of 
African countries have endorsed this effort and put the initiative's 
best practices into effect, most notably Botswana, South Africa, and 
Namibia. Despite their participation in the initiative, however, both 
Angola and the Republic of Congo have cracked down on activists working 
to ensure transparency in the oil industry. In February, the Angolan 
Government detained a prominent British transparency advocate, Dr. 
Sarah Wykes from the NGO Global Witness, and charged her with violating 
national security. She was held for 3 days before being released on 
bail, and ultimately, allowed to depart the country. The Republic of 
Congo continues to harass transparency activists Christian Mounzeo and 
Brice Makosso.
    I will now turn to the third essential element of democracy: A 
vibrant civil society.
    The worldwide push for greater personal and political freedom is 
being felt in Africa. As this global trend grows stronger, it is 
encountering increasing resistance from those in power who feel 
threatened by democratic change--2006 was what I call the ``Year of the 
Push Back'' and the phenomenon has continued into 2007.
    Last December, on International Human Rights Day, Secretary Rice 
created a Human Rights Defenders Fund, which will be administered from 
my Bureau, to enable the State Department to quickly disburse small 
grants to human rights defenders facing extraordinary needs as a result 
of government repression. The Secretary also announced 10 guiding 
principles regarding the treatment of NGOs by governments. These core 
principles are a handy resource for governments, international 
organizations, civil society groups, and journalists.
    Regrettably, a growing number of countries, including African 
countries, selectively apply laws and regulations against NGOs and the 
media. They also subject human rights and democracy defenders to 
extrajudicial measures for peacefully exercising the rights of 
expression, association, and assembly.
    In Zimbabwe, civil society--including NGOs, labor unions, and 
religious organizations--remain under heavy siege. On March 11, 
opposition leaders and civil society members, who had peacefully 
assembled for a mass prayer meeting, were brutally attacked by security 
forces. One political activist was shot dead; others were kept from 
receiving critical medical care.
    Eritrea and Equatorial Guinea have enacted burdensome registration 
requirements and apply heavy-handed oversight that make it all but 
impossible for NGOs to exist. Slightly less burdensome requirements but 
continued suspicion and harassment have greatly restricted civil 
society in Ethiopia and Rwanda.
    In some cases, most dramatically in Sudan, when governments 
persecute NGOs what is at stake is not just the preservation of 
liberties but the protection of lives. Physical attacks on humanitarian 
aid organizations in Darfur, and continued interference in their work, 
have rendered their mission of alleviating the suffering of internally 
displaced persons ever more difficult.
    Mr. Chairman, that brings me to the countries that pose some of the 
greatest challenges we face in the region--Sudan, Uganda, Somalia, and 
Zimbabwe--and the ways we are working in partnership with African 
nations to deal with those challenges, and by so doing, advance 
democracy and human rights.
    In March, I traveled to Sudan to assess firsthand the appalling 
situation in Darfur. Fear and anxiety permeated the region. Not only 
were the internally displaced people coping with continuing violence, 
international aid workers also were subjected to an unprecedented level 
of harassment and attacks. Vital humanitarian assistance was being 
obstructed.
    Yet, in the hell of Kalma Camp for internally displaced persons, I 
also saw determination among its inhabitants. A group of IDPs had 
organized themselves into a legal aid society inside the camp. They 
endure harassment and even assault to defend the rights of their fellow 
displaced. In the sweltering heat, I sat with my team and talked with 
these amazing people and the fellow IDPs whom they are assisting. I 
particularly remember one man who stood up and said, ``I'm 37 years old 
and never knew what human rights were until I came to this camp.'' He 
said that until he learned about his rights from the legal aid society 
in the camp, he assumed that it was normal for police to arbitrarily 
harass, arrest, and beat people. We saw the same hunger for dignity and 
justice in a group of women in South Darfur who were working to educate 
the young and empower them to defend their rights. These remarkable 
women shared more than determination. They also shared the belief that, 
as one put it, ``America cares.''
    In the months since my trip to Darfur, the situation has gotten 
even worse. Just to cite one alarming indicator: Since early May, due 
to the unabated violence, the population of Al-Salam IDP Camp near 
Nyala has doubled from 14,500 to 30,000.
    It is critical that the African Union/United Nations hybrid force 
be deployed without any further delay. President Bashir again declared 
his commitment to accept the force on June 11 during trilateral talks 
with the African Union and United Nations. Yet again, a new Security 
Council resolution authorizing the force is being discussed in New 
York. The United States is strongly committed to getting that 
resolution passed. As Secretary Rice recently noted, ``We must not let 
the Government of Sudan continue this game of cat and mouse diplomacy; 
making promises, then going back on them. It is our responsibility, as 
principled nations, as principled democracies, to hold Sudan 
accountable.''
    Even as world attention focuses on the horrors of Darfur, it is 
imperative that we continue to support the implementation of the 2005 
North-South Comprehensive Peace Agreement, or CPA. The peace agreement 
stopped a war that had raged for over 20 years and resulted in the 
deaths of an estimated 2 million people. But stopping a war is not the 
same as securing a peace.
    Sudan's elections, mandated by the CPA and tentatively planned for 
February 2009, are a crucial element of the peace process. They will be 
a key indicator as to whether the country will truly be able to put the 
civil war behind it and fulfill the late Dr. John Garang's vision of a 
united, peaceful nation. The international community must not lose 
sight of this pivotal election and must stay engaged in the runup to 
it.
    Meanwhile, the continuing crisis in Darfur threatens to destabilize 
Sudan's neighbors. Chad, which has its own challenges, hosts 
approximately 235,000 Sudanese refugees as well as 50,000 refugees 
fleeing conflict in the Central African Republic. One hundred eighty 
thousand Chadians displaced by insecurity from Chadian rebels and 
cross-border Janjaweit militia attacks from Sudan compound the problem, 
creating still more conditions for unrest. One bright spot in this 
bleak picture are the prospects for peace in Uganda. For years, the 
Lord's Resistance Army rebels found a hiding place in south Sudan while 
it terrorized northern Uganda. Today, the Government of Southern Sudan 
is an active player in the Juba-based negotiations for peace in Uganda.
    The African-led mediation process in Juba has made progress in 
addressing the brutal 20-year conflict in Uganda. The key mediators--
Government of Southern Sudan Vice President Riak Machar and Special 
Envoy of the United Nations Secretary General, former Mozambican 
President Joachim Chissano--are deeply engaged in the process, and have 
recently added observers from other African countries and the United 
States to the talks, Over the past year, thousands of internally 
displaced persons have been able to leave the camps in northern Uganda 
and vital commercial corridors in Sudan and northern Uganda have 
reopened. The United States, through USAID and the State Department's 
Bureau of Population, Refugees and Migration, conducts a robust program 
of humanitarian assistance in northern Uganda.
    In Somalia, a country that has seen more than its share of 
bloodshed during the past 15 years of civil war, there is some cause 
for hope--provided the Somalis take advantage of the window of 
opportunity created by the reestablishment of the Transitional Federal 
Government with the support of the international community.
    Somalia does not have the luxury of time. The Transitional Federal 
Government opened a National Reconciliation Congress on July 15 and 
recessed to allow time to finalize logistical arrangements, such as the 
issuance of identification badges for Congress delegates and to allow 
time for additional delegates to arrive in Mogadishu. The United States 
agreed to provide $2.25 million toward reconciliation through the 
United Nations Development Program, of which $1.25 million already has 
been provided and has been used mainly to support the National 
Reconcilation Congress. The United States remains the leading donor of 
humanitarian aid to Somalia and has already committed over $40 million 
for development, humanitarian, and peacekeeping support this year.
    In Zimbabwe, it is clear that President Mugabe intends to do 
whatever it takes to get reelected. The runup to the 2008 Presidential 
elections will be a critical time for democratic nations in Africa to 
take a strong stand for democracy in the region. After the brutal 
attacks in March that I mentioned earlier, the United States assisted 
those working for the release of detainees and to secure medical 
treatment for the injured. Our Ambassador to Zimbabwe, Christopher 
Dell, made his presence felt at police stations and at the courthouse 
to demonstrate our concern for those being held. The international 
attention that we helped to focus on the beatings and detentions helped 
to secure the early release of the detainees.
    We also have condemned the Government of Zimbabwe's violent 
suppression of a peaceful demonstration on June 6 in Bulawayo by Women 
of Zimbabwe Arise! (WOZA!). Police used batons against some 200 
demonstrators, detaining seven activists. Among those detained was 
WOZA! National Coordinator Jenni Williams, the recipient of Secretary 
Rice's 2007 International Women of Courage Award for Africa, and 
denying them access to their lawyers.
    This latest aggression against civil society, coming on the heels 
of attacks this spring, highlights the need for dialog among all 
stakeholders concerned with halting Zimbabwe's political and economic 
crisis. The active engagement of Zimbabwe's democratic neighbors will 
be key to bringing the government and the opposition together to find a 
way forward for the country. The Southern African Development Community 
has mandated South African President Thabo Mbeki to mediate 
negotiations between the Government of Zimbabwe and the opposition. In 
late June, the government and the opposition agreed on an agenda for 
the negotiations that included constitutional and electoral reforms, 
security legislation and rules of political engagement. This is a good 
step. But, given the behavior of President Mugabe, we dare not allow 
ourselves to think that the road ahead will soon or easily lead to 
stability, prosperity, and liberty for the people of Zimbabwe.
                  strengthening regional architecture
    Dealing with the complex challenges that these strife-riven 
countries present requires the energetic engagement of neighboring 
African nations and of Africa's regional institutions, as well as the 
support of the United States and the broader international community. 
We have made it a priority to intensify our relationships with Africa's 
regional organizations, and with the African Union in particular on 
matters of human rights and democracy.
    In late 2006, the United States established a bilateral mission to 
the AU--the first of its kind where an AU observer state has had a 
separate mission dedicated solely to the AU.
    The AU architecture is still evolving, but it is promising. The 
AU's 53 member states have committed themselves to an agenda for 
advancing democracy and human rights, and they are developing bodies 
and mechanisms to move that agenda forward, including:

  <bullet> Peace and Security Commission, similar to the U.N. Security 
        Council, which approves the scope and duties of AU peace 
        support operations;
  <bullet> The adoption in 2003 of the African Protocol on the Rights 
        of Women;
  <bullet> The adoption this January of the African Charter on 
        Democracy, Elections and Governance, enshrining commitments to 
        political pluralism, free and fair elections, the rule of law 
        and good governance; and
  <bullet> The creation of an African Court on Human and Peoples' 
        Rights to uphold the provisions of the Democracy Charter. The 
        Court will work in coordination with the AU's existing 
        Commission on Human and People's Rights.

    It is very much in our interest--and in the interest of other 
democracies--to help strengthen the capacity of these AU bodies and 
mechanisms.
    To that end, Mr. Chairman, in March I hosted five members of the 
African Commission on Human and Peoples' Rights. We discussed the 
importance of engaging with civil society and of addressing urgent 
human rights concerns. We also agreed to increase our collaboration.
    Later that month, I traveled to Addis Ababa and met with the AU 
Commissioners for political affairs, peace and security, and women and 
gender development. I discussed a range of issues from democratization 
and the need for a vibrant civil society to the U.N./AU hybrid force in 
Sudan. I also planted the seeds for formal human rights and democracy 
consultations with AU. In the fall, DRL will host the first such 
consultations. We will share experiences, define new strategies for 
partnership and encourage the forging of relationships between the AU 
and civil society. We also will identify concrete ways to assist the 
African Commission on Human and Peoples' Rights, the fledgling Court, 
and a new AU Elections Observation Unit. The Unit's creation is 
particularly timely in light of the upcoming elections in Ethiopia, 
Zimbabwe, Kenya, and Sudan. USAID already has a $1 million program with 
IFES to support the creation of the Unit.
    In May, I met with eight impressive justices from the nascent 
Court, who also serve on the bench in their native countries. They are 
working pro bono to draft the rules and regulations governing the 
Court's operations and get it up and running. By the end of the year, 
their hard work should reach fruition and provide an additional layer 
of protection for the people of Africa.
    Just last week here in Washington, the Organization of American 
States, the State Department and the African Union held the first ever 
OAS/AU Democracy Bridge Forum--an event that was sponsored by the State 
Department. Experts from the AU and OAS, and NGOs from Africa and the 
Americas exchanged their experiences building regional democratic 
institutions, planned further cooperation, and established 
institutional linkages.
    Mr. Chairman, clearly there is a lot of work to be done--first and 
foremost by African democracies--to fully develop the AU and other 
regional organizations. The goal is not to build elaborate 
architecture, but to build effective institutions that help lock in 
democratic gains and play real roles in protecting the rights and 
improving the lives of the people of Africa. As Secretary Rice said 
last week to the Chairperson of the AU and former President of Mali, 
Alpha Konare, the United States is committed to strengthening the AU, 
and we look forward to enhancing our partnership.
                        drl democracy assistance
    Mr. Chairman, before I conclude, let me briefly respond to your 
request to hear about the human rights and democracy assistance 
programs that my Bureau is funding.
    DRL has significantly raised its level of programming assistance 
for sub-Saharan Africa as a result of congressionally mandated funding 
for the Human Rights and Democracy Fund, or HRDF. HRDF is what I call 
the venture capital of democracy programming. DRL uses it for cutting-
edge innovative programming that upholds democratic principles, 
supports democratic institutions, promotes human rights and builds 
civil society in critical countries and regions. We use this fund for 
pilot projects that will have an immediate impact but that have 
potential for continued funding beyond HRDF resources. DRL coordinates 
closely with the Bureau of African Affairs, other State Department 
bureaus, USAID, and our NGO partners to ensure that our HRDF programs 
support overall United States foreign policy objectives in the region 
and are not duplicative.
    When I arrived in the fall of 2005, DRL had a little more than $3 
million in HRDF for programming in sub-Saharan Africa. With 
congressional support, we tripled the level of DRL assistance to nearly 
$10 million and have expanded our programmatic reach to critical 
countries like Zimbabwe, Ethiopia, and Burundi.
    We are proud of our small, but growing Africa programs portfolio. I 
will highlight two which I believe have had a positive impact on human 
rights:
    My Bureau awarded $1.5 million in HRDF to an NGO to establish 
women's centers that focus on gender-based violence in nine IDP camps 
throughout Darfur. The NGO estimates that we have reached tens of 
thousands of women through these centers, providing a range of services 
from medical and psychological support to literacy and basic income 
generation skills. The grant also has helped fund a global Gender-Based 
Violence Coordinator which has enabled this NGO to conduct rapid 
assessments of gender-based violence in emerging conflict situations in 
Chad, Lebanon, Colombia, Nepal, and the northern Caucasus.
    DRL also funded a program to collect scientific evidence of human 
rights abuses committed during the civil war in Sierra Leone. The more 
than 3,600 statements from witnesses that were collected should prove 
useful to the country's Truth and Reconciliation Commission.
    With 2007 funds, we will program approximately $10 million for sub-
Saharan Africa. And we have ongoing FY06 programs that are supporting 
post-election dialog in Ethiopia, building the capacity of the 
judiciary in the Democratic Republic of Congo, combating gender-based 
violence in Ethiopia and Sudan, fighting corruption in Cote d'Ivoire 
and Burundi, and strengthening civil society efforts in Zimbabwe.
    In closing, Mr. Chairman, let me just say that no matter who 
succeeds me as Assistant Secretary, and no matter what administration 
follows the current one, the United States must continue to respond to 
the pressing demands of Africans for dignity and liberty. We must 
continue to work in partnership with the governments and peoples of 
Africa to build a continent of hope and freedom, for their sake, and 
for the sake of a safer, better world for us all.

    Senator Feingold. Thank you. Before we turn to Mr. Hess, 
I'd like to turn to the ranking member of the committee. I 
appreciate his being here, and would like to offer Senator 
Sununu the opportunity to deliver some opening remarks.

    STATEMENT OF HON. JOHN E. SUNUNU, U.S. SENATOR FROM NEW 
                           HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman. I apologize for 
arriving a little bit late and I don't have a lengthy opening 
statement. I want to thank the Secretary for his comprehensive 
evaluation of the process and the challenges that we have in 
front of us. I think there is a great deal of opportunity 
across Africa for enormous improvements in the political 
landscape that was addressed in your opening statement but also 
in the areas of economic freedom civil society, which you also 
touched on.
    Corruption, the rule of law and property rights. These are 
concepts that underpin and provide a foundation for creating 
economic opportunity and improving quality of life for the 
millions of people across the world and especially those in 
sub-Saharan Africa. So this is an important hearing. I 
certainly appreciate the time devoted to it.
    I think one of the most important mechanisms we have for 
addressing these issues of governance, civil society, and 
economic opportunity is the Millennium Challenge Corporation 
and I do want to underscore how important that has been to 
changing the approach, the mindset that's brought to 
assistance, not just in sub-Saharan Africa but around the 
world, because it forces people to look at these institutions 
and to think hard about those institutions of civil society or 
governance or corruption can undermine all the good efforts 
that might come along with funding grants and I think it's 
important that we fund the Millennium Challenge Corporation to 
the best of our ability. The appropriation mark that's been put 
forward is below the President's request and I know a number of 
other members of this committee, including Senator Coleman, 
have written to encourage a higher level of appropriation in 
this area and I think it's one area that ties directly into a 
lot of the topics we're talking about today.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you very much, Senator Sununu, and 
now Mr. Hess.

 STATEMENT OF HON. MICHAEL E. HESS, ASSISTANT ADMINISTRATOR OF 
THE BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN ASSISTANCE, 
   U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Hess. Thank you, Chairman Feingold, Ranking Members 
Lugar and Sununu. It's a pleasure and an honor to appear before 
you this morning.
    My task today, as the chairman outlined, covers a lot of 
territory. Strengths of democratization, trends in Africa, 
providing an overview of USAID democracy programming and our 
experiences in Africa, including why, how much, how, to whom, 
and for what as well as the lessons learned in coordination 
with other U.S. Government agencies, such as DRL, other donors 
and regional and local actors.
    I'll try to address these briefly so that we can get on to 
the question and discussion period afterward. I brought two 
charts today. One is the map of Freedom House, which I think 
you have in front of you, showing the progress of countries and 
freedom in the sub-Saharan Africa. As you can see by the green 
countries, those are ones that are progressing toward freedom. 
The red ink countries are those that are becoming less free and 
the yellow ones indicate no change at all. Some of those like 
Sudan, you can't get much lower than they are.
    The other chart is an interesting graph from 1972, showing 
the progress in freedom and what that shows is this is a long-
term event. The U.S. Government cares about democratization in 
Africa and, therefore, we must be in this for the long haul and 
that graph clearly shows that while we've made progress, it is 
going to take a great deal of time to reach our final goals of 
democratization across and have those free countries that the 
chairman referred to earlier.
    In terms of budget and what USAID spends on 
democratizations, since 1990, USAID has managed over $9 billion 
for democracy assistance globally and Africa, our assistance 
has grown from $109 million in 1999 to $138 million in 2005. 
USAID currently manages 30 democracy programs on the continent, 
including two regional programs. In addition to our own 
programs, USAID manages five Millennium Challenge Corporation 
threshold country programs totaling more $66 million.
    In terms of lessons learned, post-conflict programming is 
an area in which we have significantly expanded the scope and 
sophistication of our interventions in recent years. Our Africa 
programs have drawn from USAID experiences, not only in Latin 
America, as Senator Lugar points out, but also from our lessons 
learned in Kosovo, East Timor, and Afghanistan.
    First and foremost is the primacy of supporting the 
implementation of viable peace agreements as the principle 
vehicle to restore order and establish a legitimate government. 
Where viable agreements have been signed, USAID prioritizes all 
its assistance through the lens of supporting successful 
implementation of those peace agreements.
    We have two examples for you today on post-conflict. First 
is Sudan--Southern Sudan. Following the comprehensive peace 
agreement that my colleague, Secretary Lowenkron, mentioned, we 
worked with the Government of Southern Sudan to draft its 
constitution and the state constitutions. We assisted in the 
formation of the core government institutions and systems; 
helped develop a transparent budgeting and funding mechanism; 
and also helped to revise the civil service codes.
    In terms of anticorruption, we have worked with the 
Ministry of Finance in Southern Sudan to design programs that 
curb corruption through the adoption of transparent financial 
management and budget practices. We also provide training and 
technical assistance to the Government of Southern Sudan's 
anticorruption commission and the budget oversight committees 
for the Southern Sudan legislative assembly.
    We have also provided government in a box technology so 
that their institutions have the capability of standing up at 
the local, state, and national levels. These provide just the 
basic tools so that they can operate and function as they 
establish their Government in Southern Sudan.
    We cannot talk about Southern Sudan without mentioning 
Darfur. Like my colleague, Secretary Lowenkron, I visited 
Darfur as recently as last January. It was a week after the 
attack of the southern Darfurian police on the NGO compound on 
the 19th of January. It was demoralizing for those workers. We 
have seen a reduction in humanitarian space in Darfur. We 
cannot let that continue. We work constantly with our partners 
and increase our visibility so that we can try to increase 
humanitarian space so that we can help those people in Darfur.
    I also saw programs in south Darfur where we worked very 
closely with the people in the Nyala and the camps surrounding 
Nyala so that for the first time, they actually met people in 
those camps and had an exchange and a dialog so that they 
understood why they were there. And for the first time, the 
youth groups of those two camps came together and worked on a 
mutual solution and understanding in trying to get civil 
society growing in that part of the world. It is a difficult 
place to work but it's a serious challenge and we need to 
continue that effort.
    I also want to cite our work in Liberia, another good post-
conflict example. After coming out of 14 years of civil war, 
for the first time, there was an election of a President and we 
have helped support President Johnson-Sirleaf in the 
establishment of her government. We worked very closely in the 
beginning out of our Office of Transition Initiatives worked 
closely with youth programs, trying to clean up the city just 
for the inauguration but we took those programs and expanded 
them.
    In terms of helping her with the strategic communications 
program, where she was able to manage the expectations of the 
people of Liberia. Monrovia had been without electricity for 20 
years. The people of Monrovia expected that they were going to 
get electricity immediately. That obviously was not going to 
happen and through a strategic communications program, we were 
able to manage the progressive role out of electricity across 
the city and expanding across Liberia. We have taken that and 
expanded that program into assisting other ministries within 
the government and have also helped them reform through 
anticorruption programs in Liberia. It's a great program. It's 
going to be helping the people of Liberia stand up a successful 
democratic government.
    On the other end of the democratic spectrum, we support 
Africa's consolidating democracies. There are significant 
challenges all over Africa's consolidating democracies: 
Persistent corruption; uneven commitment to competitive and 
fair multiparty systems; limited citizen participation; and 
oversight and weak governance capacities.
    USAID programs are targeted to help countries like Mali, 
Senegal, Kenya, and Malawi continue on the path toward 
democratic reform. I should note that the democratic 
consolidation in many of these countries is critical to 
sustaining advances in health, education and not to mention 
opportunities for economic growth that the chairman talked 
about, resulting in opportunities for assistance from the 
Millennium Challenge Corporation that my colleague, Secretary 
Lowenkron, mentioned.
    In conclusion, I'd like to point out that the chairman 
titled this session, ``Democratic Developments in sub-Saharan 
Africa, Moving Forwards or Backwards?'' As the map shows, I 
think we're making progress. However, Africa is a large 
continent and there are problems. We have seen many examples of 
backsliding. We will continue our work to prevent that 
backsliding and to help grow civil society at the same time 
that we build the capacity of those governments to meet the 
demands that the civil society places before it. Whatever the 
case, USAID is committed to doing all we can to help Africans 
choose their destinies through opportunities that are available 
in a democracy.
    Mr. Chairman, I thank you again for inviting me to speak 
and for calling this hearing about USAID's democracy work in 
Africa and I look forward to responding to any questions that 
you and members of the subcommittee may have.
    [The prepared statement of Mr. Hess follows:]

Prepared Statement of Michael E. Hess, Assistant Administrator, Bureau 
 for Democracy, Conflict and Humanitarian Assistance, U.S. Agency for 
               International Development, Washington, DC

                              introduction
    Mr. Chairman, and members of the subcommittee, it is an honor to 
appear before you this afternoon. As the USAID Assistant Administrator 
for Democracy, Conflict and Humanitarian Assistance (DCHA), I am 
particularly pleased to be able to address you today. My task today 
covers a lot of territory, sharing some democratization trends in 
Africa and providing an overview of USAID democracy promotion 
experience in Africa--including why, how much, and how, to whom, and 
for what--as well as lessons learned and coordination with other U.S. 
Government agencies, other donors, and regional and local actors. I 
will do my best to address this array of issues in my testimony and 
look forward to a broader discussion in the question and answer period.
       democratization trend in africa--positive, but incremental
    Examining the democratization trend in Africa provides some context 
for discussing USAID assistance to the continent. Freedom House has 
taken measures of civil liberties and political rights for Africa 
countries since 1972. The overall trend in these data is encouraging, 
with steady progress being made since 1985 (see graphs at end of 
statement). There was significant jump in the late 1980s and early 
1990s. If one compares the Freedom House scores from 1990 with those 
from 2006, 37 countries have become more free and only six have become 
less free. However, continued democratic progress has slowed and some 
countries have lost ground. In the last 5 years, 22 countries became 
more free while 12 became less free.
    These trends illustrate important two points. Africa is making 
progress in its democratic development, but has a long way to go before 
its democracies are consolidated. And, if the U.S. Government cares 
about democratization in Africa, which we do, then our commitment needs 
to be long-term.
        why does the u.s. government care about democratization?
    The United States supports democracy and good governance for three 
primary reasons. First, we support them as a matter of principle--our 
political system and national identity are built on the belief that all 
people share fundamental rights. Second, democracy promotion is central 
to our national security and the fight to counter terrorism and the 
extremist ideologies that can lead to terrorist acts, as outlined in 
the President's Freedom Agenda and the National Security Strategy. 
Failed or authoritarian states pose a threat to the security of the 
United States, in the near and long term. Finally, U.S. support for 
democracy and better governance is an integral part of our broader 
development agenda. Functioning, democratic states directly contribute 
to sustainable development, economic growth, and the provision of 
crucial services. This is particularly important in Africa where our 
democracy and governance programs enhance the effectiveness of the very 
substantial health and education investments that United States is 
making in the continent.
                               how much?
    Since 1990, USAID has managed over $9 billion of democracy 
assistance. In Africa, USAID currently manages 27 democracy programs. 
Our assistance has grown from approximately $109 million in FY 1999 to 
approximately $138 million in FY 2005. In addition to our own programs, 
USAID is managing five MCC Threshold Country Programs totaling more 
than $66 million that address democracy and governance issues.
                      how, to whom, and for what?
    Our Africa democracy programs span a wide range of country 
situations, including post-conflict and fragile states, 
semiauthoritarian and authoritarian regimes, as well as consolidating 
democracies. Because of this, there is no cookie-cutter approach to 
promoting their democratization. A core principle of USAID democracy 
programming is that activities must be designed to address the specific 
democratic challenges facing each country. In post-conflict and fragile 
states, our aim is to achieve democratic stabilization while addressing 
the democracy and governance-related causes of conflict and fragility. 
In consolidating democracies, USAID programs address on-going 
democratic challenges and strengthen institutions of democratic and 
accountable governance. In semiauthoritarian and authoritarian states, 
we focus on opening political space for democracy supporters. To get 
from these general tenets to country-specific programs, USAID conducts 
thorough assessments that identify the core democracy problems as well 
as the actors and institutions through which our assistance is most 
likely to effect positive change.
Democracy Programs in Post-Conflict and Fragile States
    Many of our higher profile Africa democracy programs are in post-
conflict and fragile states, including Sudan, Liberia, Democratic 
Republic of Congo, and Somalia. These programs are vital tools for 
rebuilding the political, economic, and social fabric of conflict-
affected countries and failed states, as well as for mitigating 
potential slides into conflict or state collapse.
    Post-conflict programming is an area in which we have significantly 
expanded the scope and sophistication of our interventions in recent 
years. Our Africa programs have drawn from USAID experience both in and 
out of the region, learning lessons from Kosovo, East Timor, and 
Afghanistan as well as from other Africa programs. First and foremost 
is the primacy of supporting implementation of viable peace agreements 
as the principle vehicle to restore order and establish a legitimate 
government. Where viable agreements have been signed, USAID prioritizes 
all its assistance through the lens of supporting successful 
implementation. A second example is our expanded public administration 
assistance. USAID is once again fully engaged in this sector after 
having deferred for a time to other donors such as the World Bank. The 
ability of post-conflict governments to deliver benefits of peace, 
particularly to marginalized populations whose grievances may have 
driven the conflict, is clearly critical to maintaining peace and too 
important for any major donor to ignore. Supporting improved financial 
and personnel management, as well as leadership development, are core 
components of our Sudan and Liberia programs. Other unique aspects of 
USAID conflict and post-conflict programming include an emphasis on 
stakeholder consensus-building around major peace implementation 
issues; access to independent information; supporting civil society, 
and not just former warlords, participation in peace processes; and 
focusing on transparency and accountability from the outset to reduce 
opportunities for corruption.
            Sudan
    In Sudan, the democracy program is designed to support the 
successful implementation of the Comprehensive Peace Agreement (CPA) 
between the north and south. As such, our priorities are the 
establishment of an effective and accountable Government of Southern 
Sudan--the GOSS--and the conduct of free and fair national elections in 
2009 as called for in the CPA. To that end, USAID has supported the 
drafting of the GOSS Constitution as well as state constitutions, the 
formation of core government institutions and systems, transparent 
budgets and funding mechanisms, and a revised civil service. Our 
assistance to the Ministry of Finance is designed to curb corruption 
through the adoption of transparent financial management and budget 
practices. To same end, USAID is providing training and technical 
assistance to the GOSS Anti-Corruption Commission and budget oversight 
committees in the Southern Sudan Legislative Assembly. In addition to 
technical assistance, USAID has issued 22 ``government-in-a-box'' kits 
to local, state, and national level offices. These kits provide 
furniture, supplies, and in many cases a prefab office building, to 
county governments.
    Two critical milestones in CPA implementation are the national 
census, scheduled for 2008, and national elections, anticipated in 
2009. USAID is providing on-going support for the southern portion of 
the census. Data from the census will be used to adjust power-sharing 
percentages in the Government of National Unity and will be a critical 
ingredient to delimiting election constituency boundaries. We have also 
been working with the Sudanese People's Liberation Movement (SPLM) and 
other southern political parties to assist their transformation into 
competitive democratic political parties.
    USAID recognizes that civil society development must complement 
strengthening governments. In Sudan, our civil society focus is on 
women-led organizations and organizations that support marginalized 
groups. We are also supporting increased access to and availability of 
public information through media outlets, radio distributions, and 
radio campaigns to spark public discourse about the CPA, the 
constitutions, peace-building, tolerance, anticorruption, and the rule 
of law.
            Liberia
    Liberia's emergence from two decades of civil conflict under new 
and democratically elected leadership presents opportunities for 
peaceful development, rather than destabilization in West Africa. USAID 
recognizes the importance of improved governance and the rule of law to 
enhance Liberia's stability, help address the needs and aspirations of 
Liberians, and create the foundation for investment and economic 
growth. Ongoing support to the Governance and Economic Management 
Assistance Program (GEMAP) has been successful in helping the Liberian 
Government control and manage its public finances, a critical departure 
from the grand corruption that characterized the government under 
Charles Taylor. At the same time, USAID assistance focuses on 
establishing the rule of law and supporting security sector reform to 
address the personal insecurity that has dominated the country for 
decades. As a complement to these activities, USAID is providing 
assistance to the Liberian legislature, in conjunction with the House 
Democracy Assistance Commission initiative, and continues to help civil 
society organizations develop the capacity to hold the Liberian 
Government accountable between elections for their actions.
    USAID also provided important assistance for the historic 
transition elections in the Democratic Republic of Congo. These were 
the first democratic elections in over 40 years, and Congolese citizens 
turned out in great numbers to choose their President and members of 
their National and Provincial Assemblies. To help the Congolese 
overcome enormous political and logistical challenges, USAID-funded 
technical advisers who served as resource persons in the creation of 
the electoral framework and who supported the Independent Election 
Commission. In addition to providing election administration expertise, 
technical assistance included strategic communications and public 
outreach, which were especially important for counteracting popular 
mistrust about the electoral process provoked by repeated delays in the 
electoral calendar. USAID-funded civic education reached 2.1 million 
Congolese throughout the country and we supported mobilization of tens 
of thousands of Congolese election monitors. These activities helped 
ensure that the multiple rounds of elections were credible and largely 
peaceful, leading to the inauguration in December 2006 of President 
Joseph Kabila, a reconstituted National Assembly, and Provincial 
Assemblies which are a brand new institution in the Congo. In addition, 
Senators and Governors were indirectly elected over the last year as 
well, creating for the first time a bicameral legislature. Now on the 
horizon is the draft law on decentralization and ensuing municipal 
elections, which are expected in 2008.
    USAID is now in the midst of developing programs to stand up these 
new institutions and give them a fighting chance to deliver on promises 
to build a democratic, inclusive DR Congo, where government is held 
accountable by the people. Elected leaders are new; their positions are 
new; and even many of the institutions of governance are brand new. As 
in many post-conflict situations, there are tendencies to consolidate 
control in the hands of the Executive. USAID is moving quickly with the 
supplemental funds that Congress recently made available. We will focus 
on ending the lingering conflict that persists in the East as well as 
on building the institutions of legitimate governance in the 
overwhelming majority of the country that is stable. For example, we 
will help build the capacity of the Provincial Assemblies--some of 
which do not even have tables and chairs, and we will promote the 
transformation of the Electoral Commission into a permanent and truly 
independent body. Our work over the next few years will also include 
broad citizen civic education, reinforcing links between elected 
authorities and constituents, and helping Congolese define what good 
governance means in their country. I would like to note that USAID and 
the Department of State's Bureau of Democracy, Human Rights, and Labor 
are coordinating closely to ensure that our programs in the Congo 
effectively complement each other.
            Somalia
    Somalia, unfortunately, is not as far along in its peace and 
reconciliation process. In such fragile states, the USAID strategic 
approach is to promote stabilization, reform, and recovery by building 
institutions of democratic and accountable governance and the rule of 
law while also addressing causes of fragility such as ethic grievances 
and economic exclusion. For Somalia, the first challenge is to 
establish a federal government that enjoys legitimacy among all the 
major clans. In the immediate term, we are providing support to 
implement the National Reconciliation Congress, which is due to start 
in the coming days and which the U.S. Government hopes will constitute 
an effective venue for clan representatives and other stakeholders to 
strengthen political inclusiveness of the Transitional Federal 
Government and stabilize the country through peaceful dialog. The USAID 
program is also launching support for the Transitional Federal 
Parliament, as the transitional institution that may be said to have 
the widest basis of support; the program will build the Parliament's 
capacity with a particular focus on its role in conflict management and 
its responsibilities under the Transitional Federal Charter.
    We are also helping to form and build the capacity of local 
governments which will be seen as legitimate by local populations and 
the leadership of the Transitional Federal Government (TFG). These 
governments will have a critical role in delivering social services, 
such as health, education, and water, as well as promoting local 
economic growth. USAID is also poised to provide extensive capacity-
building to the TFG itself, but it is critical that questions of TFG 
inclusiveness be resolved before we launch such assistance on a large 
scale.
    In addition to these efforts, USAID has supported Somali media and 
civil society for several years. Our current program provides funding 
and training for civil society and media to actively participate in 
peace-building and governance. Among its objectives are to build civil 
society and media networking capacity, strengthening their ability to 
operate effectively in a stateless environment, and to support advocacy 
for media and civil society regulatory frameworks acceptable to our 
partners and government authorities. The rapidly evolving political 
landscape presents significant challenges and places heavy demands on 
civil society. USAID support is aimed at enabling civil society to 
manage the political space in order to reduce the risk of violent 
conflict and promote dialog. USAID partners have acted to protect free 
media across Somalia, including in cases of media closures in Mogadishu 
and journalist arrests in Somaliland. USAID continues to support civil 
society engagement in local councils' formation in Puntland and support 
for decentralization in selected municipalities. USAID civil society 
partners are heavily engaged in collaboration with other civic and 
business actors in a series of initiatives in Mogadishu in attempts to 
reduce tensions and build platforms for dialog leading up to the 
National Reconciliation Congress. In Somaliland, the USAID democracy 
program focuses on building the conflict management and institutional 
capacity of the Parliament and building democratic political parties 
with an eye toward a second round of free and fair Presidential and 
parliamentary elections in 2008.
Democracy Programs in Support of Consolidating Democracies
    On the other end of the democratic spectrum is support for Africa's 
consolidating democracies. These programs are tremendously important 
for African democratization. Recent work by a team of researchers from 
Vanderbilt University and the University of Pittsburgh has shown that 
successful democracies have a significant positive influence on the 
democratization paths of countries in their neighborhood; this positive 
``diffusion'' effect was shown to have a greater impact on a country's 
democratization than its GDP growth. Significant challenges are present 
in all of Africa's consolidating democracies: Persistent corruption, 
uneven commitment to competitive and fair multiparty systems, limited 
citizen participation and oversight, and weak governance capacity. 
USAID programs are targeted to help countries like Mali, Senegal, 
Kenya, and Malawi continue on paths of democratic reform. I should note 
that democratic consolidation in many of these countries is critical to 
sustaining advances in health and education, not to mention 
opportunities for economic growth resulting from Millennium Challenge 
Corporation compacts.
    The overall theme of our lessons learned in these countries is that 
democratic consolidation is a long process. Corruption is deeply 
engrained in most African countries. It is telling to note that all 
five of the democracy-relevant MCC Threshold Country Programs USAID 
manages focus on anticorruption. While dramatic improvements in 
election administration have been made, building competitive, 
pluralistic political systems takes longer. Several more advanced 
African democracies remain dominated by a single political party or by 
a handful of charismatic leaders. Finally, resource constraints, 
underdeveloped infrastructure, and human resource limitations pose 
long-term challenges to both governments and civil society groups as 
they strive to improve their institutional performance.
            Mali
    Mali's democracy is one that inspires reformers throughout the 
region. In fact, Mali is moving from a regional to a global role model 
this year by hosting, with support from USAID, the Fourth Ministerial 
Conference of the Community of Democracies in November. In addition to 
this special assistance, the USAID democracy and governance program 
focuses on ensuring that Mali's decentralized system of government 
delivers for all citizens at the local level. Activities promote 
citizen participation in, and oversight of, local governments; 
strengthen local government financial management skills; develop 
policies that support the success of decentralized government; and 
increase women's role in decisionmaking. As a result of USAID programs, 
citizens are demanding that local governments account for their tax 
revenue and some local governments have seen their tax revenues go up 
with increasing citizen confidence that it is being used well. Mali's 
democracy was also strengthened through election support activities, 
resulting in free and transparent Presidential and legislative 
elections. USAID women leadership activities contributed to a 120 
percent increase in the number of female candidates running for office 
in the 2007 local government elections over the previous election. The 
Mali program also provides access to information by building community 
radio stations and training local radio producers in the production of 
radio programming on governance and decentralization, health 
(especially HIV/AIDS and malaria), education, and conflict prevention 
topics. Today, there are 205 private community radio stations in Mali 
(44 of which were financed by USAID), and USAID trained over 1,500 
radio producers and presenters in the production of development-related 
programs. Because of these efforts, 89 percent of Malians have access 
to at least one community radio station, and for a majority of these 
citizens, radio is their only source of information. The mission has 
emphasized radio coverage in Mali's fragile and northern areas, where 
radio programming focuses on preventing or mitigating conflict and 
broadcasting vital counterterrorist messages.
    I am proud to point out that during the past decade USAID Democracy 
and Governance programs have helped countries like Mali achieve the 
effective governance needed to qualify for and take advantage of the 
opportunity of an MCC Compact Agreement. However, we need to remember 
that effective and accountable governance is an ongoing challenge for 
all countries, including those in Africa that have risen above their 
peers to qualify for MCC assistance. We must not assume that just 
because a country has qualified for a Compact Agreement--let alone a 
Threshold Agreement--that it has solved all of its governance problems. 
There remains an important role for USAID DG programs to help these 
countries consolidate and build upon the progress they have made.
Democracy Programs in Authoritarian and Semi-Authoritarian States
    The toughest environments for us to work in are authoritarian and 
semiauthoritarian states. The major challenge facing USAID is how to 
foster political competition where leaders are opposed to meaningful 
reform and prepared to use the resources of the state to cling to 
power. The USAID strategic approach in these countries is to strengthen 
democratic activists outside of government by working with groups such 
as democracy and human rights NGOs, watchdog groups, independent media, 
and opposition political parties. When possible, USAID also supports 
pockets of reform within government, often times within the judicial 
branch, independent electoral or anticorruption commissions, and local 
governments.
            Zimbabwe
    Zimbabwe, unfortunately, falls among such countries and is of 
particular concern for USAID. Our Zimbabwe program is designed to help 
civil society organizations express their views despite the 
government's efforts to tighten restrictions on independent media and 
journalists and curb the work of nongovernmental organizations. 
Activities include advocating to Parliament and local authorities, 
building an effective committee system within Parliament, and 
supporting local authorities to be more capable and open to citizen 
input. USAID support also helps Zimbabwean civic activists maintain 
their networks of support and communication with the broader human 
rights community in Africa, which is bearing witness to the 
deteriorating situation in Zimbabwe and planning for a return to 
democracy when Mugabe eventually leaves the scene.
                                nigeria
    An important African country that I have not yet mentioned is 
Nigeria. Nigeria is a country that defies categorization. The second 
Obasanjo administration made important gains in increasing 
transparency, yet corruption and patron-client politics continue to 
dominate. The country has transitioned, for the first time in its 
history, from one civilian leader to another without a military coup, 
but the election was widely condemned as failing the Nigerian people, 
so ridden by fraud that results could not be said to reflect their 
will. On-going community violence, particularly but not exclusively in 
the Niger Delta, leads to casualty levels rivaling some civil wars.
    As Assistant Secretary of State for African Affairs Jendayi Frazer 
noted in her recent testimony before the House Committee on Foreign 
Affairs' Subcommittee on Africa and Global Health, we were profoundly 
disappointed with the deeply flawed elections. Secretary Frazer rightly 
identified the need for political commitment on the part of the 
Government of Nigeria for electoral reform, including substantial 
reform of the Independent National Electoral Commission. Without 
political commitment, USAID technical assistance will not lead to 
improved elections.
    In this context, USAID conducted a thorough review of its democracy 
strategy in Nigeria in the fall 2006. We commissioned an independent 
country analysis by country experts to assess democratization trends 
since the transition to civilian government in 1999, current democracy 
challenges, and opportunities to support democratic reformers. This 
analysis helped us chart a way forward to address the primary challenge 
in Nigeria, the lack of accountability in a political system with an 
overly powerful executive and high levels of corruption. Our new 
program focuses on bolstering Nigerian efforts to increase 
accountability at both the national and subnational level, reinforcing 
areas where political commitment has emerged in the last few years. At 
the national level, this entails supporting increased oversight of the 
federal budget by the National Assembly to combat corruption, greater 
independence and capacity in the federal judiciary to promote the rule 
of law, and strengthened civil society advocacy and oversight to 
increase government accountability. At the local level, we are 
launching a program to enable citizens to hold their local governments 
accountable for delivering the social services long-awaited as a 
``democratic dividend.'' The importance of accountability is only 
heightened after this year's elections, which dramatically undermined 
the Nigerian people's ability to express their will through the ballot 
box. Given the leading role Nigeria plays on the continent, bolstering 
Nigerian democratic reformers remains a critical priority.
       evidence that usaid democracy and governance programs work
    Having discussed USAID approaches to democracy in the various 
country situations we face in Africa, I would like to discuss the 
impact of our programs. Beyond anecdotal evidence, how do we know if 
the USAID approach to democracy promotion is effective or not? To 
answer this question, we now have underway some of the most exciting 
and significant work ever carried out to evaluate the impact of the 
USAID democracy assistance programs, and it is providing some answers. 
In this endeavor, we are working closely with the academic community, 
other donors, and the National Academy of Sciences to develop new 
methods that will lead to findings on what works and what does not and 
to make recommendations to expand successful programs and stop 
ineffective ones.
    The first stage of this research was a quantitative, cross-national 
analysis to see whether researchers could detect any impact of USAID 
democracy assistance. We were very pleased when researchers from 
Vanderbilt University and the University of Pittsburgh found that every 
$10 million of USAID democracy assistance generated a five-fold 
increase in the rate of democratization in a given country, in any 
given year, over the period from 1990 to 2003. While this overall 
finding is tremendously encouraging, we have asked the team to delve 
further, exploring finer-grained impact in particular program areas. 
This research will complement country-specific studies being launched 
now, as well as the body of knowledge USAID has amassed on lessons 
learned and best practices in specific areas of democracy programming. 
With the findings from these efforts, missions will have at their 
finger tips information on which types of democracy programs are most 
effective and on how those programs can be designed and implemented in 
a way that will yield the biggest impact in a given environment.
                               conclusion
    You titled this hearing with a question, ``Democratic Developments 
in Sub-Saharan Africa: Moving Forwards or Backwards?'' I would answer 
that question by saying that Africa is a large continent, and we can 
find progress and backsliding at the same time. Whatever the case, 
though, USAID is committed to doing all we can to help Africans choose 
their own destinies through opportunities that are only available in a 
democracy.
    Mr. Chairman, I thank you again for inviting me to speak about 
USAID's democracy promotion work in Africa. I look forward to 
responding to any questions that you and members of the subcommittee 
may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Feingold. I thank both the members of the panel and 
we'll begin with 7-minute question rounds. I'll start with Mr. 
Lowenkron.
    How does the State Department coordinate its democracy 
promotion activities with other U.S. agencies and 
representatives on the ground as well as with other donors and 
national authorities, international and regional organizations, 
and civil society organizations?
    Mr. Lowenkron. As regards our parts of democracy funding, 
we sit down with our colleagues in the State Department and 
with AID and we thrash out, what are the areas that we could 
best apply our funding? We then craft proposals and we put them 
out for open competition for our own NGOs. Once we get their 
proposals, we then sit together the regional bureaus, AID, and 
my Bureau--and then we make decisions over which programs that 
we will fund. That's how we do this internally.
    In terms of what we do with our partners, we have very good 
consultations with the European Union, which devotes a lot of 
time, energy, and resources to try to develop democratic 
institutions in Africa itself.
    Second, we also work--we are also laying the groundwork 
because there is a lot of work to be done, to support the role 
of the African Union to take on more and more responsibilities 
as well as the subregional organizations such as SADC in 
Southern Africa as well as ECOWAS. So we do have these 
relationships with them. We do talk about our programs and we 
do try to hammer out, what are our objectives? Often times, it 
means that we work with our own NGOs to fund their NGOs and 
step backward and let them take the lead on our programming.
    Senator Feingold. Thank you. Mr. Secretary, can you 
highlight some of the notable steps the United States has taken 
to support democratic principles and institutions and reform 
efforts beyond elections across Africa to ensure, as we've both 
discussed, that democratic development does not end with 
multiparty polls?
    Mr. Lowenkron. Well, several areas. No. 1, for example, we 
have a program to help train legislators in Liberia. We have a 
program to help train judges in DROC. We have a program to work 
with various NGOs on gender-based violence in Sudan and 
Ethiopia and we want to use that as the model and reach beyond 
Africa to other parts of the world that are experiencing 
gender-based violence but they're not connected in some sort of 
a net where they could learn from one another. So these are 
some of the examples that we've used for our program.
    Senator Feingold. Very good; thank you. Mr. Hess, I was 
pleased to hear that USAID is demanding that Somalia's 
Transitional Federal Government demonstrate a genuine 
commitment to inclusiveness before providing extensive 
capacity-building assistance. What observable indicators are 
you looking for and how are you communicating these 
expectations to the TFG?
    Mr. Hess. There's a couple of mechanisms, Mr. Chairman, 
that we're using to communicate. First, through our post, 
through Ambassador Ranneberger, who has conversations and 
connections with the TFG. We have delivered the message that we 
want to make sure that they are inclusive, especially including 
all members of the society, not just friends of the TFG. We 
have worked very closely with them on the funding of the 
reconciliation Congress, which began yesterday. That's an 
important first step in being inclusive and by supporting that 
through our funding, we think that's a step in the right 
direction. But again, we want to make sure that they understand 
that this has to include all parts of Somali society if it's 
going to be successful.
    Senator Feingold. This is obviously complex and 
unfortunately, many other donors have not put these kinds of 
conditions on their support for the TFG. How are you 
coordinating with them to ensure that international support 
does not have the effect of merely emboldening or entrenching 
the TFG?
    Mr. Hess. That's a very good point as I met in January with 
the members of the EU and DFID, who are probably two of the 
largest supporters. Norway and Germany have come a long way in 
terms of providing support bilaterally as well. But I met with 
our representatives and their representatives in Nairobi when 
we were talking about this very issue, about conditionality 
that the TFG has to be more inclusive and I think the EU has 
come a long way in recognizing this and so has DFID in terms of 
the message that they are delivering.
    It's important that we work as a donor community in lock 
steps so that we send the same message and we don't present 
conflicting messages to this government right now. This is a 
crucial time. Things don't look good in Somalia right now but 
this is an opportunity and we want to seize this opportunity.
    We also work very closely with the United Nations in 
delivering this message. UNDP has done a very good job of 
helping organize this congress and the message that they are 
sending, likewise to the Transitional Federal Government is one 
of inclusivity--that's not a word, is it?
    Senator Feingold. Fair enough. We, as Senators on this 
committee, should take whatever opportunities we have to 
reinforce this when we have contact with representatives of 
those donor countries.
    Finally, before I turn to the other Senators, Mr. Hess, on 
Sudan, which you talked about in your testimony. Local 
elections are set to be held in 2009 and these elections are 
expected to pave the way for the critical 2011 referendum where 
the Southern Sudanese, of course, have the option to vote for 
independence. In order for the 2009 elections to take place, a 
census in South Sudan needs to be undertaken and this has not 
happened. Why? What is the administration doing to push this 
forward, and finally, what is the administration doing to 
prepare for the 2009 election?
    Mr. Hess. That's a very good point, sir. We've seen that 
example in a number of other elections around--in other places 
that I've mentioned, such as in Bosnia or in Kosovo. The census 
is key.
    [Additional written testimony by Mr. Hess follows:]

    There are three major political milestones that are critical to 
successful implementation of the CPA: The census, the elections, and 
the referendum. The census is now due to take place from February 2-16, 
2008. Given that the rainy season starts in April, if this date slips 
beyond March 2008 it will have a detrimental impact on the election 
timeline. The Government of National Unity (GNU) has delayed in 
providing their portion of funding for the census, sowing doubt about 
whether they will honor their commitment.
    USAID provides both short- and long-term technical assistance to 
the South Sudan Commission for the Census, Statistics and Evaluation 
and will be providing a substantial amount of equipment in the next few 
months.
    Since September 2004, USAID has obligated $47,082,000 to support 
election preparations. Components of the overall program have supported 
civic education, free and independent media, electoral law development, 
political party development, and preparations for the national census.

    Mr. Hess. One challenge is there are millions of IDPs who 
have still not returned to Southern Sudan. So we have to begin 
that registration process in the IDP camps while we're trying 
to do it down south. We're also working very aggressively with 
our partners in the United Nations to make sure that that IDP 
return happens. It is not happening as quickly as we want it to 
happen so we're trying to facilitate that so that they can go 
home. Unfortunately, those are simultaneous processes. We have 
to make sure that they get back safely to their homes where 
they are going to reside. There are also still a number of 
refugees that reside in northern Uganda, who have not returned 
home. So while we try to get the IDPs back to their homes, we 
continue to prepare for a comprehensive census.
    Senator Feingold. Thanks so much.
    Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman. I think I'd like 
to begin by asking each of you to comment on what you see as 
best practices. Just give one or two examples in each of the 
following areas. First, election processes. Where can we find 
some of the best practices and best examples in sub-Saharan 
Africa just for the process of elections, either at the 
national or the local level?
    Second, judicial independence, which was, I think, 
mentioned
by both of you as being really essential to maintaining and 
sustaining improvements in the democratic process, and third, 
property rights. If I could ask each of you to comment or give 
an example or two in each of those three areas and then comment 
generally on whether or not we're doing a good job of 
highlighting the best practices, either to promote support from 
institutions here in the United States and around the world, or 
to share information with other countries and other reform-
minded groups in sub-Saharan Africa.
    Mr. Lowenkron. I would start with the best practices for 
the electoral process with Liberia. I think that was a case in 
which we had a synergy with our aid and with our diplomacy with 
nongovernmental organizations and with a very, very clear 
message that Ellen Johnson certainly presented, which is, in 
essence, the time has come to have a clean and honest election. 
She mobilized civil society. We supported civil society and the 
thrust of her campaign was, we've got to get governance right. 
So I go back to the model of the three elements of democracy. 
So I would use Liberia, probably as the most successful.
    I would also just add a comment saying that even though 
there were many problems, as the chairman put it, I think what 
happened in DROC was extraordinary. It was challenging. It was 
an extraordinary election and I think that the people in that 
country should be given credit for pulling together an 
election, the first election in over 40 years.
    I would say in terms of judicial independence and this may 
seem a little odd at the outset. I would actually look at the 
strength of the judicial courts in Nigeria, which at the 11th 
hour, said, ``No, you cannot disallow somebody from being on 
the ballot,'' and which even today, are raising questions about 
some of the corruption of the Nigerian governors and I think 
that we need to highlight the importance of the role of the 
judiciary, especially in the areas where we had hoped to see 
greater progress and where they have been besieged. So I would 
use that as an example.
    I'd have to think a minute about property rights. In terms 
of sharing our experiences and engaging in dialog, this is one 
of the reasons why we have started this dialog with the African 
Union and why we also have quiet dialogs with countries, with 
governments on the sub-Saharan continent. It is not enough for 
us to negotiate and to discuss and debate among ourselves what 
a best practice is. We need to bring them to the table.
    We have discussed this with the European Union. I would 
also add something else, which I found quite extraordinary and 
something we need to build on and that is that last week, there 
was an extraordinary event here in Washington. There was a 
Democracy Bridge between the African Union and the Organization 
of American States, headed by both leaders of those 
organizations to exchange views on best practices and to talk 
about their--the elements of their Charter. The OAS Charter was 
in 2001. AU came 6 years later but I think it is important for 
us to do all that we can in order to support the efforts of 
what I call south-south dialog in exchanging best practices on 
democracy promotion.
    Senator Sununu. Thank you. Mr. Hess.
    Mr. Hess. Unfortunately, I have to agree with my colleague 
that Liberia is a great example, for all the reasons that Barry 
mentioned. We worked very hard building civil society, trying 
to manage those expectations and to deliver good governance for 
Liberia.
    I also want to reinforce though, the DRC. Forty years 
without free elections. A country the size of the United States 
of America with only four airports, no roads, very little 
communication infrastructure that's virtually impossible to 
navigate. But yet, they went through two rounds of elections 
and for the first time, elected a President in 40 years. I 
mean, that's just a remarkable story and shows the 
determination of the people in the Democratic Republic of 
Congo, to actually participate in the process and carry it 
through. It's just an excellent story that we try to tell in 
many other places around.
    The judicial independence, obviously it is the Nigerian 
electoral judiciary. It did a great job of standing up in the 
face of what was pretty severe pressure to cave in and they did 
stand up.
    In terms of property rights, I'd like to cite a couple of 
examples. One is Kenya and the other is Ethiopia. In both of 
those places, we're looking at land tenure issues because of 
agricultural development in both of those areas. As you know, 
we've had some difficulties in the northeast sector of Kenya 
for the pastorialists. We've worked very closely with the 
legislatures in both those countries to try and revise their 
property rights and help the pastoralists and the farmers in 
those regions so they can be more productive. Again, we work 
with our donor partners to convey those issues.
    We also have sessions with our NGOs where we try to 
exchange those ideas and we've had two recently on backsliding, 
for example, to try and reinforce those messages.
    Senator Sununu. I want to close with a question to each of 
you about moving from best practices to a more disappointing 
process, which were the elections in Nigeria. Three brief 
questions here. First, what preelection messages did the United 
States deliver to the Nigerian Government regarding concerns 
and in malfeasants heading into the elections? What was the 
response from the United States regarding the outcome and do 
you think that the criticisms of the U.S. response as being 
muted were fair? Do you think that we could have been more 
forceful in responding to the many reports of election abuses?
    Secretary.
    Mr. Lowenkron. In terms of our preelection message, we 
reiterated time and again, this is an opportunity. This is an 
opportunity for the country of Nigeria. We expressed concerns 
that we did not believe that the Independent National Electoral 
Commission was up to speed in terms of carrying out a 
successful election. We were concerned about the efforts to 
rewrite the constitution to allow for a third term. So we had a 
series, a series of conversations with the Nigerian Government, 
to say, this is an opportunity. We had our NGOs on the ground. 
We had NDI, IRI, and others on the ground as well as 
representatives of the European Union.
    And it was disappointing. Our reaction to that was built on 
policies and the statements we made to the Nigerian officials, 
which is, this was a historic opportunity and you missed it. It 
is disappointing. It's not just the issue of free elections, 
it's not what happens on election day alone. It's what happens 
in the lead up to the election and every step of the way, we 
found problems, significant problems on that.
    I believe that our response to the Nigerian election was 
clear. This was a disappointment. What we have also stressed to 
them is, you need to do the following things. You need to allow 
the courts to adjudicate the electoral disputes, No. 1 and No. 
2, you really, really, really have to tackle your National 
Electoral Commission because it was wanting. The problems that 
were there still remain.
    Mr. Hess. Obviously, we worked very closely with DRL in the 
whole electoral process and the messaging is synchronized, as 
Barry alluded to in the beginning. When we start these 
operations, we don't do it independently. We do them together. 
So the messages were--our messages were the same as the State 
Department's messages and they were delivered by the 
Ambassador.
    One of the areas that we've been working on since then, 
though, is we believe that you also have to continue to work 
with the local governance and civil society organizations. Yes; 
we had a disappointing result at the national level but we're 
going to continue to push that message through our partners 
that are working in the region but we have to continue to build 
the local networks and the local organizations that will build 
from the bottom up, a successful election next time.
    Senator Sununu. Thank you.
    Senator Feingold. Thank you. Before I turn to Senator 
Lugar, just a comment on the issue of the third term for the 
President of Nigeria. I guess we forget sometimes, what impact 
we can have without passing legislation. I simply sent a letter 
to the head of the Parliament there, saying that we hope they 
would not pass legislation allowing an additional term, and 
they were apparently having a huge altercation and he stopped 
the proceedings and read my letter, and apparently, that calmed 
things down. So we forget that we really can impact leaders and 
policies in these countries, without seeming heavy-handed. It 
was merely a request that they not make the mistake so many 
countries have made of allowing somebody to continue to run 
time and time again. With that, I turn to Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman. I'd like to pursue 
the comments that you've made about the Millennium Challenge. 
The press accounts of this are sympathetic and point out that 
the very nature of the process calls for a great deal of study, 
and, most importantly, emphasize participation by officials in 
the countries that might be assisted, and, maybe even beyond 
the officials to those in opposition or others that may be 
helpful.
    One of the dilemmas of all of this is that after a decision 
is made--and you point out that 6 of the 12 favorable decisions 
have been for African countries--then the process of dispensing 
the money depends likewise upon decisionmaking, bureaucracy, 
and leadership in the particular countries. The net result of 
all this has been, according to at least one account, only 
about $71 million has been dispensed by MCC out of several 
billion dollars that have been awarded. As you have observed in 
this committee, as we've had at least two hearings a year on 
MCC and how things are moving, there has been great impatience 
by some members of our committee who are saying: Why in the 
world are we pursuing this type of thing as opposed to simply 
foreign aid as we used to do it? That is, when we voted money 
that went out to the country and by and large, it got spent. 
Somebody might be helped by that method. In that process, why, 
a lot of local participation is occurring and democracy-
building perhaps, or something. But not much is occurring here, 
with the result that, as Senator Sununu pointed out, the 
administration's request, which was already well below the $5 
billion level that the President had talked about earlier, is 
down now to less than two. And this is not the first year that 
that has been the request and who knows what the outcome of 
that will be and some would suggest that at the end of this 
administration, there may be a reversion back to the old 
system.
    Now, I've gone through all of this because I agree with the 
philosophy of those who are testifying this morning that the 
undergirdings for the democratic progress that we hope for, 
have to come with some building of institutions, institutions 
to make decisions about roads and dams and education and health 
care and whatever may be the application the country felt was 
most important for it. And it requires individuals who can 
dispense the money. As we're seeing in Iraq, for example--not 
an entirely different situation. Money is accumulating in the 
bank but there is not an infrastructure even of government to 
dispense the money in any respect, democracy or not.
    What comment can you make as professionals who are dealing 
with MCC as well as with democracy, as to what we need to do, 
in the Congress or the administration or on the ground in 
African countries; not necessarily to hurry up the process. 
Some have suggested that the very fact that money isn't 
dispensed very fast is a very good discipline that it's not 
being splashed around. We're not having consequent 
investigations as to who misspent the money or sequestered it 
or put it in a foreign bank account. There is this transparency 
that is so important in all of these democracy movements. But 
can you discuss generally, just in a few minutes, whether the 
MCC--how does it fit into this situation, not only with the six 
countries but with others that are candidates and some who 
might be?
    Mr. Lowenkron. Senator, first of all, I agree with you on 
the issue that we have been slow. This was a revolutionary 
concept in many ways, the MCC, and I think that we spent a lot 
of time getting the structure right precisely because we wanted 
to ensure that if we went down this path, we would do the 
following: We would be able to build this infrastructure and be 
able to tackle corruption and we'd be able to account to the 
Congress and the American people where the money is going.
    Now, under Ambassador Danilovich, this has been accelerated 
and I think it's critical that this program continue. I do not 
see this program, in any way, shape, or form, as holding up 
some of the other critical work that we do--supporting NGOs on 
democracy promotion, tackling aid under the PEPFAR or ensuring 
distribution, enough food to the critical parts of Africa, even 
the countries that are incredibly mismanaged, regimes like in 
Zimbabwe.
    But it's a change in culture, it's a change in attitude. 
It's a notion that, yes; we will support country X and 
government Y, but you've got to be serious about tackling 
corruption. You've got to demonstrate, what is your plan to 
build the infrastructure and by the way, we should be willing 
to threaten to suspend from the MCC, as has been the case with 
some other countries outside of Africa. So this is very much--
this is a significant piece of work. It's still a work in 
progress. I share the frustration of those who say, this has 
been up and running. We need to see more results. I do think 
the trajectory is good. It is getting better. There are 
countries in Africa and elsewhere around the world that not 
only finally get it but they are also competing to get into the 
program.
    Senator Lugar. Um-hmm. Mr. Hess.
    Mr. Hess. I'd like to add a little bit to that. I think it 
is important to recognize that we do work together and the fact 
that we do work together, both State AID and the MCC. If we 
weren't working together, then perhaps they would be dispersing 
funds without the capacity being there and without our 
anticorruption programs being effective and in place and I 
don't think that's what we want to do.
    As Barry points out, we don't want to be seen as giving 
money and as you pointed out, Senator Lugar, and having it end 
up in some Swiss bank account some place. It is a new program. 
It is the new structure. There are new coordination mechanisms 
on which we are working to ensure that the capacity of that 
country is there, the decisionmaking processes are in place. 
These are decisions that Africans have to make about their own 
money. These aren't decisions that we're going to make for 
them. We want them to have that capacity. We want them to be 
able to do that and then to have the accountability and the 
responsibility for those programs. Those aren't our issues. 
Those are their issues and we have to train them, give them the 
capacity to do that while we work on these anticorruption 
programs. And if we weren't in sync, maybe we would be 
dispensing the money without having these capacities in place 
and I don't think we want that.
    Senator Lugar. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Feingold. Thank you. Senator Lugar, I note that the 
pretty good attendance at this hearing, I think, is a sign of 
the growing interest in the Senate on issues relating to Africa 
and I appreciate all my colleagues being here, including 
Senator Nelson, who certainly has shown strong interest in 
these matters and I think has traveled there recently.
    Senator Nelson.
    Senator Bill Nelson. Good morning, gentlemen. Let me just 
say that in my travels, I have been enormously impressed with 
USAID and I have seen some very dedicated folks that basically 
have exceptional hardship tours and I commend you for that.
    I'd like to know, what do you think, does official U.S. 
silence in response to an undemocratic state have--how does 
that impact our interest in the country in the question and in 
the region, when we turn our head? I'm talking about official 
U.S. silence.
    Mr. Lowenkron. In every day that I have been Assistant 
Secretary of State for Democracy, I have a voice and a vote in 
our policy and I have insisted that these issues be very clear. 
They are clear in terms of--clear in our----
    Senator Bill Nelson. Hold on. Try again. Can you use the 
other microphone?
    Mr. Lowenkron. Let's try that. Does that work better?
    Senator Bill Nelson. No. Turn yours off.
    Mr. Lowenkron. Mine's off.
    Senator Bill Nelson. OK, try the one on your left.
    Mr. Lowenkron. Better? Thank you. I don't think we should 
ever be in a position to remain silent when elections fall 
short. When I meet the Secretary of State, our conversations 
are always about trajectories. Where is a country going in 
terms of elections? where is it going in terms of civil 
society? where is it going in terms of corruption? and our 
policy is to try to push them in all three of these areas. A 
lot of these states are fragile but we need to speak out 
clearly when there are shortcomings.
    Senator Bill Nelson. Have we done that in Zimbabwe?
    Mr. Lowenkron. I think we've been very, very forceful in 
Zimbabwe. I think we have spoken out against the attacks on the 
opposition in March, against the Women of Zimbabwe Arise 
Organization; that happened in early June. We also quietly 
worked with our friends and allies and partners in Africa and 
the European Union. We've requested that the AU shine a 
spotlight on the issues in Zimbabwe.
    Now, I hasten to add, there are some on the outside who 
think--some who believe that this may be counterproductive and 
that we need to lower our voice in Zimbabwe. I'm not one of 
those. I think that when people are being clubbed to death, 
when people are being arrested, when you have a regime that 
when two people meet, that's tentatively called a meeting and 
they've got to have 7 days advance notice in order to get 
permission. And when you have a rate of inflation that is just 
beyond one's imagination, then I do think we need to speak out.
    Senator Bill Nelson. What about Nigeria?
    Mr. Lowenkron. We have flagged the fact that Nigeria had a 
historic opportunity and they missed it. They missed an 
opportunity to advance on their democratic development.
    Senator Bill Nelson. What's your assessment of the job that 
the new President is doing?
    Mr. Lowenkron. Well, I have to say--I mean, I don't want 
his first steps--his first steps I would applaud. He has done a 
public disclosure of his own finances and he wants that as a 
model for other leaders. He is not standing in the way of the 
judiciary in terms of adjudicating the electoral disputes and 
the governors. There have been some prosecutions of some 
governors on the basis of corruption and he has indicated his 
intention to tackle the rather weak National Election Council, 
the NEC. It's early but at least a few of those signs are 
positive.
    Senator Bill Nelson. I would agree with that. But there's 
one where we have a lot of personal interest involved because 
we get about 12 or 15 percent of our daily oil from Nigeria. 
But they just can't seem to get their hands around all those 
kidnappings down there in the Delta.
    Mr. Lowenkron. Well, I would say, Senator, part of that is 
because of the culture of corruption in that country and the 
culture and the practice in which the wealth of Nigeria does 
not extend to all the Nigerian people and that fuels a lot of 
it, which gets back to the issue that the election was an 
opportunity that was missed and we have to also focus on, can 
we press the new President, can we press the Nigerians to get 
serious about tackling corruption.
    Senator Bill Nelson. What about Ethiopia? Yesterday--you 
know what happened yesterday. The opposition that protested the 
last year's elections ended up getting sentenced to life 
yesterday. Now we've certainly gotten along a lot better with 
this government than we did with the Mengistu government.
    Mr. Lowenkron. Absolutely.
    Senator Bill Nelson. A lot more cooperation. There is a 
whole new spirit compared to 25 years ago. But what are we 
going to do when opposition is squelched with life sentences?
    Mr. Lowenkron. Well, Senator, we have to press. The Prime 
Minister of Ethiopia said that he will move to give these 
individuals clemency but that doesn't really roll the clock 
back to pre-2005 and say everything is fine. What's important 
is that as they head toward elections next year, is there, or 
is there not, going to be a level playing field? Can these 
individuals and others step forward and engage in an open, 
competitive, and honest political process? When I was in Addis 
Ababa in March, I had 90 minutes with the Prime Minister and 
about 85 minutes of that were precisely on the state of 
democracy in Ethiopia. And he kept reiterating that we take 
this decision because it's in the interests of the people of 
Ethiopia. And I told him, it should be in the interests of all 
the people of Ethiopia, even those that are in prison and need 
to be let out. So we have to keep pressing, privately and 
publicly, in order to get the trajectory right in that country.
     Senator Bill Nelson. If I were you, I'd raise some cane 
about this and I'd do it through our Ambassador. We have an 
excellent Ambassador there. He's a real pro.
    Mr. Lowenkron. He is.
    Senator Bill Nelson. But you need to back him up.
    Mr. Lowenkron. Senator, I was told by a foreign official 
that unlike my colleagues who do economics or political/
military officials, when I arrive in a country, the news is not 
good and my job is to raise cane and when I was in Ethiopia, I 
met with the families of those who were in prison. I met with 
organizations. I met with the media. It's part of my job and it 
is a bully pulpit that all of us use--the Congress, every 
administration has to use. I cannot agree with you more.
    Senator Bill Nelson. Well, I'd raise more than cane.
    Mr. Lowenkron. OK.
    Senator Bill Nelson. Thank you.
    Senator Feingold. Thank you, Senator Nelson and I was in 
Ethiopia in December and met with the Prime Minister as well 
and I want to strongly agree with what Senator Nelson just said 
in his own style, that we cannot tolerate a country like that 
moving in the wrong direction, if they want to have the kind of 
relationship with us that they want to have and that we want to 
have with them. I just want to make sure the record is very 
clear. Despite the comments that I'm sure were appropriate with 
regard to the actions of the new leader of Nigeria, these 
elections were deeply flawed. There is a serious question of 
the legitimacy of those elections and of this administration 
and the chairman of this committee certainly is not giving a 
free pass of any kind nor am I sure--I'm also certain that Mr. 
Lowenkron is not either, that this does not erase the enormous 
failure of getting it right and there is much more to be said 
about the problems in Nigeria. I don't know what's more than 
raising cane, Senator Nelson, but I'd say whatever you can come 
up with, that's what needs to happen with regard to the 
Nigerian election. If there are no other questions for this 
panel, we will now thank the panel and move to the next panel.
    Mr. Lowenkron. Thank you.
    Senator Feingold. All right, we'll come to order. I was a 
little more generous with the time with the first panel but we 
are running short on time, so I'll ask that the second panel 
please keep their comments to under 5 minutes if they could and 
we'll put their full statements in the record.
    Let us begin with the Honorable Princeton Lyman.

STATEMENT OF HON. PRINCETON N. LYMAN, ADJUNCT SENIOR FELLOW FOR 
     AFRICA POLICY STUDIES, COUNCIL ON FOREIGN RELATIONS, 
                         WASHINGTON, DC

    Mr. Lyman. Thank you very much, Senator. Thank you for 
having this hearing. Thank you, Senator Lugar, very much. I 
will try to be brief because a lot of the issues have come up 
already.
    I think this hearing is very timely because with 
developments in the Middle East and elsewhere, people are 
beginning to debate whether the support of democracy should be 
an objective of U.S. policy. I'd like to say at the beginning 
that I think in Africa, it's a terribly important objective and 
it's very important to all our objectives on the continent. The 
reason is that Africans are very much engaged in pursuit of 
democracy and open government. After a generation of 
disappointing political and economic developments, most 
Africans know that without a more open political system and 
better economic management, they are not going to be able to 
address the deep problems of poverty. Those two issues, 
democracy and development, are related. I want to come back to 
that in light of the discussion on the Millennium Challenge 
Account (MCA).
    But let me just emphasize this point right up front, about 
the importance of African leadership. We talked a little bit 
earlier in the hearing about South Africa and I am glad you 
recognized Senator Lugar's major role during that period. It 
was the South Africans who were in the lead in the 
negotiations. They were the ones who wanted to develop not only 
a peaceful transition but a democratic constitution. In that 
environment, the United States could play a very active role.
    The United States, in fact, spent a lot of money during 
that period of transition. We spent tens of millions of dollars 
surrounding the process with all the support we could give it, 
with experts and training, in building capacity in civil 
society. When the election came along in 1994, Mr. Chairman, we 
spent $25 million in support of that election, in voter 
education and all other aspects of support. It was a worthwhile 
investment. South Africa is a strong and vibrant democracy 
today.
    The United States has not made that kind of commitment 
elsewhere in Africa. Turning briefly to Nigeria, you have 
talked about the crushing disappointment when President 
Obasanjo who was so promising in the beginning of his 
administration oversaw an election in 2007 that was really a 
disgrace. What bothered the Nigerians, I think, more than 
anything, was the brazenness with which the rigging and other 
malpractices took place. Nigeria is right now no longer a 
paragon of democracy.
    But if you look at U.S. support to the electoral process, 
and I have all due respect for all those in our administration 
who work hard on democracy issues, I think in all honesty, the 
administration, heavily engaged in Darfur and Somalia, took a 
relatively benign view of the developments in Nigeria. There 
was an attitude that, ``Yes, there are a lot of problems there 
but the Nigerians will muddle through, nevertheless. There will 
be a lot of grumbling. People will be disappointed but things 
will go on.''
    Although one cannot say the United States could have 
changed the outcome, because there were a lot of reasons that 
President Obasanjo proceeded the way he did, I think we missed 
an opportunity. The administration had allocated only $15 
million over 3 years for democratization programs in Nigeria. 
That was just not enough to make a dent in the situation. Even 
though our Ambassador and others spoke out on this issue, there 
was not a sufficiently strong commitment to engaging the 
Obasanjo government on the importance of elctoral reform and to 
helping improve the electoral preparations. Now we have an 
administration in Nigeria that has to prove its legitimacy and 
capability. In sum, I think we missed an opportunity.
    There are other setbacks. Mr. Chairman, you mentioned 
Ethiopia and the problems in Ethiopia. Because of our 
engagement on Somalia and other counterterrorism policies in 
the region, and our dependence in this regard, if you will, on 
Ethiopia, I think our influence on those domestic issues is 
relatively limited. That is a very serious problem. There was 
an opening to democracy in Ethiopia in the elections of 2005. 
That opening could be closing. The question for the 
administration is how important is that democracy versus some 
of these other policies and programs in which we are engaged?
    There are other countries that do not get enough attention 
that deserve our support during the period. I would mention 
Angola. If I can put in a commercial there is a Council on 
Foreign Relations report that has recently been released on 
Angola. The report emphasizes how important it is for the 
United States to engage now with Angola as it moves out of 
civil war and toward, hopefully, more democratic government.
    The DRC is another critically important country. The United 
States has not paid enough attention to that vastly important 
country. In addition to what the other witnesses have said 
about the election there, we should pay respect to the role of 
the United Nations in helping make that election possible. 
There was a tremendous job done by the United Nations during 
that period.
    I want to come back just to this question of the 
relationship of democratization and development because the 
poverty issues are critical in Africa. I would support what 
Senator Sununu said about the Millennium Challenge Account. I 
recognize there have been a lot of problems getting that 
instrument up and running. But when you have countries moving 
into the right direction--Benin, Ghana, Mali, Tanzania, 
Mozambique, and many more--the degree of support from the donor 
community for those transitional countries with regard to 
economic development is going to make a difference in their 
ability to solidify the democratic process.
    The Millennium Challenge Account is a unique instrument for 
exactly this purpose. It puts up a lot of money and it puts it 
up front and says it's guaranteed if the country follows 
through on its commitments. MCA grants are not tied to security 
or similar kinds of consideration. Thus they represent the best 
of American principles. I hope therefore we can continue to 
support the MCA. I hope the Congress will relook at the budget 
decisions being made on it because I think it is quite an 
important instrument.
    In conclusion, the trend--and you have heard all the data--
the trend in Africa is positive, probably more positive on the 
African Continent over 15 or 20 years than in any other 
continent. This despite the problems that still exist and the 
backsliding. There have been over 80 leadership elections since 
1990. There are several countries where the opposition has won 
elections and taken control peacefully. Civil society is 
growing very strong in Africa. There are real partners there to 
work on. We need to support that and we need to support it with 
good, solid economic programs for those countries doing the 
right thing.
    Finally, wherever we see a serious, serious challenge to 
that process, especially in countries as important as Nigeria 
or Angola and Ethiopia, we have to make clear that this is 
running counter to their interests and our own.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Lyman follows:]

   Prepared Statement of Princeton N. Lyman, Adjunct Senior Fellow, 
              Council on Foreign Relations, Washington, DC

    Mr. Chairman, members of the committee, thank you for asking me to 
testify on this most important subject, the development of democracy in 
Africa.
    This hearing is timely, because there is a growing debate in the 
United States about how and to what extent the United States should 
make the support of democracy a principal element of our foreign 
policy. Disappointment with the developments in the Middle East and 
elsewhere has raised doubts about this objective. I want to say at the 
outset that the support of democracy in Africa is not only important 
but justified by the desire and support for democracy by Africans 
themselves. Africans, in Benin, Mali, South Africa, Zambia, Malawi, 
Kenya, Tanzania, the Democratic Republic of Congo, and other countries 
have advocated, demonstrated, sometimes risked, indeed often lost, 
their lives, and stood in long voting lines to establish democratic 
systems of government. These systems are not perfect, and there has 
been some serious backsliding in Africa. But the trend has been more 
consistent and impressive than in any other region. From 1960 to 1990, 
there were hardly any peaceful changes of leaders in Africa. Since 
1990, there have been more than 80 leadership elections in more than 40 
African countries, several instances of power passing to opposition 
parties, and only a handful of military coups, almost all of them 
quickly reversed. The Africa Union, the predecessor organization of 
which was once a clique of military or otherwise autocratic rulers, 
today will not seat a government that comes to power by 
nonconstitutional means and has intervened on several occasions to 
reverse coups and restore elected government.
    This demand for democracy has been sustained because after a 
generation after independence of failed political and economic 
policies, most Africans came to the conclusion that only an open 
political system, and a free market economic system, can generate the 
growth necessary to overcome Africa's deep problems of poverty. Thus 
support for democracy goes hand in hand with programs to address 
Africa's poverty. That should be an important element in United States 
policy.
    I stress the importance of Africans' own commitment to democracy. 
In South Africa, the negotiations to end apartheid, and to establish 
one of the strongest and most democratic constitutions anywhere in the 
world, was led throughout by South Africans. In that environment, the 
United States was able to play an important supportive role, and a most 
active one. Because the process was fragile, and subject to continuing 
violence, it was important to take every possible opportunity to 
strengthen it. Thus the United States spent tens of millions of dollars 
in the period of 1990-94 to strengthen civil society, to provide 
expertise to the negotiators on every aspect of constitutional debate--
e.g., federalism, fiscal management, affirmative action--to support 
conflict resolution programs being run by South Africans throughout the 
country, and to train the new leadership. In support of the 1994 
election alone, the United States spent $25 million on voter education 
and related support. It was a worthwhile investment. South Africa 
remains a vibrant and strong democracy. Unfortunately, we have not made 
a similar commitment elsewhere.
    Nigeria is Africa's most populous country and with South Africa a 
bellwether of Africa's movement to democracy and good governance. 
Nigeria has been under military rule for most of its independence. 
Twice civilian government was snuffed out by military coups. But in 
1999, military rule ended with the election of Olusegun Obasanjo, and a 
process of true civilianization of leadership has since been under way. 
Nigeria's transition to democracy is especially important. Together 
with South Africa's Thabo Mbeki, President Obasanjo helped fashion the 
commitment to democracy by the African Union and the principles of good 
governance and human rights embodied in the New Partnership for African 
Development (NEPAD) that the AU has adopted. Obasanjo personally 
intervened in Guinea-Bissau, Togo, Mauritania, and Sao Tome and 
Principe to reverse coups or threats to elected government. It was thus 
a crushing disappointment when his government failed to assure a 
credible or even reasonably fair election in 2007 to select his 
successor. There were plenty of warning signs. The so-called 
Independent Election Commission was neither independent nor competent. 
Preparations were woefully inadequate. A fierce dispute between 
Obasanjo and his Vice President roiled the political process and upset 
the election preparations. What perhaps most discouraged Nigerian and 
international observers was the brazenness with which rigging, 
intimidation, ballot stuffing, and outright fraud took place during the 
election itself. Nigeria went from being a paragon of the 
democratization process to being an uncertain political entity.
    It is not certain that external activity could have changed this 
outcome. Nigeria was flush with oil money and not in need of foreign 
aid. Obasanjo was absolutely determined, at virtually any cost, to be 
sure that his political rivals would not take power and, therefore, 
relatively immune to pleas about the election disaster that was 
looming. Nevertheless, it is fair to say that the Bush administration, 
heavily engaged in the crisis in Somalia and the ongoing humanitarian 
situation in Dafur, took a relatively benign position with regard to 
the impending election in Nigeria. There was a feeling that Nigeria, 
with all the problems ahead, would ``muddle through,'' that Nigerians 
would grumble, demand better elections next time, but that there would 
be no major crisis afterward. By contrast to the $25 million the United 
States spent in support of the 1994 election in South Africa, the 
administration provided only $15 million over 3 years for 
democratization programs in Nigeria. Despite the growing electoral 
crisis that was developing in 2006-2007, the administration did not 
increase this level. Civil society and other democracy advocates in 
Nigeria could have used much more support.
    Nigeria is not falling apart. And the newly elected President, 
Umaru Yar'Adua, has made some good moves in reaching out to the 
opposition and addressing the insurgencies in the oil-producing delta 
region. But Nigeria as a force for democracy has been weakened. Nor is 
it yet clear that this new leadership will have the legitimacy and 
support necessary to carry out badly needed reforms in Nigeria nor the 
ability to cut through entrenched interests and bureaucracies to make 
the desperately needed investments in power and other infrastructure 
that would keep Nigeria from slipping further into unemployment and 
poverty. The United States can now ask for some signs of good 
governance, electoral reform, and sound economic management as 
benchmarks for future cooperation. But the United States missed an 
opportunity to speak out strongly and with conviction on democracy when 
it was being bruised so badly in such an important country.
    The United States faces an even more difficult situation in 
Ethiopia. This country, with such a sad history of brutal dictatorship, 
war, and poverty, had a brief window of opportunity for democratization 
in the elections of 2005. The opposition did very well, adding 
substantially to seats in the Assembly. But the results were hotly 
contested by the opposition which insisted that it had, in fact, won 
the election. Demonstrations grew violent and many demonstrators were 
killed. The Ethiopian Government arrested 38 opposition leaders and is 
now threatening to execute them. In the context of the Somalia 
situation, and Ethiopia's central role in United States 
counterterrorism policy in the Horn, U.S. influence on the domestic 
political situation in Ethiopia is very small. What seemed like a 
democratic opening in one of Africa's most important countries, the 
home of the Africa Union, seems thus to be rapidly closing.
    These disappointments, and others in Zimbabwe and Uganda, should 
nevertheless not deter us from support for democratization across the 
continent. The trend is basically in favor of democracy. Civil society 
is vibrant, and growing stronger each year. But much support is needed 
to move beyond elections to true democratic transformation. Parties are 
weak, the press is in need of training and legal protection, 
judiciaries need to be strengthened, and electoral systems improved. In 
sum, there is much to do. But there are allies in Africa for doing so.
    The connection to our other major objective in Africa, overcoming 
poverty, is also clear. Without question autocratic governments in 
Africa have almost all failed economically. When the donor community 
acts in concert with African democratic movements and economic reform, 
the results can be dramatic. Benin, which sent the first shock waves of 
democratic revolt through Africa in 1990, benefited from a conjunction 
of political reform and strong donor economic support to establish a 
solid democracy. Ghana is doing the same, as can Mali, Mozambique, and 
other African countries.
    For this reason, I would stress that in addition to programs 
directed specifically to democracy, the United States maintain a strong 
economic support program for democratizing and reforming countries. In 
this regard, I urge the Congress to rethink its negative attitude 
toward the Millennium Challenge Account (MCC), threatening to cut the 
President's FY 2008 request in half. It may be that in oil rich 
countries like Nigeria and Angola, or in countries embroiled in 
counterterrorism programs, this instrument is not relevant. But in 
democratizing countries like Ghana, Benin, Mali, Mozambique, Tanzania, 
Kenya, and potentially many others, the availability of truly 
substantial economic support can enable democratic administrations to 
demonstrate real economic progress and thereby solidify public support. 
The MCC is an exceptional instrument, more potent in many ways than the 
sums for democratization alone, and far beyond normal aid levels. Not 
encumbered with security considerations, and linked to political and 
economic reform, it represents the best of American intentions and 
principles. We should capitalize on it as one of the strongest 
instruments in support of democracy.
    In countries not appropriate for the MCC, we need different 
instruments. I would call your attention to a recent report by the 
Council on Foreign Relations on Angola. Angola, a major oil producer, 
has emerged from decades of civil war with the potential to become both 
economically strong and a force for stability in the region. But the 
prospects for steadily more open and democratic governance are 
uncertain, yet critical to Angola's long-term stability. The report 
calls for a mix of public and private efforts by the United States to 
help steer that country through the post-war period and toward a more 
democratic governing system. The DRC represents another special 
challenge, being at the very center of Africa and drawing the interests 
and involvement of all its neighbors. Years of civil war have taken a 
devastating toll, causing over 4 million deaths.
    Yet, against all the odds, the DRC has just come through a peaceful 
and credible election, thanks to strong U.N. leadership and the 
determination of the Congolese people. This most fragile movement 
toward democracy, in a country of vast economic and political 
importance, and extraordinarily complex internal challenges, deserves 
special attention. Investing in the stability and steadily improved 
governance of the DRC should be among the U.S.'s highest priority. I am 
pleased that the Secretary of State has put the DRC on her itinerary 
for her upcoming Africa visit. Up to now the DRC has not commanded 
nearly the attention in the United States that it deserves.
    In summary, Mr. Chairman, Africa is perhaps the best region for the 
United States to pursue its freedom agenda, its commitment to 
democracy. Public support in Africa is strong, the trends are positive, 
the opportunities great. So too are the challenges. While the 
administration has put democracy as one of its priorities in Africa, 
and dedicated certain amounts to that cause, the vast bulk of United 
States funding for democracy goes elsewhere. In FY 2005 USAID 
democratization programs in Africa did reach $138 million, with another 
$66 million for democratization within five MCC grants. Nevertheless, 
given the number of countries in Africa, and the opportunities, the 
United States could well dedicate much more to this cause in Africa. It 
would reap results. There also needs to be more response capacity, 
i.e., to increase resources when critical situations arise. We should 
also be prepared to provide substantial economic support when the 
conditions are right. And wherever in Africa, we should not let another 
situation like that in Nigeria in 2007 develop without a stronger 
reaction and a more vigorous preventive effort.

    Senator Feingold. Thank you, Mr. Ambassador. You've been a 
tremendous resource in the 15 years that I've been on this 
committee and I appreciate it.
    Mr. Albin-Lackey.

  STATEMENT OF CHRISTOPHER ALBIN-LACKEY, NIGERIA RESEARCHER, 
               HUMAN RIGHTS WATCH, WASHINGTON, DC

    Mr. Albin-Lackey. Thank you. I'm going to focus my remarks 
mainly on Ethiopia and Nigeria because I think that both of 
those countries provide a very stark example of a basic failing 
of U.S. policy toward many different African countries and that 
is that while the United States has consistently shown itself 
to be a very willing and helpful partner in engaging with 
African governments that are interested in promoting democracy 
and human rights, there is often not nearly as good a job done 
of designing constructive ways to deal with governments that 
stand as obstacles to promoting those objectives.
    Both Nigeria and Ethiopia are very good examples of that 
problem. I think there are three basic areas where things could 
be approached differently in ways that would make a very 
dramatic difference and are completely feasible.
    First, the administration should focus more deeply on 
engaging with underlying human rights issues as opposed to 
dramatic one-time events, including elections, which cannot, by 
themselves, ever equate to democracy. In Nigeria's case, the 
disastrous April elections were not just an anomaly, they were 
a reflection of a broader crisis in governance in that country. 
Irresponsible, corrupt, and abusive leaders have been thrown up 
at all levels of government by fraudulent elections in 1999, in 
2003, and now in 2007. That has crippled the capacity of 
government to deal with serious underlying problems and to 
improve upon respect for basic human rights.
    It's also worth pointing out that the problem in Nigeria 
that tends to get the most international attention, the crisis 
in the Niger Delta, also has its roots in this very same crisis 
of governance. Many of the militants and criminal armed gangs 
in the Delta that are responsible for the wave of kidnappings 
and other acts of violence, got their start as gangs who were 
funded by politicians seeking to rig themselves into office 
during the 2003 elections. All of those politicians have 
escaped with complete impunity, even as the details of their 
involvement with these groups have become very well known over 
the past 4 years.
    In the case of Ethiopia, the government's crackdown on 
leaders of the opposition has received a great deal of 
international attention but again, that isn't an anomaly. In 
fact, Ethiopia is governed in a way that is characterized by 
patterns of repression, harassment of the opposition, many 
cases of arbitrary detention, and torture. This is especially 
true in rural areas and it exists at a level that's so 
pervasive that many Ethiopians' day-to-day experience with 
government is such that political activity or political speech 
is simply not possible. In fact, what was unusual about 
Ethiopia's elections was not the harsh response of the 
government to protests in the wake of the polls but rather, the 
limited opening--in terms of time and in terms of scope--that 
appeared before those elections. What's going on with the trial 
of opposition leaders is, in fact, much more connected to the 
basic reality of governance in that country than anything else.
    It's also very important that the United States display 
greater willingness than it has done in leveling forthright 
public criticism and finding ways to mobilize other forms of 
pressure against governments like Nigeria's and Ethiopia's that 
show willingness to disregard basic human rights and a 
disinterest in promoting democracy and better governance.
    One of the earlier panelists said that our message to the 
Nigerian Government in the runup to the elections was that they 
had a historic opportunity and that our message after the 
elections was that they--the government--had missed that 
opportunity. But I think the basic problem with that approach 
is that the Nigerian Government didn't miss an opportunity so 
much as perceive a very different kind of opportunity sitting 
before it. Many people in Nigeria's ruling party saw an 
opportunity to run roughshod over Nigeria's own constitution to 
derail its electoral process and to expect that they could do 
so free of any meaningful international criticism or response. 
Unfortunately, given the muted nature of not just the United 
States but the response of other key allies of Nigeria as well, 
they have thus far largely been proven right in that very 
cynical assumption.
    This problem is perhaps even more apparent in Ethiopia, 
where the administration has been unwilling to criticize 
patterns of human rights abuse, including Ethiopia's systematic 
and indiscriminate bombardment of civilians in Mogadishu, which 
caused up to 400,000 people to flee that city in a matter of 
weeks this spring--and this was after the administration's 
tacit encouragement helped propel Ethiopia to invade that 
country to begin with.
    I'm running out of time so I'll just close by also saying 
that even where the administration has urged improvement in 
human rights, it's often the case that standards are set far 
lower than they should be. Many of the governments that we're 
discussing often complain about setting unrealistic 
expectations but in fact, those criticisms are exaggerated. 
Nigeria can't be expected to stamp out corruption and Ethiopia 
can't necessarily be expected to become a perfectly 
functioning, multiparty democracy overnight. But it's certainly 
not out of line to demand that Ethiopia refrain from 
imprisoning the leaders of its opposition or suppressing 
dissent or massacring its own civilian populations and it's not 
unrealistic to demand that Nigeria refrain from subverting its 
own law enforcement agencies and electoral institutions to 
prevent free and fair elections from happening or to hold those 
responsible accountable.
    Thank you again for the opportunity to speak. I'm sorry for 
running over.
    [The prepared statement of Mr. Albin-Lackey follows:]

  Prepared Statement of Christopher Albin-Lackey, Nigeria Researcher, 
                   Human Rights Watch, Washington, DC

    Thank you, Chairman Feingold, and members of the committee, for 
inviting Human Rights Watch to participate in this hearing. My name is 
Chris Albin-Lackey and I am a senior researcher with the Africa 
Division of Human Rights Watch. For the past 2 years, I have worked 
documenting Nigeria's deplorable human rights record across a range of 
issues. I was in Nigeria before, during, and after April's general 
elections. Previously, I covered Ethiopia for Human Rights Watch, 
including during the runup to its May 2005 elections.
    This hearing could not be timelier, and Nigeria and Ethiopia both 
stand as clear examples of the reasons why. The course of events in 
both countries today has laid bare some basic failings of U.S. policy 
toward Africa. Nigeria's failed elections in April were a terrible 
setback for hopes of democratic reform--and a stark reminder of the 
disastrous state of governance in that country. The Ethiopian 
Government's deplorable human rights record has now manifested itself 
in military atrocities against its own people in Somali region and 
against Somali civilians in Mogadishu. In both cases, the 
administration's uncritical acceptance of systemic human rights abuses 
has weakened rather than strengthened the incentives for reform.
    There is no reason why these failed policies cannot be changed in a 
way that would allow Washington to play a more constructive role in 
promoting human rights and democracy in Nigeria, Ethiopia, and 
elsewhere across the continent. Doing so would require a deeper 
engagement with underlying human rights issues--and a realization that 
the mere act of holding elections does not by itself lead to either 
respect for human rights or genuine democracy. It would also require a 
shift away from policies that have seen the United States avoid 
opportunities to level forthright public and private criticism, and in 
some cases targeted diplomatic pressure, around human rights issues. 
And finally, the administration must abandon a tendency to set 
standards so low that governments can meet them without respecting 
their basic human rights obligations at all.
                        nigeria's 2007 elections
    Nigeria's rigged April polls were not unique--all of Nigeria's 
elections since the end of military rule in 1999 have been marred by 
widespread fraud and violence. But this year's elections were 
particularly shocking because they were brazenly stolen with the 
collusion of the very government institutions charged with ensuring 
their credibility, including Nigeria's electoral commission and police 
force.
    Many Nigerians were cynical about the government's intentions long 
before the elections were held, arguing they had been ``programmed to 
fail'' from their inception. They felt the process was more 
``selection'' than ``election.'' Nonetheless, many of the Nigerians 
with whom I have spoken were truly dismayed at how insulting and hollow 
the voting process was in the end.
    Another Human Rights Watch researcher and I spent the better part 
of February through April in Nigeria and observed the gubernatorial and 
Presidential polls in four states. We witnessed ballot boxes stuffed in 
plain view; gangs of ruling party toughs interfering with vote 
collation; voters chased away from their polling units by gangs armed 
with cudgels; legions of small children casting ballots; and myriad 
other abuses. These observations mirrored those reported by other 
international and domestic observers.
    The real tragedy of the elections was best symbolized by the futile 
courage many Nigerian voters, police officers, and others displayed in 
trying to salvage the process. At one polling station in Katsina State, 
I watched a large group of voters hold their places in line even after 
becoming enveloped in a cloud of tear gas. Policemen had misfired a gas 
canister aimed at a gang of thugs menacing the polling station and the 
voters continued to stand in line even though finding it difficult to 
breathe or open their eyes.
    At another polling station, a frantic police officer pulled me 
aside to tell me that the government was stealing the election and to 
ask if there was anything that could be done to stop it. And an 
election observer in Rivers State told me that a group of ruling party 
thugs had come to her polling station, chased away everyone waiting in 
line, and demanded that the young man in charge hand over the ballots. 
When he refused, the thugs locked him and the ballots in the trunk of 
their car and drove away laughing as he screamed in panic.
    Elsewhere the elections simply did not take place. In Rivers, 
groups of would-be voters sat outside all day at their designated 
polling centers, waiting despondently for ballot materials and polling 
officials to arrive. Unfortunately they never did. The next weekend in 
a town called Dutsi in Katsina State, I spent hours trying to track 
down electoral officials because all the ballot papers had disappeared. 
In the end, it turned out that large quantities of ballot materials had 
been diverted to the home of the local government chairman. Elsewhere, 
ballot boxes had been stuffed and votes counted hours before the polls 
were scheduled to close. The official results reported an overwhelming 
majority for the PDP even in places where voting did not take place at 
all.
    Overall, the elections period was extraordinarily violent, claiming 
an estimated 300 lives between the campaigns and 2 days of actual 
voting. Throughout much of the country, gangs of thugs--sponsored by 
local politicians--attacked polling stations, sending voters fleeing as 
they carted off ballot materials. Sometimes, they simply sat alongside 
the road stuffing ballot boxes in clear view of passers-by. In Gombe 
State, my colleague interviewed a young man who was attacked with 
machetes and left for dead by PDP thugs who suspected that he was 
trying to persuade his elderly grandmother to vote for the opposition. 
And in Oyo State, voters were held hostage to the whims of a notorious 
political ``godfather'' who openly sponsored armed gangs to roam the 
streets attacking opponents of the ruling party and its candidates.
The United States Government Reaction
    In the wake of Nigeria's April polls, the State Department issued a 
statement that expressed ``regret'' at the conduct of Nigeria's April 
elections and also reaffirmed the administration's eagerness to build 
upon its ``excellent bilateral relations'' with Abuja and to work with 
the Nigerian Government to improve the conduct of future elections. 
This would have been an appropriate reaction if Nigeria's April polls 
had merely been ``flawed.'' But in fact the conduct of the polls 
displayed a determination on the part of Nigeria's ruling party not to 
allow Nigerians any real say in choosing their next President. This in 
turn leaves little hope for real democratization, accountable 
governance, or greater respect for human rights.
    The administration's expressions of concern over April's open 
display of contempt for democratic principles have been so timid that 
Nigeria's new government will see no reason to take them seriously. 
That reaction seemed to express the very low expectations the 
administration placed upon the elections in the first place; many 
diplomats with whom I spoke in Abuja were privately deriding the 
process as an ``election like event'' months before the first ballot 
was cast. If anything, the message sent by the administration's 
response is that countries like Nigeria can avoid international 
criticism simply by going through the motions of holding periodic sham 
elections.
    These disturbing events should concern the administration enough to 
formulate a more robust and effective response than it has previously. 
One in seven Africans is a Nigerian; it is not possible to talk of 
promoting democracy and human rights in Africa and ignore Nigeria. 
Further, the lack of any meaningful international reaction to Abuja's 
open abandonment of democratic principles threatens to resonate far 
beyond Nigeria's borders.
             moving forward: lessons from current failures
    Rhetorically, support for human rights and good governance is a 
central component of U.S. policy in Africa. Too often, however, the 
administration's efforts to promote democracy and accountable 
governance have proven scattered, inconsistent, and unnecessarily 
timid. The U.S. Government has consistently proven itself a willing and 
helpful partner to African governments that are genuinely interested in 
the promotion and protection of democracy and human rights. But the 
administration has not succeeded in dealing with governments that 
display a palpable hostility toward suggestions of greater political 
openness or respect for the rights of their citizens to participate in 
politics. Washington could begin to address that failing, and have a 
more positive impact across the continent, by focusing on three 
distinct policy goals:
(1) A Sustained Focus on Broader Human Rights and Governance Issues
    Too often, U.S. policy has eschewed complex and sustained 
engagement with deeper processes of reform and democratization in favor 
of a simpler but ineffective focus on dramatic one-time events such as 
elections. It has also placed too much emphasis on maintaining good 
relationships with often-abusive African heads of state while glossing 
over systemic problems that run far deeper than any one individual. In 
some cases, policymakers give the impression that this is due to 
resource constraints precluding the development and implementation of 
more holistic policies. The end result is shallow policies that simply 
do not work.
    In Nigeria's case, April's disastrous elections were largely a 
reflection of a broader crisis in governance that has originated from 
rampant corruption, human rights abuses, and a basic lack of 
accountability on the part of government at all levels. Nigeria's 
overall human rights record remains deplorable. Corruption has hobbled 
the capacity of government to spur progress despite booming oil 
revenues. Nigeria's police engage routinely in extortion and torture of 
criminal suspects and ordinary civilians. Politicians foment political 
and ethnic violence with complete impunity, recruiting armed gangs 
themselves or turning religious and ethnic divisions to their political 
advantage.
    From 1999 until Nigeria's April elections, U.S. policy focused on 
encouraging improvement in Nigeria's electoral processes and expressing 
support for President Olusegun Obasanjo, partly on the basis of his 
perceived commitment to reform and democratization. The current 
administration did not condemn underlying patterns of human rights 
abuse and corruption. Instead, it essentially treated widespread 
patterns of human rights abuse and corruption as, in the words of one 
U.S. diplomat in Abuja, ``bumps along the road'' to progress instead of 
what they actually were: Evidence of deep, systemic problems that the 
Nigerian Government was doing nothing to resolve. The dividends of that 
approach were on display last April as Nigeria's Government made a 
mockery of its own pretenses to democratic governance through its 
brazenly rigged elections.
    A similar approach and corresponding results have occurred in 
Ethiopia. Ethiopia's Government is one of the most repressive in 
Africa. The Ethiopian military has been responsible for crimes against 
humanity in Gambella region and is committing serious abuses in 
neighboring Somalia and its own Somali region. Security forces 
routinely subject suspected government opponents to harassment, 
arbitrary detention, torture and in some cases, extrajudicial 
execution. Local officials, especially in rural areas, subject 
Ethiopians to surveillance and impose a climate of fear and 
intimidation that discourages free speech of any kind, much less active 
participation in politics. Neither the administration nor any other 
foreign partner of Ethiopia has engaged robustly with those issues in 
the years since the current government came to power. This partly due 
to a feeling that Prime Minister Meles Zenawi was a reformer and a 
reliable international partner in spite of his government's record on 
the ground.
(2) Criticism, Confrontation, and Pressure
    The United States should display a greater willingness to publicly 
criticize abusive governments in Africa and mobilize other forms of 
leverage to create pressure for reform. There is never any ``magic 
bullet'' in Washington's arsenal, but strong public and private 
criticism of serious human rights abuses can lend momentum and 
credibility to the efforts of domestic reformers and human rights 
defenders. And Washington does have more tangible forms of leverage 
over many African governments, such as the power to condition military 
aid on meaningful human rights improvements. But these tools are often 
not deployed and in some cases the administration's refusal to defend 
human rights principles, even rhetorically, has reached harmful 
extremes.
    Again, Nigeria and Ethiopia are good examples of the scale and 
importance of the problem. Washington has often treated these 
governments as reliable partners in the promotion of human rights and 
democracy rather than determined impediments. Not only has this policy 
failed, but it has also emboldened leaders who have shown a willingness 
to undermine basic human rights.
    The administration is in no way to blame for the failure of 
Nigeria's 2007 electoral process, but its refusal level meaningful 
criticism against Nigeria's corrupt, abusive, and unaccountable 
government sent the wrong signals. The administration reacted to rigged 
and violent elections in 1999 and 2003 with uncritical acceptance. It 
also failed to urge in forceful terms that the 2007 elections be more 
credible than its predecessors.
    The administration's acquiescence regarding the rigged elections of 
years past is likely connected to the open and shameless manner in 
which the 2007 elections were stolen. Fearing no criticism from 
Washington or other key allies, the Nigerian authorities made little 
pretense even of concealing the deed. Worse, Nigeria was proven right 
in its cynical assumptions about the level of U.S. interest in free and 
fair elections; the administration issued only muted criticism 
following the 2007 debacle. The U.S. Government has also not applied 
any significant pressure on the new administration of President 
Yar'Adua to ensure accountability for past abuses or prevent similar 
ones from occurring in the future.
    The U.S. Government has also not subjected Nigeria's Government to 
meaningful criticism about more systemic patterns of human rights abuse 
since the end of military rule in 1999. To name just a few of the most 
glaring examples: Since 1999, the Nigerian military has burned several 
communities to the ground and murdered several hundred Nigerian 
civilians. The Nigerian police routinely indulge in the practice of 
torture and extortion. And Government corruption has actively fueled 
conflict in the Niger Delta because federal authorities turned a blind 
eye to the efforts of Delta politicians to arm criminal gangs to help 
them rig the 2003 elections. None of these abuses has triggered any 
significant public criticism or other action on the part of the U.S. 
Government.
    Policies marked by an even greater unwillingness to level criticism 
or apply diplomatic pressure have equally failed to yield positive 
results in Ethiopia. The United States and other partners of Ethiopia 
have not publicly called upon the Ethiopian Government to reverse and 
remedy systematic patterns of repression. Ethiopia held elections in 
2005 that were eagerly embraced by the administration as a sign of 
progress in spite of overwhelming evidence that patterns of 
intimidation, harassment, and violence had made political activity 
impossible across much of the country. This spring, Ethiopia's 
systematic and indiscriminate bombardment of Mogadishu, which caused up 
to 400,000 people to flee the city in a matter of weeks, failed to 
generate any condemnation from Washington--and this after the 
administration's tacit support helped propel Ethiopia toward its 
decision to invade the country. Just last week, after the 
administration was presented with news that Ethiopia's Government would 
seek to impose death sentences on Ethiopia's most prominent opposition 
leaders, it only went so far as to express its ``surprise'' at the 
news.
            The Arguments Against Speaking Out
    Some U.S. officials argue that criticism and attempts at deploying 
leverage are certain to prove ineffective at mobilizing change. But 
those sentiments are exaggerated. Washington may not have the power to 
bring about change on its own in most countries but it can often lend 
more significant momentum to reform than any other single actor. Just 
as importantly, the administration's greater willingness to speak out 
publicly on human rights issues and use what leverage is available to 
advance human rights principles will lend greater credibility to U.S. 
policies across the continent.
    The United States is Ethiopia's largest bilateral donor of aid that 
includes substantial IMET and FMF military assistance. Washington is 
also a key international ally of both Ethiopia and Nigeria. This does 
not mean that the United States can or should dictate policy to either 
country, but it does guarantee that its opinion will be taken seriously 
and that public criticism could lend moral support to individuals and 
groups working for positive change within those countries.
    By the same token, U.S. silence on human rights issues often 
undermines the prospects for change by demoralizing domestic activists. 
Many Nigerians were dismayed at the lack of any appreciable U.S. 
reaction to the stolen April polls. Ethiopians hoping for greater 
freedoms will not be encouraged by the fact that the United States will 
not even publicly condemn Addis Ababa's stated goal of executing its 
most prominent opposition leaders on trumped-up charges.
    In some cases U.S. officials have also argued against applying 
targeted diplomatic pressure or criticism against governments like 
Ethiopia and Nigeria because of a fear of damaging relations or 
``isolating'' those countries. Ethiopia is regarded as a key regional 
ally in the global war on terror, while Nigeria is an increasingly 
important source of oil, as well as a partner in regional diplomacy and 
peacekeeping efforts.
    It is certainly true that the United States relationship with 
countries like Ethiopia and Nigeria involves real and important 
interests beyond the promotion of human rights. But it is not true that 
the only alternative to the status quo is ``isolation'' or a complete 
and sudden breakdown in bilateral relations. Too often it appears that 
such fears are reflexively trotted out as a boogieman to justify an 
indefensible policy of doing and saying nothing. And in some cases the 
situation is even worse than this; Ethiopia is a good example. Because 
the administration supported Ethiopia's invasion of Somalia, its 
uncritical acceptance of the brutal ongoing military crackdown on 
civilian populations in the Ogaden and of abuses in Mogadishu appears 
to place Washington squarely on the side of a brutally oppressive 
government. This in a part of the world the administration already 
worries may emerge as a stronghold for terrorist organizations hostile 
to the United States.
(3) Higher Standards
    When Washington does express concern to abusive and unaccountable 
African regimes about their human rights records, the bar is often set 
so disappointingly low that intransigent regimes can clear those 
hurdles without registering any meaningful progress at all. President 
Bush has decried what he calls a ``soft bigotry of low expectations'' 
at home in U.S. education policy, but this phrase is an apt description 
of the administration's policies toward key African partners regarding 
human rights.
    Again, Ethiopia and Nigeria each offer a case in point. Officials 
within both governments have argued that human rights criticisms of 
their administrations are based on unrealistic and undeliverable 
expectations--that countries require time to adopt human rights and 
governance practices akin to what Western critics can expect in their 
own countries.
    Such criticisms lack merit. It may be unrealistic to insist that 
Ethiopia's Government transform itself into a functioning multiparty 
democracy overnight. It is not out of line, however, to demand that the 
Ethiopian military stop staging attacks against civilian populations in 
Gambella and in the Ogaden, or that Addis Ababa refrain from executing 
the leaders of its opposition.
    Likewise, it may be unrealistic to call upon Nigeria to stamp out 
corruption and poor governance with a stroke of the pen. But it is not 
unrealistic to demand that politicians who openly recruit and arm 
criminal gangs for the purpose of rigging elections be held to account 
for the resulting abuses. Nor is it unrealistic to demand that 
Nigeria's Federal Government refrain from manipulating its own law 
enforcement agencies and electoral institutions for the express purpose 
of ensuring that free and fair elections do not take place.
                    country-specific recommendations
    There are some obvious first steps the administration could take in 
improving the promotion of human rights in both Nigeria and Ethiopia:
    Nigeria: Nigeria's new government came to power in elections that 
made a mockery of the democratic process. The administration should 
strongly urge Abuja to undertake urgent reforms with a goal of making 
government more accountable and to avoid a similar debacle in 2011. 
That task is formidable but there are some obvious starting places. The 
administration should publicly and privately urge the Yar'Adua 
government to:

  <bullet> Reform its electoral commission to make it more transparent, 
        inclusive, and independent.
  <bullet> Act to restore credibility to its Economic and Financial 
        Crimes Commission (EFCC), whose reputation was badly tarnished 
        by its harassment of the President's political opposition 
        before the 2007 elections. Nigeria should also conduct 
        transparent and far-reaching inquiries into allegations of 
        corruption leveled against former Governors by the EFCC that 
        were allowed to drop. Where allegations have sufficient 
        substance, they should result in prosecution.
  <bullet> Conduct a transparent investigation into allegations of 
        election-related corruption and improper political manipulation 
        involving the upper echelons of its police force and electoral 
        commission.
  <bullet> Secure passage of Nigeria's long-delayed Freedom of 
        Information law, a key piece of legislation that could tear 
        away the cloak of secrecy that conceals the shameful details of 
        many government abuses. The bill was effectively vetoed by 
        President Obasanjo during his last days in office.

    The United States does not have substantial economic leverage over 
the Nigerian Government. Nigeria does however value its place as a 
respected member of the international community. The realization that 
the government's corrupt and abusive behavior at home could impact its 
standing around the world will matter in Abuja. Until Nigeria 
demonstrates a serious commitment to reform by at least beginning to 
make tangible efforts at fundamental reform like those listed above, 
there should be no bilateral meetings between Presidents Bush and 
Yar'Adua, and relations overall should not be as warm as they have been 
since 1999.
    Ethiopia: The administration should abandon its current policy of 
what amounts to a kind of ``quiet diplomacy'' on human rights issues, 
which has yielded no tangible dividends. Instead the administration 
should:

  <bullet> Ensure that the provisions of the ``Leahy Law'' are fully 
        adhered to, by verifying that no U.S. military assistance to 
        Ethiopia is benefiting military units that violate human rights 
        with impunity.
  <bullet> Demand that Ethiopia not pursue the death penalty against 
        opposition leaders and activists convicted of undermining 
        Ethiopia's Constitution, and insist that the rights of all 
        detainees to due process be respected.
  <bullet> Publicly call for investigations into and accountability for 
        ongoing human rights abuses committed by the Ethiopian military 
        in Somali region and Somalia, as well as past abuses in 
        Gambella.
  <bullet> Publicly call upon Ethiopia to end systemic patterns of 
        political repression including harassment, arbitrary detention, 
        and torture of suspected government opponents.

    The United States must also abandon its practice of cooperating 
with the Ethiopian Government in secret renditions of people fleeing 
the conflict in Somalia and call on the Ethiopian Government to 
acknowledge the real number of detainees and permit access to these 
individuals by independent international monitors. No U.S. message 
about human rights abuses in Ethiopia will be taken seriously so long 
as the administration is also asking Ethiopia to cooperate in the 
illegal detention and abusive interrogation of terrorism suspects.
                               conclusion
    Nigeria and Ethiopia represent two very different contexts where 
the same set of administration policies has failed to promote human 
rights and genuine democracy. Abusive, corrupt, and authoritarian 
governments there and in other parts of Africa will only be emboldened 
if these policies are continued. Washington does possess the means to 
play a more positive and prominent role in advocating and advancing 
democratic reform and respect for human rights across the continent. If 
the administration begins to speak out about on-going abuses, insist on 
higher standards of respect for human rights, and engage more deeply 
with the broader human rights issues instead of just elections, there 
is a real opportunity to play a central role in bringing about change. 
And if the administration did take that stand, it could set an example 
that other key countries in Europe and elsewhere could follow in 
reforming their own equally flawed policies.

    Senator Feingold. Well, I appreciate your comments and let 
me just say again, with regard to Nigeria, that our 
administration's efforts, both prior to the election and after 
the election, were not absent but they were insufficient with 
regard to warning Nigeria about what these elections had to 
look like and with regard to the disastrous results of the 
election. So I think your comments are right on target.
    With regard to Ethiopia, when I met with Prime Minister 
Meles, I strongly urged him not to invade Somalia in the way he 
did, and he has now admitted that it was a mistake, publicly 
and frankly. At least parts of our government did not seem to 
be sufficiently discouraging him. So there is a real disconnect 
between what's happening on the ground and what we--those of us 
on this committee--can see happening and what the 
administration is doing, and somehow this government has to 
come together with regard to these issues and put the proper 
pressure where it needs to be.
    So I appreciate your comments very much and of course, the 
chairman had to leave in order to meet with the Secretary 
General of the United Nations, so I appreciate his attendance.
    The next witness is Ms. Akwe Amosu.

STATEMENT OF AKWE AMOSU, SENIOR POLICY ANALYST FOR AFRICA, OPEN 
               SOCIETY INSTITUTE, WASHINGTON, DC

    Ms. Amosu. Thank you very much. We very much appreciate the 
opportunity to testify today and I'd like to request that my 
full written statement is made a part of the record.
    In that statement, I have given our views at length on the 
course of democratization in Africa over the past two decades 
and made suggestions for how we think the United States can 
reduce contradictions in its Africa policy and strengthen its 
support for democracy and human rights.
    But I'm going to, because of pressure of time, restrict my 
remarks to Zimbabwe right now and talk about ways that I think 
the United States can help to bring about a positive outcome to 
the crisis.
    As you know, they are due for a Presidential election in 
March 2008 and the mediation effort is being led by South 
African President Thabo Mbeki on behalf of SADC and the 
objective of that mediation, I would say, is to try and get to 
the point where the opposition MDC, it's two factions, can 
agree sufficiently to participate in a contest and agree on the 
outcome.
    The problem is that as that mediation continues, the 
government is attempting to reshape the political landscape 
through legislation by changing the number of parliamentary 
seats and changing the electoral rule. Also, a violent campaign 
of arbitrary arrests and torture is continuing, being waged by 
security forces against the MDC and civil society activists, 
which also makes it very difficult for the opposition or the 
civil society groups to respond to the mediation process.
    Then, of course, and this is dominant in everybody's mind, 
the economic situation is spiraling downward. We have seen that 
the government's response to that is to print more money and 
launch predatory attacks on the private sector. The speed of 
deterioration is so great that even cautious observers are 
speculating that the regime is unlikely to last another year 
and some would say even as soon as Christmas.
    Whenever there is finally a collapse or a crunch, the 
people who are trying to manage this crisis, I think, are 
trying to achieve a number of objectives. First of all, to try 
and achieve as smooth a departure from power as possible for 
Robert Mugabe and to replace him with a team, an administration 
that is motivated to restore order and stabilize the political 
environment.
    Second, to negotiate an agreement with international 
donors, a financial package that can fund economic 
stabilization, manage the hyperinflation and restore bank and 
investor confidence. Third, to depoliticize and 
reprofessionalize the security forces and the ZANU-PF militias, 
that are so key to President Mugabe's control of the present 
situation. Fourth, to repeal the repressive laws that make free 
association and open contestation and political life 
impossible, and fifth, to try and attract home the many 
hundreds of thousands of Zimbabweans, particularly the middle 
classes so that they can help rebuild.
    It's important to say that President Mugabe has been very 
successful at playing the race card throughout this period and 
that that has made international engagement much more 
complicated. I'd say that even his neighbors are nervous about 
being accused of being puppets of Western imperialism and, 
therefore, have not been nearly as critical as they could have 
been. But it does seem to be extremely important that the world 
should not be intimidated by that. No nation that wishes to 
speak up in defense of human rights should be intimidated from 
doing so and in that regard, the United States, which is one of 
the primary butts of Mugabe's rhetoric, should not lie low as 
is so often recommended and was alluded to earlier.
    The civil society organizations that we work with have 
repeatedly pointed out to us that Ambassador Dell's loud 
critique of what is happening has been absolutely vital in 
protecting the safety of many of the individuals who have been 
targeted by the Security Forces and so we would strongly 
recommend that this continue.
    We also hear from our civil society partners on the ground 
that they believe that the U.S. support for democracy and human 
rights groups on the ground is very, very important. They want 
it to continue and indeed, to increase. They feel very 
embattled and as the months go by, they become more embattled.
    We see two scenarios ahead. One is that there is an 
economic collapse before the mediation is able to accomplish 
anything. In that situation, we--although obviously suffering 
on the ground will increase, on the other hand, I think it will 
open opportunities to find individuals and previous loyalists 
who are willing to enter negotiations and in the meantime, we 
don't think that the United States should accede to the demand 
that they lift sanctions and indeed, we would like to see the 
United States continue its international advocacy, particularly 
with the EU, ahead of the summit in December, to get everybody 
to hold the line on Zimbabwe.
    The other side--the other scenario, is that the mediation 
proceeds and that there is an agreement before an economic 
implosion. I think on that front, our alarm would be that a 
quick fix solution is what is agreed between the opposition 
politicians and ZANU-PF government and it's extremely 
important, we believe, that there should be a thorough going 
transformation. This isn't just about moving the deck chairs on 
the Titanic. This is about trying to reorganize the political 
space so that all, particularly the nongovernmental actors, 
feel that they are operating freely and able to pursue free 
association. From that point of view, we feel strongly that 
it's important for the United States and other international 
partners to make that point to the South Africans and to the 
people in the region.
    I know I've run out of time but one final point; I think 
for the United States, one very major contribution that can be 
made is to help donors put together the economic package that 
will be so critical to managing a smooth transition out of this 
crisis. That particularly requires that countries that have 
previously supported Zimbabwe, like China, should be integrated 
into that package so there are not alternative channels through 
which the ZANU-PF government can find ways to avoid complying 
with the international will and managing a safe transition out.
    Thank you very much.
    [The prepared statement of Ms. Amosu follows:]

 Prepared Statement of Akwe Amosu, Senior Policy Analyst, Open Society 
                       Institute, Washington, DC

                              introduction
    My name is Akwe Amosu and I am a senior policy analyst at the 
Washington office of the Open Society Institute. I work across a range 
of African issues and bring to my job a history of over 20 years as a 
journalist focused on African affairs, mostly at the BBC World Service 
but also at allAfrica.com, the Financial Times and West Africa 
magazine. During my career I have traveled extensively in Africa, 
living at different times in Nigeria, South Africa, and Ethiopia, and 
reporting on and interviewing key individuals and newsmakers. My 
remarks are founded on those years of observation and analysis and draw 
greatly on the expertise of my Africa-focused colleagues in the Soros 
Foundation Network.
                advances toward open societies in africa
    Africa today is a very different place than it was at the end of 
the cold war, a time of military coups, stage-managed and stagnant 
politics and personality-led regimes propped up for decades without 
change by outside sponsors. As the world's two superpowers lost 
interest in controlling African allegiances, a political thaw began, 
and their local clients lost their power to maintain absolute control 
over the political terrain.
    By the early 1990s what has come to be seen as a ``wave of 
democracy'' was sweeping the continent, starting in western, 
francophone Africa with 1991's Benin landmark election and resulted in 
26 countries holding Presidential elections within the next 3 years. 
The end of apartheid in South Africa removed the last and most 
entrenched bastion of repression. By 1994 there was not a single one-
party state left in sub-Saharan Africa.
    Although political transformation in the 1990s proved to be of 
variable intensity and longevity, often turned out to be new wine in 
old bottles, the change on the continent has been lasting. The 
incidence of military coups has dropped so far as to become negligible 
and there is an indisputable increase in functional democracies. In 
1989 only three countries in Africa could claim to have democratic 
governments. This coming November, 13 African countries are expected to 
be invited to the ministerial meeting of the Community of Democracies 
in Bamako, Mali, and a further six, seen as close to meeting the 
standard, invited as observers.
    As I will discuss below, this is not to say that all is well; much 
of Africa continues to struggle with major deficits in governance and 
poverty and the early momentum for change, so evident in the early mid-
1990s, has slowed significantly. But we need to recognize what has been 
achieved as much as we need to identify the barriers to further 
advance.
    An additional critically important development has been the advent 
of a new generation of intracontinental institutions, above all the 
African Union, but also the New Partnership for Africa's Development, 
NEPAD, and its self-assessment program, the African Peer Review 
Mechanism (APRM); the African Commission on Human and Peoples Rights; 
the Pan-African Parliament; and the forthcoming African Court, to name 
only a few. As research and debate have thrust governance issues to the 
fore, progress has been made in developing normative frameworks for 
democratic governance at national, subregional, and continental levels. 
Africa now has some of the most progressive constitutional provisions 
in the world. Human rights and electoral standards have been developed 
at subregional and continental levels, most notably with the recent 
adoption of the African Charter on Democracy, Elections and Governance.
    Where the Organization of African Unity was barely more than a club 
for the ``big men'' first of African independence and then of cold-war 
politics, with a gentleman's agreement not to interfere in each others 
affairs, the African Union is an institution whose statutes affirm the 
importance of substance, of accountability, of human rights, and the 
obligation to uphold those rights not only at home but in your 
neighbor's back yard too. Undoubtedly in practice, these aspirational 
standards are often not met and the development of these institutions 
is a work in progress; but the challenge is no longer the lack of 
standards but enforcement.
    Interstate and civil war, long seen as a huge brake on African 
progress, has surged at various periods during the past 15 years, yet 
the levers for challenging and bringing those conflicts under control 
are more numerous, the constituencies pressing for peace are vocal and 
more powerful and their leverage is greater. Specifically we have seen 
cessation of major violent conflicts in countries such as Mozambique, 
Angola, Burundi, Sierra Leone, Southern Sudan, Liberia, the DRC, and 
Cote d'Ivoire. The United States has played a significant and 
contributory role in support of conflict resolution, mitigation, and 
prevention during the past 15 years. Thus, even as we lament the 
suffering and demand a just peace in Darfur, the DRC or northern 
Uganda, we may also agree that levels of African mobilization, 
diplomatic effort, and engagement for peace in Africa are 
unprecedented.
            civil society unleashed--a critical development
    For the Soros Foundation Network, committed as we are to open 
societies, perhaps the greatest advance of this period has been the 
birth and growth of civil society, the nongovernmental actors and 
groupings that we believe are essential to the functioning of a 
democracy.
    Effectively suppressed by censorship and repression during the 
cold-war era, would-be activists for women's rights and a host of other 
issues, professionals seeking to raise their standards, lawyers seeking 
to test and improve their country's jurisprudence, citizens demanding 
information about government expenditure have all come out into the sun 
and continue to expand their engagement, commitment, and skills to hold 
politicians and rulers to account. Their emergence has had a 
galvanizing effect on wider society.
    The importance of this development cannot be overemphasized because 
despite the positive political developments listed above, there is a 
very long way still to go. The continent continues to be the site of 
gross injustice, poverty, sectarianism, and graft. Alarmingly, as 
globalization advances, some of the gravest problems seem to entrench 
and become worse. In particular, countries that are endowed--many would 
say cursed--with fossil fuels and other high-demand minerals, are 
demonstrating poor governance of the worst kind. But as we acknowledge 
this, we also note that one of the most effective, fastest growing 
civil society networks in Africa today is the Publish What You Pay 
coalition. Its constituent members across the continent work intensely, 
daily exchanging information and strategies with each other to get 
transparency laws passed or gain access to government information, 
training themselves to interpret budgets and disseminate information 
about corporate and government malfeasance.
    One significant trend has been toward the ``indigenisation'' of 
leadership and staffing in many of the international NGOs that work in 
Africa. From their old incarnation as foreign-led charities seeking to 
ameliorate suffering, they are increasingly advocacy organizations, 
seeking to become smarter and get at the root of problems wherever in 
the world they may be found, and working collaboratively with local and 
international partners.
    It is important not to romanticize the growth in civil society and 
to acknowledge that alongside the domestic thrust, international 
donors' priorities and dollars have played a significant role in 
driving the sector. Furthermore, donor enthusiasm for funding the 
nongovernmental sector has in some contexts damaged and undermined the 
state's capacity to deliver services, and has sometimes given 
unaccountable NGOs too much power in a landscape of weak and 
underresourced institutions. That said, the enabling of a cadre of 
skilled and highly motivated Africans in multiple sectors to contribute 
to their countries from outside the official sphere is a huge dividend 
of the past two decades, shining a light into places and onto issues 
that are often not in government, or indeed donor interest, to 
acknowledge.
                    persistent governance challenges
    Some African countries stand out in the strides they have made 
toward better governance, for example Benin, Botswana, Cape Verde, 
Ghana, Mali, Mauritius, Senegal, and South Africa. Others, such as 
Mozambique, Madagascar, Kenya, and Liberia are moving in the right 
direction. But even as we praise the momentum and achievements in these 
countries, we must acknowledge the huge deficits in others that seem to 
be going in the opposite direction.
    The honeymoon euphoria that accompanied the first ``wave of 
democratization'' is now over. In some countries democratic transition 
has been stalled, in others it has been actively blocked, and in yet 
others it has produced flawed outcomes. In most instances, the African 
state is a primary route to resources and rent for ambitious 
individuals; this is mostly the case because the institutions that 
theoretically protect a state from being captured in this way prove 
unable to do their jobs. Institutions of democratic governance such as 
legislatures, political parties, and civil society formations are 
usually subordinate to an overbearing and predatory executive, with a 
negative impact on policymaking and implementation.
    More than half Africa's countries remain highly autocratic, despite 
sometimes distracting attention with the fig-leaf of elections and 
other democracy-associated exercises. Nowhere is this more evident than 
in countries with mineral wealth. They are strengthened in their 
political choices by huge incomes, and assiduous courting by foreign 
governments--whether from the West or East--that wish to gain access to 
their oil. Oil-rich countries make up nearly half the continent's 
authoritarian or autocratic governments including Angola, Chad, 
Republic of the Congo (ROC), Democratic Republic of the Congo (DRC), 
Equatorial Guinea (EG), Gabon, Guinea, Libya, Tunisia, and Sudan.
    These countries present a predictable mix of contrasting 
statistics. On the one hand they display ``growth rates'' far higher 
than those of nonproducers of petroleum, sometimes of the order of 20 
or 30 percent. Equatorial Guinea, one of the most deplorably 
underdeveloped countries anywhere on the planet can nonetheless claim 
to have the second highest per capita income in the world ($26,000), 
after Luxembourg. On the other hand, such riches benefit no one except 
a tiny elite at the top of the political food chain. Over half 
Equatorial Guinea's 520,000 people have no access to safe drinking 
water and three-quarters live on less than $2 a day, despite annual oil 
revenues of over $2.7bn per year.
    Also typical is a variable degree of political oppression and lack 
of security for citizens. At the extreme end of the scale, Equatorial 
Guinea, for example is ranked by Freedom House alongside countries such 
as Uzbekistan, Haiti, and Zimbabwe and boasts an extensive and 
documented record of human rights abuses. Arbitrary detention, torture, 
execution, and stifling of political comment or debate are the order of 
the day. EG was, in June 2007, added to the U.S. human trafficking 
black list as a ``tier 3'' country for failing to do enough to prevent 
mainly women and children being captured and used as slave labor or in 
forced prostitution. Other oil-producing countries present a less 
extreme picture, but demonstrate major political and human rights 
deficits nonetheless. In most of these locations it is hard to find 
major advances in democratic development.
    Of all the countries on the continent, oil producer Nigeria's 
commitment to a democratic path is the most critical. For better or for 
worse, it is seen as a leader. Eight years under President Olusegun 
Obasanjo began with great hope for reform but ended in profound 
disappointment and anger. Some reforms were important and of lasting 
value, particularly in the financial sector, including a vigorous 
anticorruption agency which is nonetheless tarnished by clear partisan 
bias against the former President's enemies. For the most part, 
however, there has been little change. Obscene poverty has continued 
despite soaring oil and unprecedented oil receipts ($223bn during 
Obasanjo's tenure--some two and a half times the receipts of the 
preceding 8 years, according to Nigeria analyst Professor Jean 
Herskovits); the professional middle-class battles to survive as their 
sectors are starved of investment or support and infrastructure 
continues to deteriorate. Major cities limp along without adequate 
power supply as the country struggles to meet even a fraction of the 
demand for refined fuel products, leading to constant shortages; 
agriculture which should be the backbone of the economy is largely 
neglected, and there is negligible support for indigenous industry--
resulting in large-scale closures (1,800 since 1999 according to the 
Manufacturers Association of Nigeria) as cheap imports deliver a final 
knock-out punch.
    The Obasanjo government, like its predecessors, failed to share the 
benefits of the enclave economy, while allowing politicians to steal 
mind-boggling volumes of cash. At the end of the Obasanjo era 31 of the 
36 state governors had been investigated for corruption by the Economic 
and Financial Crimes Commission and now that the official immunity is 
ended, charges are beginning to be laid. The EFCC has been widely 
quoted as saying that $400bn in state revenues has been wasted or lost 
to corruption in the 47 years since independence.
    A review of Nigeria's much criticized 2007 poll, the preelection 
period and the voting exercise itself brings into relief the venality 
afflicting parts of the political class, the strong impulse in the 
incumbent party toward one-party rule and the capacity deficits--or 
malfeasance--of some government officials. The course of the election 
and nature of its failure is extensively documented elsewhere and will 
be dealt with by another witness at this hearing so I will not go into 
further detail. However, it is worth noting, in line with the points 
made about the importance of civil society above, that the numerous 
nongovernmental organizations engaged in trying to monitor and 
strengthen the political transition process played a vital role in 
exposing malpractice and defining the standard.
    The Alliance for Credible Elections, ACE, a coalition of nearly 20 
organizations focused on religion, gender rights, human rights, legal 
issues and other sectors, articulated the problems besetting Nigeria's 
political system, ensuring that the leading voice of the critique is 
domestic and preempting the standard defense used by African 
governments that they are the victim of foreign prejudice and 
imperialist designs. Further, some of the most impressive individuals 
who ran for office have a long history of working in civil society 
structures, including activism and leadership against military 
dictatorship. Without their participation and commitment, there would 
be greater doubt about Nigeria's chances of eventual progress toward 
true democracy.
                   limitations on u.s. africa policy
    With the strong message from the start of the Bush administration 
that the United States would seek to strengthen and promote democracy, 
it might be expected that the African human rights and democracy 
advocates would win strong support from Washington. Indeed, U.S. policy 
is in many ways excellent: As stated by the State Department's Bureau 
of Democracy, Human Rights and Labor (DRL), the intention is to 
strengthen and where necessary, defend good governance and associated 
transparent and accountable institutions under the rule of law, free 
and fair election processes, and robust civil society and independent 
media. The introduction this year of a Human Rights Defenders Fund and 
ten guidelines in support of NGOs were valuable additions to the policy 
framework and toolset.
    In some key locations and instances, the United States has played a 
key and positive role in supporting a transition from conflict to 
peace. The U.S. investment in the peace process in Southern Sudan 
immediately comes to mind, as does the solid support given to Liberia 
and to Sierra Leone. There appear to be some challenges, however, in 
the delivery of stated policy that seem to be rooted in conflicting 
U.S. interests on two fronts in particular.
The ``War on Terror''
    The first is the ``War on Terror,'' which impacts relationships in 
Africa on a number of levels. At one extreme, it can result in serious 
policy incoherence as one part of the administration pursues an 
essentially political approach while another adopts a military one, as 
in Somalia. In another example the administration apparently faces a 
dilemma as it tries to decide which aspect of its relationship with the 
Sudanede Government should take precedence, that of intelligence 
collaboration with the Sudanese National Security and Intelligence 
Service, or pressing Khartoum to end the Darfur conflict.
    Countries that have made a point of overtly aligning themselves 
with U.S. narratives and policies regarding terrorism appear to have 
benefited not only from financial and military support but seem 
successfully to have diverted attention away from their internal poor 
governance and human rights abuse, or, at least, have managed to water 
down complaints. The contrast between heavy international criticism of 
the Meles government in Ethiopia when over 190 unarmed civilians 
protesting over contested election outcomes were killed by security 
forces and the comparatively mild critique from Washington registered 
widely. Collaboration between the United States and Ethiopia during the 
latter's invasion in December of Somalia is often cited as the other 
side of the same coin. The conclusion widely drawn is that U.S. 
commitment to human rights and good governance is pragmatic. The 
suggestion is that Washington is willing to take a strong stand on 
human rights where it has little or no interest at risk, as in Zimbabwe 
for example, but it will not do so with conviction where it has other 
pressing goals that call for an emollient approach.
    Such tensions are evident in the U.S. relationship with Egypt 
(which in the African Union is very much viewed as an African country), 
a U.S. ally in the War on Terror. Egypt's record on democracy and human 
rights according to DRL is profoundly flawed: The State Department's 
2006 Country Reports on Human Rights Practices states that ``The 
government's respect for human rights and the overall human rights 
situation remained poor,'' going on to cite ``persistent and credible 
reports of abuse and torture at police stations and prisons, and police 
violence.'' The government made ``no significant progress'' on its own 
program of political reform; instead a culture of impunity protected 
security personnel accused of abuse, the judiciary was under pressure 
from the executive, there are arbitrary and mass arrests, corruption 
and lack of transparency, to name only some of the complaints.'' Yet, 
as reported in the Washington Post on Sunday June 10, in a major speech 
on democracy, President Bush's avoided mention of such deficits, 
commenting only that Egypt ``has a great distance to still travel.'' 
Such a mild remark should have provoked such a furious response from 
Cairo is its own comment on the level of U.S. critique in the past. 
African governments that flout human rights norms repeatedly delay 
elections, use violence and repressive laws against opposition voices, 
and refuse to be held accountable have drawn their own conclusions.
    If the ``War on Terror'' makes Washington sometimes ambivalent 
about its priorities in relation to African governments, it conversely 
tends to harden public attitudes. Global perceptions that the United 
States is anti-Islam and hostile to Muslim nations are echoed in 
Africa. For example, in the recently published Pew Global Attitudes 
Survey only 32 percent of Nigerian Muslims, (down from 38 percent in 
2003), have a favorable view of the United States, compared with 89 
percent of Christians. While the two groups differ in their viewpoints 
on other issues, nowhere is the gap as wide or polarized as in their 
attitudes to the United States. Undoubtedly local tensions between the 
two communities are revealed in these statistics but such low approval 
ratings in such a large sector of the population of a country seen as 
so important to the United States should give policymakers pause for 
thought. Further, in 2003, public support in Nigeria for the War on 
Terror stood at 60 percent, a particularly high figure by comparison 
with other non-Western countries, but apparently boosted by the 
strongly supportive Christian population. By 2006, support had tumbled 
to 49 percent.
    Too few surveys of public opinion are carried out in Africa to give 
a reliable indicator of views across the continent. However if 
commentary carried in media in dozens of countries gives any indication 
of public sentiment, U.S. unilateralism, U.S. responsibility for the 
Iraq war and the perceptions of anti-Muslim bias are widely held.
The oil factor
    A second major area of contradiction lies in U.S. relations with 
Africa's oil-rich nations. The U.S. Government is frank about the 
importance it assigns to oil supplies, and particularly to the need to 
diversify toward sources outside the Middle East. The Gulf of Guinea is 
a critically important alternative source from where the United States 
intends to source some 25 percent of its petroleum needs by 2020. That 
imperative has acquired a sharper edge, in the light of China's intense 
interest in the same zone for the same reason.
    For illustration, we can examine further the case of Equatorial 
Guinea. This state has long been associated with some of the worst 
governance abuses in Africa, so notorious that the United States had 
cause in the 1990s to close its Embassy there. A Senate enquiry in 2004 
into the role of Riggs Bank in providing financial services to EG's 
ruling Obiang family revealed graft of striking proportions. To confirm 
that this continued to be the pattern we might note that only this 
year, news has emerged of the President's son purchasing a Malibu 
mansion for $35m; there can be little doubt that the national treasury 
was the ultimate source of the funds. The State Department's Country 
Reports on Human Rights Practices complains that the government of 
President Obiang has both committed and condoned serious abuses, 
including: ``Abridgement of citizens' right to change their government; 
torture, beating, and other physical abuse of prisoners and detainees 
by security forces; harsh and life-threatening prison conditions; 
impunity; arbitrary arrest, detention, and incommunicado detention; 
harassment and deportation of foreign residents; judicial corruption 
and lack of due process; restrictions on the right to privacy; severe 
restrictions on freedom of speech and of the press restrictions on the 
right of assembly, association, and movement; government corruption; 
violence and discrimination against women, trafficking in persons; 
discrimination against ethnic minorities; restrictions on labor rights 
and child labor; and forced child labor.''
    Yet despite all this, in the same year that these abuses were 
recorded, Secretary of State Condoleeza Rice posed for photographers 
with President Obiang in Washington telling him on April 12, 2006, 
``You are a good friend and we welcome you.'' In response he told her: 
``We have extremely good relations with the United States. Our country 
has had good relations with the United States for a very long time and 
my visit here is simply in order to consolidate and also to establish 
further ties of cooperation with your country.'' Why should the 
Government of the United States which has so strongly proclaimed its 
commitment to democracy and human rights, seek to do business with 
Equatorial Guinea? The obvious answer is oil; but for many, it is 
difficult to square stated U.S. policy and the pragmatic imperative.
    In the case of Nigeria, too, the United States appears keen not to 
alienate that country's rulers. Reviewing the U.S. position on the 
just-ended two terms of President Olusegun Obasanjo, particularly the 
clear departures from democratic standards that accelerated toward the 
end of his term, one is unavoidably led to the conclusion that 
Washington either pulled its punches or failed to deliver them at all.
    Perhaps this might have been excused in the first term. There was 
an international perception at the time of the 1999 election that 
deficits in that poll were acceptable if a successful transition away 
from military rule was accomplished. President Obasanjo benefited from 
enormous confidence expressed by the U.S. Government in that endeavor. 
But after serious malpractice in the 2003 election, the administration 
failed to issue any trenchant condemnation despite multiple critical 
reports from international observers and Nigerian civil society 
monitors. This year, months before the 2007 vote approached there was 
clear evidence of intent to rig the outcome, yet no strong warnings 
were issued in Washington. At the poll itself, monitors saw an exercise 
of such manipulation, conducted with such impunity, that they could 
barely bring themselves to call it an election. Only mild criticism 
followed from Washington, and come the inauguration of the newly 
(s)elected President Yar'Adua, Assistant Secretary of State for African 
Affairs Jendayi Frazer traveled to Abuja to attend. Days later, 
President Yar'Adua flew to Germany as a guest of the G-8 before the ink 
was dry on the falsified returns.
    The cynicism in Nigeria about the election outcome was already so 
deep, not much could have made it worse. There is, of course, 
acknowledgement of the huge importance to the United States of 
maintaining good relations with its most important ally and oil 
supplier in the Gulf of Guinea but nothing has been said by Washington 
that clearly locates the blame for what happened and the U.S.'s stated 
commitment to democracy in Nigeria is seriously undermined. Although 
the State Department has promised to engage vigorously with the 
Nigerian Government to help it improve its elections in the future, the 
record of the past undermines the credibility of such pledges. The rush 
to consolidate relations with the new regime represents a lost 
opportunity that could have been used to get commitment on remedial 
work and a ``to do list'' that could have gone some way to restoring 
confidence. It is not too late for the U.S. Government to make a more 
trenchant critique than it has thus far made of the deficits of recent 
election in Nigeria and to propose a more thorough-going program of 
political and electoral reform, both nationally and in the oil-
producing Delta, than so far elaborated.
           how the united states can strengthen its approach
    So how should the U.S. Government respond to democratic reversals 
and autocratic repression in Africa? The practically minded will assert 
the U.S. Government has no choice but to be pragmatic. Up to a point 
this is true but the law of diminishing returns seems to be in force. 
The more loudly the USG proclaims its commitment to democracy and human 
rights, the more potential there is for damage if its subsequent 
actions and alliances contradict the stated policy.
    Perhaps, too, it is worth asking whether the United States is 
defining its interests appropriately. It may be understandable that 
concern to guarantee oil supplies or seize a security opportunity leads 
the USG to prioritize the short-term advantage and there is doubtless a 
reasonable chance that some of the advantage gained can be converted to 
longer term assets. However the tradeoffs, as described above, can set 
back the cause of democracy in these countries and lower U.S. 
credibility and leverage elsewhere; in the long run, and this may prove 
to be the more significant loss.
    The recommendations below are made with a view to reestablishing 
credibility and confidence in a consistent message of commitment from 
the United States to building African democracy
At home
    (a) Define U.S. interests over the long term. There is strong 
evidence to suggest there would be greater advantage for the United 
States in taking a long view in its Africa relations. The problem of 
making African political economies more functional, more efficient, and 
more stable is essentially a challenge of governance. In their book, 
``The Democracy Advantage,'' Morton Halperin, Joseph Siegel, and 
Michael Weinstein demonstrate that democratic or quasi-democratic 
systems function better across a range of indicators than autocracies 
and authoritarian governments. The more effective political or service 
institutions and business and financial systems, and the freer the 
press, the more balanced and sustained a country's economic growth will 
be; and the less vulnerable the state will be to hijack by sectional 
interests who may well be opposed to the United States and its goals.
    Conversely, systems that allow or indeed rely on wholesale 
corruption, and opaque administration, ethnic or other exclusion, 
censorship and restrictions on fundamental freedoms, are inherently 
unstable systems that may at worst encourage armed rebellion and civil 
conflict, but at best, hemorrhage funds that are needed for development 
and generate politicians that have too little connection with, or 
commitment to, the electorate. Hoping such states will turn into 
democracies is in vain, whatever rhetoric emanates from their capitals.
    These are not articles of faith but demonstrable facts, underpinned 
by solid data. While many factors need to be in alignment for forward 
progress to be achieved, the longer a country is on the right track, 
the less likely it is, the research shows, to slide back. The United 
States and other foreign governments that, in their own interest as 
much as anyone else's, wish to see African countries develop along the 
democratic path need to commit to a long-term process. Repeated changes 
of direction according to short-term imperatives and shifting alliances 
will not advance the cause.
    (b) Adopt policies that will help the United States to rebuild 
political capital and standing in Africa. There is thus an urgent need 
for Washington to get behind some clear and principled positions in at 
least some key problem areas in Africa and stick to them. This also 
implies working more openly through multilateral institutions and 
frameworks so as to be seen to be upholding those positions, rather 
than risking the perception that principles are being traded 
bilaterally behind closed doors for mutual advantage.
    The United States has suffered a serious loss of political capital 
in recent years, partly because prodemocracy rhetoric is so often 
undermined by other perceived imperatives. The gap between what 
Washington says and what it does has widened, indicating to the least 
democratically minded that principles can be bargained away. The 
related loss of goodwill and convening power is serious, particularly 
since it comes as new powers such as China and India are rising, 
offering weak African states alternative alliances.
    This need not mean inevitable loss of leverage. The United States 
remains the most powerful nation, and most African states will wish to 
maintain good relations even on tougher terms than are currently being 
applied. Only in this way will the United States regain the respect and 
convening power it used to have; and nowhere is this truer than in 
relation to the oil-rich states of the continent.
    (c) Address perceived policy incoherence at home. Diverse 
objectives being pursued by a mix of Washington agencies present a 
contradictory picture in Africa. The most obvious example is that of 
Somalia where it can be difficult to tell whether the United States is 
trying to stabilize the country or pursue a low-level war.
    There is also a need for greater clarity about whether military or 
civilian objectives are defining U.S. policy in particular settings, 
and whether the appropriate agency is in the driving seat. Unease about 
this issue was aired in Senator Lugar's report last December to the 
Committee on Foreign Relations on ``Embassies as Command Posts in the 
Anti-Terror Campaign.'' He noted the apparent expansion in the mission 
of DOD activities in line with increased funding and expanding volumes 
of foreign assistance delivered by the military; he cited other 
countries' concern, revealed in SFRC staff research, about a possible 
militarization of U.S. engagement in their countries thanks to the 
``War on Terror'' and warned that this could be damaging to the United 
States interests and reputation. I believe this danger exists in Africa 
where civil society groups I have spoken with express anxiety about the 
possibility of a greater U.S. military focus on Africa, particularly 
given the advent of the Africa Command.
In Africa
    (d) Where a crisis of governance is evident, admit it and uphold 
consistent standards. There is a need for Washington to speak out more 
firmly on poor practice wherever it is found, and to be more frank even 
when its allies are under the spotlight. Equatorial Guinea's failure to 
address its people's poverty and respect their human rights is 
deplorable. Repression and immiseration in Zimbabwe are similarly 
deplorable. Yet, to judge from U.S. public utterances in relation to 
the two countries, EG's transgression pales into insignificance 
compared with Zimbabwe's. The reality is that the Obiang regime, with 
its unconvincing election victories, massive diversion of public funds 
for planes, luxury cars and mansions in fashionable locations, and a 
horrific record on torture and political repression deserves to be 
excoriated by Washington yet its President is soothed with flattery 
while the language used about President Mugabe is exceptionally harsh.
    Not only does this undermine U.S. credibility with African 
observers, but other major oil-producing states such as Angola, Gabon, 
and the Republic of Congo take note of the contrast and gain confidence 
that their own malpractice will be similarly swept under the carpet. In 
Nigeria, the pattern of progressively worsening impunity in the three 
past elections suggests that a failure to make clear critiques and 
demand genuine improvement effectively encourages worsening practice. 
If the avoidance of criticism is intended to protect U.S. access to 
Nigerian oil, the evidence does not seem to suggest it is working; as 
graft and poor governance inflame protest and rebel violence in the 
Delta, with the attendant damage to production (down over a fifth in 
2006), the opposite effect may result.
    (e) Incentivise change and commitment toward democratic policies. 
USG aid should seek to reinforce and strengthen indigenous efforts to 
fix problems, rather than impose externally originated solutions. Where 
foreign aid is offered as a carrot, or withheld as a stick, the 
objective should clearly relate to the recipient's own interests rather 
than Washington's.
    In nonemergency contexts, the United States should strengthen 
programs like the Africa Growth and Opportunity Act (AGOA) and the 
Millennium Challenge Account (MCA) that offer incentives and rewards 
for those countries that want to free up their economies and political 
environments. The MCA program should be expanded rather than having to 
struggle for funds. This kind of assistance rewards success and ensures 
that countries that do the hard work to improve their systems can see 
the benefits. In line with the MCA approach, the United States could 
invest in helping to make the AU's peer review mechanism work well, 
with a view to making it the eventual basis on which eligibility for 
aid is decided. This is the approach that is taken in the EU strategy 
for Africa adopted in December 2005 and the European Commission's 
August 2006 Communication on Governance in the European Consensus on 
Development. The policy documents propose a shift from 
``conditionality'' to ``ownership'' with regard to governance such that 
the EU decides to work with countries that seek to implement their own 
reforms and meet their own high standards rather than those imposed 
from outside.
    In situations where stabilization assistance is appropriate, the 
United States should restrict any conditionality to requiring the 
recipient's policies to align with good governance principles and 
approaches. Aid, or denial of aid should not be used as a lever to 
persuade recipient governments to align or comply with the U.S. 
security or other objectives (as with ``Article 98'' case when U.S. 
military aid was made conditional on governments agreeing not to 
extradite U.S. soldiers to the International Criminal Court. Long 
lasting negative feeling toward the United States was generated by this 
measure, both among those governments that signed and those who 
declined to do so).
    (f) Support African regional institutions to play a positive role. 
The African Union is an organization with a mandate to advance good 
governance and political stability and promises that its members will 
intervene to ensure that not only they but their neighbors comply. The 
AU and the subregional organizations such as ECOWAS, SADC, and others 
are crucial to making progress on governance and development. While 
they do not always go as far as the United States would like, or act 
with conviction, and while capacity is not as skilled or bold as 
necessary, much has been and is being achieved. Institutions are taking 
decisions that break new ground in Africa and particularly help to set 
standards and norms for democracy and human rights. While the United 
States has done well to appoint an Ambassador to the AU it should put 
increasing effort into supporting and building Pan-African institutions 
to play a stronger role vis-a-vis national entities.
    One obvious target is the African Peer Review Mechanism (APRM) in 
which African governments subject themselves to self-examination by 
their own teams and by bodies outside government, across a range of 
fronts. OSI's African Governance Monitoring and Advocacy Project 
(AfriMAP), a program that among other things seeks to track the 
effectiveness of the APRM, has concluded that this program is, despite 
some setbacks, a serious effort by African leaders to improve 
governance on the continent and that peer review has not turned out to 
be the paper exercise that some anticipated. The APRM is seen by 
African leaders as an indigenous program, not one imposed by the World 
Bank or other donors. It urgently requires more staff and more 
engagement from outside donors. Assistance of this nature clearly 
avoids suspicion of political manipulation.
       challenges for states in transition: the case of zimbabwe
    The commentary above has sought to frame a set of opportunities and 
challenges for overall democratization in Africa. I believe it is 
similarly important the United States adopts broad principles in 
support of countries exiting from crisis, conflict or a period of 
regression and entering transitions critical to the implantation of 
democracy.
    The most significant transition currently unfolding is that of the 
Democratic Republic of the Congo whose transition program is proving 
long and slow but has registered real progress. Even though the 
election is over and a newly elected government is in charge, it is 
critical that the United States and all other international partners 
continue to collaborate in a multilateral framework with the insistence 
that the Kabila government allows space for the opposition and is 
serious about restoring security. In this context, making assistance 
conditional on compliance is reasonable; the huge international 
investment made to help the DRC get onto a healthy path to development 
in an open society should not be put at risk because of a reluctance to 
dictate from outside. Sovereignty is important and must be respected 
but a country in transition, with institutions that are not robust, 
often fails to fulfill its responsibilities. Aid should not flow where 
the new incumbent seems intent on reversing such hard-won gains in 
favor of consolidating his power; international donors should not 
abandon their multilateral approach and revert to bilateral negotiation 
since this will doom attempts to apply pressure.
    Perhaps the challenge that should most concern policymakers, 
however, is the crisis in Zimbabwe. Formally, elections are due for 
March 2008 and a mediation effort led by South African President Thabo 
Mbeki, mandated by the regional body, the Southern African Development 
Community (SADC) is supposed to persuade President Mugabe and his ZANU-
PF party and the opposition in the form of the two factions of the 
Movement for Democratic Change to agree on the terms of a political 
contest that puts the country on a new path. However even as the 
mediation effort continues to apparently little effect, the Mugabe 
government is attempting to rewrite the political landscape with 
legislation aimed at expanding the number of parliamentary seats and 
changing electoral rules. A campaign of arbitrary arrest and torture 
has been waged against MDC leaders and civil society cadres making it 
difficult for the party to respond effectively to the mediation 
process. All this against a backdrop of the economy's accelerating 
downward spiral, featuring serious food and fuel shortages, which the 
government addresses by printing more money and launching predatory 
attacks on the private sector. The speed of deterioration is leading 
even cautious observers to speculate that the Mugabe regime is unlikely 
to survive another year.
    However and at whatever stage the political economy unravels, those 
hoping to arrest the crisis are seeking to achieve a number of 
objectives:

  <bullet> Achieve a smooth departure from power of Robert Mugabe and 
        his replacement with a team and administration motivated to 
        restore order and with the authority and ability to stabilize 
        the political environment. A transfer of authority is widely 
        assumed to be possible through the election scheduled for March 
        2008 but this imposes a deadline that might not provide 
        sufficient time for a thoroughgoing transition to be achieved.
  <bullet> Negotiation of an agreement with international donors of a 
        financial package that can fund overall economic stabilization, 
        end hyperinflation and restore bank and investor confidence 
        this will allow for service delivery to be restored and get 
        basic consumer goods and fuel back into circulation.
  <bullet> Depoliticisation and reprofessionalisation of the security 
        forces, the judicial system and parastatals controlling key 
        services in the economy; demobilization of militias and hit 
        squads responsible for terrorizing civilians.
  <bullet> Repeal of the repressive laws that make free political 
        association and open contestation impossible; inauguration as 
        soon as practicable of a new constitution providing a level 
        playing field.
  <bullet> Attract the return of Zimbabweans, particularly middle-class 
        professionals, who have fled to other parts of Africa and 
        further afield to staff the recovery.

    President Mugabe's successful playing of the race card throughout 
his desperate campaign to remain in power has made international 
engagement more complicated and highly contested. Even neighboring 
Southern African governments suffering negative impact from the chaos, 
particularly in being forced to host millions of refugees, are 
reluctant to be critical for fear they become identified as puppets of 
``Western imperialists.'' Unfortunately, the deionization of the United 
Kingdom and United States from Harare has found fertile ground in a 
broader international antagonism toward the United States in relation 
to the war in Iraq and regime change. This in turn must affect U.S. 
leverage.
    So how can the United States make an effective contribution to 
ensuring Zimbabwe's transition back to economic and political stability 
in a democratic system?
    No nation that wishes to speak up in defense of human rights should 
be intimidated from doing so; in that regard, arguing the United 
Kingdom and United States, as primary butts of Mugabe's rhetoric, 
should lie low cannot be right. Zimbabwean civil society organizations 
have repeatedly made the point that outgoing U.S. Ambassador 
Christopher Dell's leadership and insistence on bearing witness to 
security forces action has probably saved the lives of some opposition 
individuals. However Mugabe's use of divisive ideology to confuse 
discussion on the Zimbabwe crisis calls for a sophisticated strategy 
that, while it may include some trenchant criticism, also implies work 
behind the scenes to undermine the racial and sectarian messaging that 
has effectively extended Mugabe's political life.
    The United States, working with other international donors, 
supplies food aid and also support and training for civil society 
groups and opposition voices seeking to improve governance.
    The message from groups on the ground is that they wish the latter 
support to continue, or indeed increase. Civil society organizations 
have played a major role in guarding the little space for assertion of 
democratic values that remains in Zimbabwe today. They are now under 
siege. Capacity has diminished with many young activists leaving the 
country due to practical considerations of survival.
    Even if Washington has been disappointed by the weak progress of 
the SADC initiative to date, there needs to be recognition that the 
United States has few interests and therefore limited leverage over 
Zimbabwe and the wider region. For that reason, there are few 
alternative frameworks through which to work and it is important to 
keep up diplomatic efforts to engage the SADC governments, African 
governments elsewhere on the continent and the African Union Commission 
on the Zimbabwe issue.
    One possible scenario is that the mediation effort is preempted by 
economic collapse; in practical terms the government runs out of 
strategies to extract the resources it needs to maintain the political 
patronage and repression that is keeping it in power. The closer we 
come to that situation, the more likely the divisions already evident 
in the ruling elite will widen. While this carries risks it may also 
increase the incentive for reform as hitherto loyal individuals bail 
out.
    The United States should not accede to demands that it lift 
sanctions. Even though they are narrowly targeted and do not affect the 
economy despite the government's claims, they are having an effect on 
morale, as borne out by the loud denunciations. U.S. advocacy in Europe 
to hold the line is also valuable.
    The alternative scenario is that the mediation proceeds to a 
conclusion and its outcomes are applied. In that case, the most 
important contribution the United States can make is to work to ensure 
that those outcomes will genuinely improve the situation, rather than 
perpetuate the current disfunctionality under a new guise.
    One important function for Members of Congress and the European 
Parliament is to monitor the mediation's progress. Civil society groups 
in Zimbabwe fear that the SADC-convened process will lead to a ``quick 
fix'' political solution in which ruling party and opposition 
politicians may be accommodated but nongovernmental voices hoping for 
more thorough-going constitutional reform will be disappointed.
    As the mediation stutters on, there is growing skepticism in the 
region that an election in March 2008 can produce a legitimate result. 
This is partly because there must be serious doubt as to the 
feasibility of mounting a fair electoral contest in so short a time. It 
is also because the ZANU-PF government continues to push through 
legislation rewriting the already manipulated constitution to become 
even more favorable to Mugabe and disenfranchise voters. Any election 
run under the new rules would be illegitimate. Further, the continuing 
use of political violence to demoralize and weaken the opposition and 
breakdown in rule of law provide a context in which a fair election 
would be impossible.
    While it is natural to show respect for the South African-led 
mediation process, the United States can and should express the view 
conditions do not exist for a legitimate voting exercise in 8 months 
time unless under external supervision, whether regional or 
international supervision.
    There is also scope for the United States to lend support to 
efforts already underway in multilateral settings, working with both 
governments and civil society organizations in the global south. 
Engaging countries that cannot be described by African stakeholders as 
imperialist, yet who believe that Africa should be doing more to end 
the crisis is one way forward. In one recent example, a Brazilian NGO 
lobbied members of the Brazilian Parliament to take a stand on the 
issue with the result that ratification of an accord with South Africa 
was delayed in protest at the lack of progress out of the SADC 
mediation.
    The other major contribution that the United States can make at 
this time is to work intensively to support SADC efforts to construct 
an economic rescue package backed by international stakeholders. It is 
important that as wide a group of donors and partners, including 
countries such as China that have provided support to the Government of 
Zimbabwe, are persuaded to come together; such a plan will provide an 
incentive to the political class to abandon the present disastrous 
course and support a return to rule of law. The package will need to be 
broad and tackle diverse problems such as the loss of confidence and 
skills in the agricultural sector, revitalizing employment (some 80 
percent of Zimbabweans are without jobs), stabilizing the currency and 
attracting investment (and discouraging asset stripping). International 
donors should allow SADC to manage eventual delivery of the package; 
but it is reasonable to make supply of the funds conditional on the 
terms and goals of the plan being met.
    At OSI and in our African foundations we continue to believe, in 
common with our civil society partners, that there can be no stable and 
robust future for Zimbabwe without a new constitution and a thorough 
overhaul of the country's key institutions and those who manage them. 
The process and sequencing by which this can be achieved, given the 
actors involved, remains obscure. Some regional governments and 
external players may hope to get away with a more superficial 
transition, but this runs the risk of entrenching injustices and 
mismanagement that may undermine the recovery and do lasting damage to 
the people's belief in their nation. We will continue to work for a 
genuine transformation--not a mere transition--for Zimbabwe.
                               conclusion
    We can take satisfaction in knowing that crisis of the proportions 
seen in Zimbabwe is relatively rare on the continent today and where it 
exists is strongly associated with armed conflict, rather than merely 
poor or repressive governance. Reviewing the past 20 years in Africa it 
is clear that there has been considerable progress and that there is 
far better human and institutional capacity in Africa to address 
challenges than in the past.
    Africa faces a chicken and egg problem; the obstacles to greater 
democracy and human rights lie in the lack of development--and vice 
versa. This conundrum has spawned much argument about whether forward 
progress most depends on improving governance or injecting resources--
aid or investment--into the mix. Yet it is precisely the multifaceted 
nature of Africa's problems and the need to achieve forward motion on 
several fronts simultaneously that constitutes the greatest challenge. 
If the U.S. Government can design its policy with that in mind and 
recognize the only sure way to secure democracy is to invest in its 
long-term development, U.S. interests in the region will be protected.

    Senator Feingold. Thank you, Ms. Amosu. I'd certainly agree 
with Ambassador Lyman's general comments about the many 
positive things that have happened in Africa but on this one, I 
am so pleased that you devoted your time to Zimbabwe.
    I visited there in December 1999. I had a terrible meeting 
with President Mugabe, which was a sign of things to come, but 
we also met with a civil society group, which was one of the 
finest group of people I've ever met with, and I often think 
about the pressure and brutality that has been foisted upon 
these people in these past 8 years. This is a real disaster.
    Now, I believe that this country is going to come out of 
this, but it must be one of our highest priorities.
    Mr. Peterson.

 STATEMENT OF DAVE PETERSON, SENIOR DIRECTOR, AFRICA PROGRAM, 
        NATIONAL ENDOWMENT FOR DEMOCRACY, WASHINGTON, DC

    Mr. Peterson. Thank you, Senator Feingold. It's really an 
honor to be able to testify here this morning. I want to echo, 
first off, Ambassador Lyman's comment that I think the general 
trend in Africa is positive. I recently came back from a tour 
of West Africa and saw Liberia and Ghana, even in countries 
like Togo, there is real democratic progress and I think we 
can't forget that.
    However, on that same tour, I did travel to Nigeria where I 
monitored the elections with the NDI team and as all of the 
observer missions have said, those elections were a shamble. I 
think it's important to remember that for most of my Nigerian 
friends anyway, it was not a surprise. They have lived in this 
country and have seen the way the politicians work. They know 
the corruption, the problem with oil and I think that it is 
possible to find some silver lining there, as has been noted. 
The independence of the judiciary, the independence of their 
legislature there, the dynamic civil society that continues to 
gain strength. All is not lost in Nigeria and I think that if 
you're talking about whether democracy is moving forward or 
backward, I think Nigeria is, in fact, moving forward but 
certainly not fast enough.
    When we come to Ethiopia, which is the other country I was 
asked to discuss, I think we do have a situation where they are 
slipping backward. The Endowment has had a very difficult time 
finding civil society partners to support there. One 
organization that we supported for many, many years, the 
Ethiopian Human Rights Council, has been decimated by the 
recent repression. The president of that organization, Mesfin 
Wolde Mariam, is one of those who was sentenced to life in 
prison and I think that although we understand the American 
strategic interest in Ethiopia that there does need to be a 
more forceful statement of American interests in the human 
rights situation in that country.
    Finally, I was also asked to talk about Zimbabwe and 
ironically, although the Government of Zimbabwe has much worse 
relations with the United States than Ethiopia does, the 
Endowment has actually been able to build a successful program 
in support of civil society there, including to the media, 
political parties, and the trade unions.
    There have been some very difficult challenges, such as the 
legal restrictions against NGOs and the monumental inflation 
there but I think another issue, in fact, that I was asked to 
address, is the question of the conflict between democracy 
assistance and national sovereignty. I think this is 
particularly relevant in the case of Zimbabwe. It is not the 
Endowment's mission to promote regime change. As distasteful as 
governments such as ZANU-PF and Robert Mugabe may be to some, 
our program is committed to democratic reform, no matter who is 
in power, nor is the Endowment exporting some secret 
imperialist American agenda, as is sometimes alleged. NED is 
strictly committed to peaceful, open and transparent methods of 
political engagement. We are guided by our partners on the 
ground.
    Every one of our grants, including the recipient and the 
amount of funding can be found in our annual report and on our 
Web site.
    Another key aspect of the Endowment's program in countries 
such as Zimbabwe is our independence. For example, through the 
American Center for International Labor Solidarity, we've been 
able to support the Zimbabwe Congress of Trade Unions, which is 
arguably the most important civil society institution in 
Zimbabwe. And yet, the ZCTU has been very careful to remain 
nonpartisan and has avoided direct assistance from the U.S. 
Government.
    The Endowment has a number of--about a dozen other partners 
in Zimbabwe, such as--I don't if it's one of them that you may 
have met when you were there, the Zimbabwe Electoral Support 
Network, the Zimbabwe Lawyers for Human Rights, the Media 
Institute, which I think OSI also supports, the Crisis 
Coalition and many others. They appreciate our willingness to 
support them with their vital core costs. It's the salaries, 
rent, equipment, which allow them to continue despite the 
hardship.
    These groups have monitored the elections, monitored human 
rights abuses, advocated for constitutional reform and press 
freedom and kept the hope for democracy in Zimbabwe alive.
    Compared to the other three countries, I would say that 
perhaps Zimbabwe has reached the low point of its democratic 
development but I would also echo the statement of Ambassador 
Dell, things will change soon. The Zimbabwe Government has 
complained about American inference in their country's 
political affairs, has passed legislation intended to restrict 
the activities of human rights and democracy organizations, has 
beaten up and imprisoned activists, has effectively prevented 
the operations of NDI and IRI in Zimbabwe and has steadily 
decreased the political space of Zimbabwean citizens.
    Yet, the Endowment has demonstrated it is welcome in the 
country, that civil society activists are still doing 
courageous work against the odds and that they deserve and need 
our support.
    Once again, I thank you for this opportunity to testify and 
I'm happy to answer questions.
    [Prepared Statement of Mr. Peterson follows:]

 Prepared Statement of Dave Peterson, Senior Director, Africa Program, 
            National Endowment for Democracy, Washington, DC

    It is a great honor for me to testify this morning before the 
Senate Committee on Foreign Relations Subcommittee on African Affairs 
concerning the topic of Democratic Development in Africa. In the long 
and medium term I can state unequivocally that Africa's democratic 
development continues to move forward. When I began work at the NED 
almost 20 years ago there were just a handful of small countries that 
could lay some claim to being democratic: Botswana, Gambia, Senegal, 
Mauritius, and ironically, Sudan. These were all essentially liberal, 
one-party dominant regimes, with the exception of Sudan, which then had 
a multiparty system struggling to end a civil war. But since the 
Republic of Benin's historic sovereign national conference in 1990, the 
continent has been transformed. All of Southern Africa with the 
exception of Zimbabwe; and most of West Africa, with just a few 
exceptions, now enjoys democratic, if often imperfect, government. In 
Central Africa, the Democratic Republic of Congo achieved its first 
democratic elections last year; and in East Africa, Kenya and Tanzania 
may now be considered full-fledged democracies. Even in those African 
countries that remain dictatorships or semiauthoritarian regimes, most 
have much greater pluralism, press freedom, opposition political 
activity, and respect for human rights than was the case just two 
decades ago. And I am confident the trend will continue.
    But in the short term there have been some disappointments 
recently, and throughout the continent, democratic development must be 
considered a work in progress. It was suggested that I focus my 
comments this morning on three country case studies, Nigeria, Zimbabwe, 
and Ethiopia, with particular emphasis on the role of civil society and 
the media in the runup to national elections and their immediate 
aftermath, as well as the more general contribution of these 
organizations and key individuals in advancing governance and democracy 
objectives. It was suggested that I provide a brief analysis of how NED 
and other U.S. Government implementing organizations seek to support 
and empower local civil society and what lessons could be drawn from 
our experience. Last year, with a budget of some $7 million, NED made 
grants to more than 200 African civil society organizations, many of 
which are at the forefront of the democracy movement in their 
respective countries. I was also asked to highlight the problem of the 
conflict between democracy assistance and national sovereignty. This 
has long been an issue with which NED and our partners have had to 
contend.
    A few months ago, I did a quick tour of West Africa, assessing the 
democratic progress that has been made and the role of our civil 
society partners. After years of devastating civil war, I can report 
that Sierra Leone and Liberia have both made tremendous strides, and 
despite the challenges of weak governance and continuing economic 
hardship, both countries are at peace, and their citizens are enjoying 
open and democratic government. I'm proud to say that NED's partners in 
the human rights movement and the media, such as the National 
Accountability Group and the Center for Democracy and Human Rights in 
Sierra Leone and the Press Union, National Youth Movement for 
Transparent Elections, and Foundation for Human Rights and Democracy in 
Liberia, as well as more than 20 other indigenous partners have made 
important contributions to the popular awareness and respect for 
democracy and human rights in these two countries in the runup and 
aftermath of elections.
    I stopped off in Ghana, which has made remarkable political, as 
well as economic, progress in recent years. Working with local partners 
such as the Institute for Economic Affairs, NED's Center for 
International Private Enterprise has made a tangible difference in 
improving governance in Ghana, and I would also commend the assistance 
IFES provided there in helping to build a model electoral system. I 
strongly endorse Ghana's being awarded by the Millenium Challenge Fund. 
In addition, when I was in the region, I heard about Mauritania's first 
successful democratic elections, which received critical assistance 
from NDI; and I learned about the potential breakthrough parliamentary 
elections soon to be held in Togo, where NED is supporting a handful of 
domestic observer groups. Benin, Mali, and Senegal recently held free 
elections, and I would consider them robust democracies. Even in 
troubled Cote d'Ivoire and Guinea, one can find cause for optimism. NED 
partners are making real headway in these countries. In fact, I was 
beginning to feel as if all of West Africa had become a democratic 
bastion.
    Then I arrived in Nigeria, where I observed the Lagos state 
elections with one of NED's domestic partners, the Transition 
Monitoring Group, and the national elections with the NDI team. I had 
observed the 1999 and 2003 elections, which left a lot to be desired, 
but these were by far the worst yet. Despite the heroic efforts of 
Nigerian civil society, including more than 30 nongovernmental 
organizations supported by NED, despite the millions of dollars 
contributed by the United States and other international donors, 
despite all of Nigeria's oil wealth that was invested into the effort, 
despite the country's enormous human resources and talent, despite all 
the warnings and studies and diplomatic demarches, despite the clear 
desire of Nigerian voters to participate--we saw massive 
disorganization and incompetence, blatant corruption and rigging, 
state-sanctioned repression and violence, chaos, and in the end, a huge 
blow to the democratic aspirations of Nigerian citizens. All the 
domestic and international reports were unanimous: The elections were a 
shambles. In response to all the criticism, the Nigerian Electoral 
Commissioner, Maurice Iwu, simply denounced the observers as 
``conspirators, they do not mean well for us''; and insisted that the 
elections were fine. The new government of Umaru Musa Yar'Adua was 
installed, at least, and as usual, Nigeria seems to be muddling 
through.
    Why, after all the impressive progress in most of the rest of West 
Africa, did Nigeria, with all its assets and advantages, fail? A 
consortium of Washington-based think tanks held an excellent series of 
events before and after the Nigerian elections that have sought to 
address this question. I would also recommend an article that will 
appear in the forthcoming issue of NED's Journal of Democracy by Rotimi 
Suberu that provides a more thorough analysis of the problem than I can 
do justice to in the few minutes I have this morning. Nigerian oil, and 
its corrupting influence in the country, was certainly a significant 
contributing factor. Few of my Nigerian friends were particularly 
surprised by the elections; they had been predicting the outcome for 
some time. They knew the personalities, the inadequacy of preparations, 
the competing interests, the way things work in Nigeria. Obviously, 
there are limitations to the impact that international assistance can 
have, and perhaps the bigger the country, the more limited the impact. 
Yet, like my Nigerian friends, I can also recognize the progress that 
is still being made, such as the greater independence of both the 
judiciary and the legislature, the growing awareness among the 
grassroots, and the increasing capacity of civil society and the media. 
NED has been supporting indigenous human rights, democracy, and media 
organizations in Nigeria for almost 20 years, and especially during the 
dictatorship of Sani Abacha, the repression was intense, many of our 
partners were in jail, and the situation seemed pretty hopeless to many 
on the outside. Today, very few Nigerians want a return to military 
dictatorship, and almost everyone appreciates the greater political 
space the country now enjoys. So, in the case of Nigeria at least, one 
might even say that the country is not necessarily moving backward; it 
is just moving forward much more slowly than it should be.
    Ethiopia is another story. Democratic development there has 
definitely slipped backward. Less than 2 years ago, the country seemed 
to be on the verge of a democratic breakthrough, when opposition 
political parties made dramatic gains in national elections. But in the 
runup to the elections, as I testified before the House Africa 
Subcommittee at the time, both of NED's sister institutes, NDI and IRI, 
were expelled from the country. Afterward, when opposition protests 
became threatening to the government, a brutal crackdown ensued. NED 
has supported the Ethiopian Human Rights Council since 1994, and due to 
its human rights monitoring and advocacy, the group has intermittently 
been harassed, including having its bank account frozen. But in the 
wake of the current crackdown, most of the leadership is either in 
prison or exile, and its operations have been largely stifled, despite 
our best efforts to help them. Few other civil society organizations or 
media have been able to find much space to work with in Ethiopia, and 
as a result, although the country remains a priority target for NED, we 
have found it difficult to find much to support.
    The Ethiopian Government has emerged as a strategic partner of the 
United States, but I would urge greater attention to the domestic 
political environment. Too often in Africa, our relationships have been 
based on the personalities of individual leaders, rather than the 
nations they govern. It is the Endowment's special role to promote 
democracy around the world, cultivating the respect and goodwill of 
Africans as something that is in the long-term interests of the United 
States, rather than being concerned only with maintaining friendly 
relations with the regime of the day. The Ethiopian political 
environment is extremely complex, and I would not be so presumptuous as 
to claim that NED has all the answers to the problem of democratic 
development there, but I do believe that in the last elections the 
great majority of Ethiopians expressed their desire for greater 
freedom, and that resistance to this sentiment would be unwise.
    In the case of Zimbabwe, a government which has much worse 
relations with the United States than Ethiopia, NED has been much more 
successful in building a strong and vital program of support to civil 
society, including the media, political parties, and trade unions. But 
there have also been difficult challenges, such as legal restrictions 
on NGOs and Zimbabwe's incredible inflation. In addition, the question 
of national sovereignty is perhaps most acute here. NED has long 
resisted any notion that it is involved in ``regime change.'' As 
distasteful as governments such as that of ZANU-PF and Robert Mugabe 
may be to some, our program is committed to democratic reform, no 
matter who is in power. NED is also strictly committed to peaceful, 
open and transparent methods of political engagement. Every one of our 
grants, including each recipient and the funding amounts, can be found 
in our annual report and on-line. Another key aspect of the Endowment 
is our independence. Thus, through the American Center for 
International Labor Solidarity, NED is assisting the Zimbabwe Congress 
of Trade Unions, arguably the leading institution of civil society in 
Zimbabwe. Yet the ZCTU has been careful to remain nonpartisan, and has 
also avoided direct assistance from the U.S. Government.
    NED's local grantees, such as the Zimbabwe Electoral Support 
Network, the Zimbabwe Lawyers for Human Rights, the Media Institute, 
and the Crisis Coalition, among others, also appreciate our willingness 
to support vital core costs, such as salaries, rent, and equipment, 
which allow groups to survive despite severe hardship, and enable them 
greater freedom to identify other sources of funding and support. These 
groups have been able to continue to monitor elections and human rights 
abuses, advocate for constitutional reform and press freedom, and keep 
the hope for democracy in Zimbabwe alive. Perhaps Zimbabwe has reached 
the low point of its democratic development, but I would echo the 
opinion of the recently departed American Ambassador, Christopher Dell, 
``things will change soon.'' The Zimbabwean Government has complained 
about American interference in the country's political affairs, has 
passed legislation intended to restrict the activities of human rights 
and democracy organizations, has beaten up and imprisoned activists, 
has effectively prevented the operations of NDI and IRI within 
Zimbabwe, and has steadily decreased the political space of Zimbabwean 
citizens. Yet NED has demonstrated that it is still possible to operate 
in the country, that civil society activists are still doing courageous 
work against the odds, and that they need and deserve our support.

    Senator Feingold. Mr. Peterson, I thank you for your good 
remarks as well and I thank all of the panel members. I have 
limited time--this has been a good hearing--but I'm going to 
ask a few questions.
    Ambassador Lyman, given limited country-specific 
information and presence, what do you believe is the best 
approach to deriving and applying lessons learned for promoting 
governance and democracy in African countries?
    Mr. Lyman. Senator, I think as several people have 
mentioned here, you want to find and work with the African 
individuals, institutions, and organizations that are 
themselves pressing for democracy. There is a lot of civil 
society out there, there are a lot of governments in which 
people are working to improve their own democratic performance. 
There are a lot of ways to lend support to that, with 
expertise, with political backing, with organizing training, 
and organizing conferences in those countries that promote the 
principles and practices of democracy.
    I'll give you an example from Nigeria. About a year before 
the election, there was a major conference on electoral reform 
led by a number of Nigerian groups and in collaboration with 
some American institutions. The conference produced a solid set 
of recommendations for changing and improving the electoral 
system. On the American side, we wanted to follow that up with 
the Nigerian Government, the major political parties, and 
Nigerian civil society. But there was no funding for followup. 
I think had we been able to do so, it would have helped keep up 
the momentum within Nigeria for electoral reform.
    Support for the judiciary is terribly important. I also 
hope we can continue to find ways, because we don't do it as 
much anymore, to improve the operations of a free press. I 
remember an opposition politician in Kenya telling me about the 
investigations of corruption in Kenya. If it weren't for the 
free press, he said, it would not have happened.
    Senator Feingold. Thank you, sir. Ms. Amosu, there are 
reports that elements of the Zimbabwean judiciary remain 
independent. Are those reports accurate? Which elements are 
these and what role could they potentially play in achieving 
democratic reform in that country?
    Ms. Amosu. Well, I think you're looking at something that 
to some extent, varies from person to person. The suggestion 
has been made that the regime has been effective at managing 
elements of the Magistery and has frightened away or driven 
away more senior members of the judiciary out of the country 
and those are the methods by which manipulation has been 
achieved.
    But there certainly are examples of strong judges and 
individuals working the judicial system who have stood up for 
the rule of law and have made sure that individuals who have 
been victims of security follow that action are protected and I 
think it is critical, over the coming months, that both members 
of the judiciary who have been intimidated or have been forced 
not to practice in Zimbabwe are able to return and to fulfill 
their rightful place as judges and senior members of the 
community.
    Senator Feingold. How can the United States and 
international community help empower these elements and 
strengthen other players in the struggle for freedom in 
Zimbabwe?
    Ms. Amosu. I think that it's difficult because the United 
States does not have extensive interests and leverage in that 
region and, therefore, to some extent, must work through 
multilateral institutions and efforts in order to be effective. 
That said, I think there's enormous international consensus on 
the crisis and what's needed to try and make a difference and 
great leverage is provided through the need to assemble a major 
economic package for restabilizing the country. The funds have 
to come from somewhere. The United States certainly is in a 
position to be a leader in pulling those funds together and 
certainly, it would be my view that it is appropriate and 
necessary that there are conditions attached to funds that are 
supplied for this purpose. SADC does need--the Southern African 
Development Community does need to make an effective job of 
this economic restabilization. It's going to cost a lot of 
money and these reports suggest as much as $3 billion are going 
to be needed through whatever mechanism, however the fund is 
put together and it seems to me that there, there is great 
opportunity to set conditions and to negotiate terms for the 
reconstruction of the country.
    Mr. Lyman. Can I----
    Senator Feingold. Yes, sure.
    Mr. Lyman. Can I add a comment on Zimbabwe? You know, I 
think--and I certainly support everything that has just been 
said--but, to be honest, we are not going to get a change in 
the direction of Zimbabwe as long as Robert Mugabe is 
President. He is not going to turn around and become a democrat 
tomorrow or even share power. The question is: At what point do 
his supporters in ZANU who are the real power holders, find a 
way to have him step down? And in that regard, what incentive 
is there for them to do that? Because some of the people who 
are likely to take over are not great shakes either. So what 
incentive is there for them to really change the system. That 
is where I think we have to be going. We have to work with the 
Southern African countries on incentives to the power brokers 
to come to the conclusion, ``OK, this country is really going 
to the dogs. If we take over, it might get worse. What kind of 
change are we prepared to make, politically and economically?'' 
In that context, the incentive packages that we and others put 
together become important. The inventives have to be clear and 
there have to be understandings about what is required from 
Zimbabwe. But the incentives could help move what has to be 
moved. That is, for the power brokers in ZANU to say, ``Mr. 
Mugabe, it's time to step down.''
    Senator Feingold. And I've often thought, in working on 
this for 15 years, the good news and bad news is that the 
United States, in general, was not a colonizing power in 
Africa. Of course, we would not want to have been there but the 
bad aspect of it historically is, as Ms. Amosu suggests, we 
don't have the kind of leverage and relationships in many 
places that other countries do. On the other hand, the positive 
layer, I think, can outweigh it. It's what we do now, 
positively, post-Mugabe, that will determine how the United 
States is seen in that part of the world. Perhaps we'll be 
regarded better, with less suspicion, and as more forward-
looking compared to the focus on protection of long-term 
economic and other interests that the colonial powers have had.
    So I tend to look at it as a glass-half-full kind of 
situation in some of these places and I think it presents 
interesting opportunities for the United States if we could get 
adequately engaged in them.
    With that, I'll ask a final question for both Mr. Albin-
Lackey and Mr. Peterson. It is clear, as you both note, that 
democratic developments in Ethiopia have been backsliding in 
recent years. You've spoken about this at length and I'm 
pleased it has been discussed today. Why do you think this has 
occurred? And what should the United States, particularly given 
our longstanding relationship with the Ethiopian Government, be 
doing to ensure that it doesn't slide any further?
    Mr. Peterson.
    Mr. Peterson. Well, of course, Ethiopia has had a long 
history of authoritarian rule through a series of Emperors and 
a virtual Communist dictatorship and so I think the democratic 
culture there is still very weak and I think a lot needs to be 
done in terms of creating the sort of demand for democracy at 
the grassroots in Ethiopia. I think the United States can 
insist that nongovernmental organizations be allowed to operate 
freely, that political prisoners be released from jail, that 
opposition political parties be allowed to function openly. I 
think, as we've seen in many other African countries, where 
civil society is allowed, the freedom to organize and to work 
with the grassroots that a democratic culture and discourse 
begins to develop.
    It has, I think, always made a big difference. So I think 
that would be one thing that the United States could really 
focus on.
    Senator Feingold. Thank you, sir. Mr. Albin-Lackey, you can 
conclude.
    Mr. Albin-Lackey. I think in some ways, the goal should be 
getting back to a situation something like what was obtained in 
the run up to Ethiopia's elections in 2005. There was no way 
that those elections were going to be anything like free or 
fair in most of the country but in some parts of the country, 
particularly in the capital, the government had allowed a much 
greater degree of political openness than it had in the years 
prior to that. It was clearly open to some sort of 
experimentation with greater political openness and 
unfortunately, the entire thing, as we all know, ended in 
catastrophe with the intractable disagreements between the 
government and the main opposition party about the results of 
those elections.
    But where Ethiopia is today, it's difficult even to think 
about bringing about a situation anything like what any of us 
here would probably like to see. The starting point, I think, 
would be with some very basic steps. Allowing Ethiopian civil 
society groups that have been trapped in a much more confining 
space since the fallout from the elections to operate more 
freely than they can now. Some kind of real government 
commitment to ending military atrocities against civilians in 
the Somali region in particular, and to hold people accountable 
for similar abuses carried out in Gambella and other parts of 
the country, without which any talk of political freedoms is 
really quite meaningless. And in general, simply to insist that 
the Ethiopian Government begin to roll back some of the very 
repressive and hard-handed measures that it has put into place 
in the last few years.
    Senator Feingold. Thank you. I thank all of you. I think 
this hearing covered a lot of ground and I also think that we 
now have a chance to send some fairly strong messages in a few 
places that I really sincerely hope will be more strongly 
reflected through the administration's own communications and 
efforts with regard to each of the countries that we talked 
about.
    Thanks so much and that concludes the hearing.
    [Whereupon, at 11:49 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Prepared Statement of Robert I. Rotberg, Adjunct Professor and 
Director, Program on Intrastate Conflict, Kennedy School of Government, 
        Harvard University and President, World Peace Foundation

    Seven of mainland sub-Saharan Africa's 45 nation-states are widely 
regarded as being success stories. This written testimony summarizes a 
much longer and much more detailed evaluation of those successes. The 
mixed conclusions of this analysis are instructive in understanding the 
dynamics of political and economic achievement in sub-Saharan Africa as 
a whole.
    Africa's seven most successful countries are all growing reasonably 
rapidly. Yet, job creation still lags behind promises and expectations, 
underlining the persistence of serious levels of poverty. Moreover, 
where there is some indigenous wealth, there are also severe income 
inequalities. Several countries will be benefiting from new resource 
finds, and broad improvements in GDP could eventually flow into our 
seven countries from such discoveries. But the exploitation of these 
finds, and other commercial advances, is being deterred in every case 
by serious shortages of electric energy. Every country has outrun its 
available power supplies; several years will pass in each case before 
these shortages can be met. Moreover, nearly all, except Botswana and 
South Africa, have road and rail networks that are inadequate for the 
industrial and agricultural growth on which their economic advances 
depend. Likewise, each country in our sample is being dragged down 
economically by the scourges of tuberculosis, malaria, and HIV/AIDS.
    Good governance is essential for economic growth and the avoidance 
of conflict. Among our set of seven countries--Botswana, South Africa, 
Zambia, Ghana, Tanzania, Mozambique, and Uganda (in order of 2006 
annual GDP per capita)--we show diverse results. There are countries 
that demonstrate steady good governance, lapsed good governance, and 
questionable levels of good governance. Four are well unified, with few 
sectional issues. A few exhibit serious leadership deficiencies. Only 
in Botswana is the bureaucracy thoroughly reliable. On the World Bank's 
Ease of Doing Business rankings, Botswana, South Africa, and Uganda 
rate above the others. Reasonably high levels of corruption persist in 
all but one nation.
    Chinese influence is a new factor in the region, especially in 
Mozambique and Zambia. Chinese investors will be contributing 
significantly to the economic development of both countries, as 
conceivably in Tanzania as well. In Mozambique and Zambia, the way in 
which China operates colonially, extracting and exploiting, has 
elicited major protests. Throughout the region, the flood of 
inexpensive Chinese imports has also undercut domestic industry.
    Botswana has achieved a deep-rooted political culture of genuine 
democracy. It has institutionalized good governance. Politics is 
largely fair and participatory under the country's current leadership. 
Rule of law is observed. These truisms will all be tested, however, 
when Ian Khama becomes national President in early 2008. He has 
authoritarian tendencies that may rile Botswana's much vaunted and much 
deserved reputation for due process and toleration.
    Very poor at birth, Botswana is one of the very few African 
countries that has managed its resource treasures well, and to the 
benefit of the nation. Growing at 5 and 6 percent a year, as it has 
done systematically for almost two decades, Botswana nevertheless still 
has relatively high unemployment rates. It has also tried to diversify 
its economy away from diamonds and other minerals, but with little 
success (except for tourism). By African standards, corruption is 
minimal, held in check by a national framework of accountability and by 
a persuasive national ethos of integrity.
    Although HIV/AIDS is highly prevalent in Botswana, the government 
provides broad social and medical services, and is one of the few 
countries in Africa that has the resources and the will to treat the 
disease medically as well as seek to prevent its spread. Botswana is 
conscious, too, of the need to overcome the sense of stigma that most 
AIDS sufferers experience.
    As deft as South Africa's handling of the threat of inflation has 
been in this century, it has been less successful in terms of job 
creation, small business development, and overall economic growth. It 
is still growing less rapidly than planned and less rapidly than it 
needs to do to empower all of its citizens. Its growth is uneven, too; 
pockets of vast new indigenous wealth exist amid wastelands of 
aspiration and unfulfilled opportunity.
    South Africa has always enjoyed the best infrastructure in Africa--
its ports, airports, and rail and road transport systems are advanced 
by developing world standards. But, because of poor governmental 
investment decisions, South Africa is as short of electric power 
capacity as any of the other six countries discussed in this report. 
Given its level of industrialization and prosperity, to be hampered by 
faltering electricity supply is no testament to good leadership. 
Indeed, within the past 2 weeks, South Africa exceeded all records for 
power usage, bumping up against full capacity. Load-shedding was 
apparent, and sections of Johannesburg lost power for long periods. It 
will be 5 years, if then, before South Africa constructs the new 
capacity that it needs for a growing economy.
    Although South Africa is one of Africa's handful of democracies, 
with a strong rule of law tradition and an independent judiciary, 
President Thabo Mbeki's government frequently seeks to exert executive 
prerogatives over civil society, its parliamentary opponents, the 
media, and--recently--judges. South Africa is much more centralized and 
statist than it was a decade ago. Privatization of state enterprises is 
going forward very slowly and, in some areas, that machinery has ground 
to a halt. Although Mbeki personally championed the new African Union 
and the New Partnership for Africa's Development--NEPAD--the latter's 
much touted peer review mechanism is being distorted and undermined 
within South Africa itself.
    But the components that hinder South Africa's successful emergence 
as an independent, fully free, nation are two: Crime and corruption. 
With one of the highest murder and major assault records anywhere, year 
after year, and with police services that are underpaid, understaffed, 
and inept, it is no wonder that tourists and investors cringe. 
President Mbeki promised this year to do something about crime, but it 
will doubtless be left to his successor to seek serious results in this 
difficult and intractable area.
    If crime reflects poverty and diminished expectations, then 
corruption reflects enhanced expectations and greed. If everyone is 
doing it, underlings see taking advantage of their positions as their 
rightful due. Stanching this drain of public goods is impossible unless 
good leadership exerts itself. In South Africa, as with so many other 
issues of concern, too much that is shoddy has been tolerated, and--
other than the former Deputy President too few individuals have been 
singled out for censure and criminal investigation. Official corruption 
has grown significantly in the last decade, especially during Mbeki's 
Presidency. Its scale is particularly worrisome at the provincial and 
municipal levels, although national parliamentarians and some ministers 
have enriched themselves equally and notoriously.
    Thanks to very high prices for copper, Zambia is growing rapidly. 
Its annual per capita GDP figures trail only Botswana and South Africa 
in this seven-country sample. Chinese investments in mining and in 
other sectors could help cushion the country when commodity prices 
fall, but Zambia has had too little success so far in diversifying its 
economy away from copper and cobalt. It lacks electric power capacity. 
Agriculture and tourism could conceivably contribute more significantly 
to national income in the future; the government is committed to 
spending increased sums on agricultural improvement (and on irrigation 
equipment), but more than half of all Zambians live in cities.
    The current government of President Levy Mwanawasa has largely 
retrieved the political, economic, and social forward momentum that was 
lost in the 1990s under President Frederick Chiluba. But Mwanawasa was 
elected on rural votes and his more populist opponent championed the 
urban poor. This split will continue to hinder nation-building and 
unity. Any dramatic fall in copper prices could imperil Zambia's 
assault on HIV/AIDS, on poverty, on new social services, and on 
employment creation--all necessary achievements if Zambia is to sustain 
its recent income and governance gains and improve its human 
development indicators. Doing more than at present to reduce high 
corruption levels would also strengthen Zambia's attempt to make 
progress.
    Ghana is recovering from about 40 years of bad governance--from the 
Kwame Nkrumah era through the Jerry Rawlings period of strong-man rule. 
Its recovery is proceeding under the sensible leadership of President 
John Kufour. Its GDP growth per year has been averaging close to 6 
percent, and inflation has been reduced substantially. But half of all 
Ghanaians still subsist on less than $1 a day. Ghana's annual per 
capita GDP is a tenth of Botswana's, and when the prices of gold and 
cocoa--the country's chief exports--fall, Kufuor's so far credible 
efforts to achieve national reconciliation and economic advance may 
well falter. Already, persistent shortages of electric power cripple 
the gold mining industry and hinder the opening of new mines.
    Furthermore, Ghana's recovery from previous leadership abuses of 
power is not yet sustainable. Most of the key governance indicators are 
now trending upward, although corrosive corruption has not been 
contained and rule of law is often honored in the breach. Even more 
worrying for most Ghanaians, Kufuor's steady and popular hand on the 
tiller of state will end at the close of 2008. His potential 
replacements need not articulate the same broad and statesmanlike 
policies; several of his possible successors could take Ghana backward, 
especially if world commodity prices slump. Bitter competition in the 
national elections could also widen Ghana's north-south divide, opening 
up sectional fissures in a country now united.
    The last three of the African success stories discussed in greater 
detail in the full report are all still poor, per head (in the $300 
range), but Mozambique is growing at more than 7 per cent per year 
thanks to its aluminum smelter, hydropower exports, and discoveries of 
oil and gas; Tanzania benefits from high world prices for gold. Because 
Uganda is dependent on coffee and fish, and has serious electricity 
weaknesses, its growth has slowed recently. Uganda is also still at 
war, in the north and west, and its efforts at national reconciliation 
have been faltering.
    Leadership has been a reason for success, and now less success, in 
each of these three cases, as well as in the other four. In Uganda, the 
once lavishly praised leadership efforts of President Yoweri Museveni 
have been dissipated by his personal failures to strengthen democracy, 
mitigate corruption, and rule less autocratically. Uganda was once a 
success economically (it still welcomes investors), a victor over HIV/
AIDS, and a country improving governance and building democratic 
institutions. Invading the Congo, running roughshod over the 
constitution, and repressing the political opposition have all reduced 
Museveni's local and international appeal and reduced the sparkle of 
Uganda's achievements since 1986.
    Disappointment may also be growing in Mozambique, where the 
Presidential successor to Joaquim Chissano, the gentle Marxist turned 
democrat, is operating in a more authoritarian manner. He has returned 
the ruling political party that he heads to the centerpiece of 
government and become more intolerant than his predecessor of dissent 
and of opposition. Corruption, always rife in Mozambique, is growing 
under President Armando Guebuza.
    It is also undiminished in Tanzania, not least in nearly autonomous 
Zanzibar. In all three countries, anticorruption legislation, 
commissions, and talk from on high achieves little by way of actual 
reduction. Nor are many senior officials ever caught and prosecuted.
    Corruption hinders improvements in economic productivity in all 
three countries, as well as in the others. One estimate suggests that 
half of all budgeted sums in Uganda are lost to such theft and fraud. 
When these theoretically eradicable drags on GDP are coupled to 
infrastructures that are still fragile--especially in Tanzania--porous 
social safety nets, questionable rules of law, and weak leadership, it 
is no wonder that the prospects in these countries for sustainable 
political and economic advances are still problematic.
    Success is relative. Although all of the seven countries are 
growing, nearly all are dependent on primary commodity exports, not on 
invisible earnings or manufactured products. Unlike the Asian tigers, 
and arguably Botswana, none has entered a steady state of 
sustainability, not even South Africa (where population growth 
continues to outstrip net new job creation). The Asian tigers perform 
well for their peoples--they provide quantities and qualities of the 
seven essential political goods. In the seven African cases, only 
Botswana and South Africa begin to match such levels of performance, 
and South Africa's high crime rate makes it the most insecure country 
among the seven.
    The seven African examples are successes only as compared to the 
rest of Africa, where good governance is rare, corruption common, and 
poverty endemic. However, Ghana, Mozambique, and Zambia should be 
rewarded particular accolades. They have made spectacular recoveries 
from the ravages of war and mismanagement. Uganda might have received 
the same praise today if it were not still mired in conflict and if its 
blemished leadership had not slowed the pace of political and economic 
advance.
    Looking ahead, in every country successors to the current 
leadership have yet to take office or be chosen. Because leadership 
remains critical to the destinies of each of these countries, and of 
all countries in the developing world, and because either current 
leaders or their potential successors exhibit less-than-fully-
democratic traits, the gains made for governance need not be sustained 
beyond the near term. The institutional strength and dominant political 
cultures of South Africa and Botswana should prevent too much slippage 
after 2008, but in the other five countries the institutionalization of 
good governance is still in process, with continued success unproven.

                                  <all>

</pre></body></html>
